<html>
<title> - FEDERALISM AND DISASTER REPONSE: EXAMINING THE ROLES AND RESPONSIBILITIES OF LOCAL, STATE AND FEDERAL AGENCIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                    FEDERALISM AND DISASTER REPONSE:
 EXAMINING THE ROLES AND RESPONSIBILITIES OF LOCAL, STATE AND FEDERAL 
                                AGENCIES

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 19, 2005

                               __________

                           Serial No. 109-46

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                      U.S. GOVERNMENT PRINTING OFFICE
34-419 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 










                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                  (II)









                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honoralee Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    64
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    56
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State Washington...........................................    50
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    66
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    63
The Honorable Katherine Harris, a Representative in Congress From 
  the Stte of Florida............................................    12
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................    14
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    53
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    60
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    13
The Honorable Kendrick B. Meek, a Representative in Congress From 
  the State of Florida...........................................    67
The Honorable Eleanor Holmes Norton, a Delegate in Congress From 
  the District of Columbia.......................................    56
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey...................................    62
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    65
The Honorable Ted Poe, a Representative in Congress From the 
  State of Texas.................................................    67
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    58
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    45
The Honorable Lamar S. Smith, a Representative in Congress From 
  the State of Texas.............................................    12

                               Witnesses
                                Panel I

The Honorable Jeb Bush, Governor, State of Florida:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
The Honorable Rick Perry, Governor, State of Texas:
  Oral Statement.................................................    30
  Prepared Statement.............................................    31
The Honorable Janet Napolitano, Governor, State of Arizona:
  Oral Statement.................................................    32
  Prepared Statement.............................................    38

                                Panel II

The Honorable Roberts Eckels, County Judge, Harris County, Texas:
  Prepared Statement.............................................    68
The Honorable David G. Wallace, Mayor, City of Sugar Land, Texas:
  Oral Statement.................................................    76
  Prepared Statement.............................................    79
The Honorable Audwin M. Samuel, Mayor Pro Tem, City of Beaumont, 
  Texas:
  Oral Statement.................................................    86
  Prepared Statement.............................................    88

                             For the Record

The Honorable Billy Broomfield, a Representative in Congress From 
  the State of Mississippi:
  Prepared Statement.............................................     4
The Honorable Johnny L. Dupree, Mayor, Hattiesburg, Mississippi:
  Prepared Statement.............................................     3
The Honorable Vivian Juan-Saunders, Chairwoman, Tohono O'Odham 
  Nation-Arizona:
  Prepared Statement.............................................    34
The Honorable Oscar G. Ortiz:
  Letter.........................................................
                                                                     16












 EXAMINING THE ROLES AND RESPONSIBILITIES OF LOCAL, STATE AND FEDERAL 
                                AGENCIES

                              ----------                              


                      Wednesday, October 19, 2005

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:14 a.m., in Room 
345, Cannon House Office Building, Hon. Peter T. King [chairman 
of the committee] presiding.
    Present: Representatives King, Smith, Linder, Lungren, 
Gibbons, Simmons, Pearce, Harris, Reichert, McCaul, Dent, 
Brown-Waite, Thompson, Sanchez, Markey, Dicks, Harman, DeFazio, 
Lowey, Norton, Lofgren, Jackson-Lee, Pascrell, Christensen, 
Etheridge, Langevin and Meek.
    Also present: Representative Poe.
    Chairman King. Good morning. The Committee on Homeland 
Security will come to order. The committee is meeting today to 
hear testimony on federalism and disaster response, examining 
the respective roles and responsibilities of local, State and 
Federal agencies. And we are very privileged to have with us 
an--actually both panels of absolute ultimate expert witnesses 
as to confronting the hazards of nature, and, as Governor Bush 
unfortunately knows, perhaps confronting another, you know, 
terrible storm within the next several days. And it is 
especially appropriate that we have this certainly in the 
aftermath of Katrina and Rita, and now with another storm 
coming to Florida this weekend, it is essential.
    I believe that the committee should consider the whole 
issue of what the appropriate Federal response should be, what 
the obligations of State and local governments are, and how it 
is best to make this combination work. Obviously, your States 
have dealt with the wildfires and flash floods, mammoth 
hurricanes, tornados, and it is really the real-life experience 
that you can bring to the hearing today that we are really 
looking forward to.
    I also want to say especially to Governor Bush and Governor 
Perry to thank you for what your States have done in helping 
other States. Many people from Louisiana who have gone into 
Texas, and almost half a million Louisiana residents are now in 
the State of Texas; the fact that the Florida National Guard 
was so quick to go into Mississippi during Katrina really, I 
think, speaks volumes and shows that all of us are in this 
together.
    And I know I speak on behalf of all the members of the 
committee when we talk about the tremendous sorrow and 
destruction that was caused in Harris County, in Beaumont and 
Sugarland by Rita. And, Governor Perry, also I know Judge 
Eckels and Mayor Wallace and Audwin Samuel on the next panel, I 
really want to commend you for your dedication and hard work in 
recent weeks.
    And, of course, Governor Napolitano, it seems as a New 
Yorker--by the way, we lost Governor Napolitano from New York 
many years ago, and so it is good to have you back at least for 
today. You and I can sort of talk the same language even though 
you have lost most of your good accent. But we do see you with 
the wildfires in Arizona, what you have to confront, and it is 
again the fact that all of you are here today is very 
significant.
    To me there are a number of issues we have to look into, 
and that is the extent of the Federal response, what it should 
be; what the role of the Federal Government should be ensuring 
that local governments are coordinated, that they are making 
adequate use of Federal funds, that there are plans in place at 
the State and local level to be coordinated with the Federal 
Government; and what role, if any, should the Federal 
Government play in addition to what it does today.
    I know the President has discussed the possibility of the 
greater use of the military. All of that, I believe, should be 
part of the hearing today.
    I--because of the caliber of our witnesses today, I am 
keeping my opening statement short. I will ask to have it 
inserted into the record. But I do want to get directly to the 
testimony of our witnesses because it is so important. And the 
first witness will be Governor Bush of Florida, and 
Congresswoman Harris has asked to make a few remarks 
introducing the Governor. Oh, I am sorry. The distinguished 
Ranking Member from Mississippi Mr. Thompson.
    Mr. Thompson. Thank you very much. I look forward to the 
testimony. If you can give me about 5 minutes, we will get to 
it.
    Chairman King. The Ranking Member can have as much as he 
wants.
    Mr. Thompson. Thank you very much, Mr. Chairman. Welcome to 
our panel.
    I, too, am interested in federalism and Federal response 
that we, as a government, should adequately do. In the past 2 
months, Hurricanes Katrina and Rita have devastated much of the 
gulf coast of Alabama, Louisiana, Texas and my home State of 
Mississippi. I am always impressed by the spirit and resolve of 
the American people in a crisis. Faced with unthinkable 
circumstances, we saw many acts of heroism and compassion by 
first responders and average citizens. However, both hurricanes 
left us with many questions on our Nation's preparedness and 
the role the Federal Government must play in disaster response.
    Our Federal Government failed the American people, who they 
were here to protect and serve, by not facilitating an 
organized and adequate response. As a former volunteer 
firefighter and local official, I know that response should be 
local, and the folks in Washington, D.C., sometimes forget that 
the Federal Government is here to make our communities as 
strong and as robust as they need to be. That means stepping up 
to the plate when communities are overwhelmed with natural 
disasters of national significance.
    I have spoken to local officials, mayors, firefighters and 
police throughout the Gulf coast, and have uniformly discussed 
the dysfunction and disconnects between the Federal Government 
and our first responder communities. I have here several 
statements, Mr. Chairman, I would like to have entered into the 
record: the mayor of Hattiesburg, Mississippi, Mayor Johnny 
Dupree; State representative Billy Broomfield. I have also 
testimony from the Tahono Nation in Arizona that I would like 
to also inject into the record.
    Chairman King. Without objection.
    [The information follows:]

                             FOR THE RECORD

              Prepared Statement of Mayor Johnny L. Dupree

    As the Mayor of the City of Hattiesburg, Mississippi, a city about 
70 miles from the Mississippi Gulf Coast, I witnessed first-hand the 
impact that a storm of Katrina's magnitude could have on an in-land 
community and the effect that massive numbers of evacuees could have on 
a city without proper federal and state disaster support.
    The single most important thing I discovered after Katrina was that 
FEMA and state officials have not thought enough about how to support 
cities that are near enough to the scene of a natural disaster to be 
somewhat affected by it, but also far enough away that they will be a 
location to which large numbers of evacuees flee.
    Hattiesburg suffered damage from Katrina--including widespread loss 
of power and communications. Additionally, as the first major city in 
Mississippi north of the Coast, we were a prime location for evacuees 
to flee. As a result, even as our city's infrastructure suffered from 
Katrina itself, we were faced with trying to help thousands of people 
in the worst of conditions.
    Although FEMA officials bragged about the way they had pre-
positioned supplies before the storm's impact, I found that the 
materials we needed to help thousands of evacuees in the first crucial 
days after Katrina's landfall were not available. It does not seem that 
FEMA did a good job pre-positioning supplies to help communities 
directly on the Coast, but it certainly did not do a good job pre-
positioning supplies for in-land locations that would house massive 
numbers of evacuees.
    Federal and state officials also failed to properly accept requests 
for resources or to monitor them once made. We would request items 
without always receiving a response as to whether they would be 
delivered. Sometimes items we requested would just show up without any 
notice they were arriving, which made it difficult to distribute them. 
In other cases, resources arrived very late. We requested 50 
portapotties a day after Katrina struck, but we did not receive them 
until 3 weeks later when we did not really need them anymore.
    Additionally, federal and state officials did not have an effective 
means for local officials to report the damage they were observing. 
Instead, these federal and state officials were often working in areas 
that were not necessarily the greatest in need.
    In addition to correcting these problems, I believe there are two 
other key things that can be done to improve federal and state response 
and coordination in a disaster.
    First, in the case of potential natural disasters we know are 
coming, such as a Category III or above hurricane approaching, there 
needs to be a genuine FEMA decision-maker on the ground ahead of time 
in communities that can be directly affected or that will be sites for 
evacuees. The FEMA official sent to Hattiesburg before Katrina struck 
could do little more than help us answer telephones.
    Second, the federal government needs to work more with state and 
local officials to develop evacuation plans for communities and the 
regions in which they are located, as well as the responsibilities for 
each of these levels of government in case the plan must be 
implemented. The Ranking Member of the Committee, Representative Bennie 
Thompson, has introduced legislation that would assist in evacuation 
planning, and I wholeheartedly endorse his proposal.
    Thank you for accepting my testimony.

            Prepared Statement of the Hon. Billy Broomfield

    As the Mississippi State Representative representing Moss Point, 
Mississippi, a town in Jackson County along the Mississippi Gulf Coast, 
I witnessed first hand the devastation caused by Hurricane Katrina and 
the lack of coordination by federal, state and other first responders 
afterwards.
    If I were to recommend a single thing that federal and state 
officials could do to better improve response to a disaster, it would 
be establish ongoing communications with local officials before and 
after the disaster occurs to the greatest extent possible.
    By ``local officials,'' I do not just mean the mayor or local head 
of emergency services. I believe disaster response efforts could also 
be well served if state and federal officials better worked with state 
representatives like me, along with city councilpeople, sheriffs, 
county supervisors, and others. We know our communities very well, and 
after a disaster, we are often the officials that are contacted for 
help by people who cannot find it elsewhere. I will give several 
examples of the problems I witnessed, and what could have been done 
differently if state and federal officials had contacted me.
    Although I represent several predominantly African American 
neighborhoods severely affected by the storm, I did not personally see 
any Federal Emergency Management Agency (FEMA) officials until the 
Sunday almost a week after the Katrina struck. They were taking 
photographs of some destroyed residences along the waterfront, which 
struck me as a poor use of resources at the time considering there were 
several neighborhoods further from the beach that had severely damaged 
buildings that were still capable of being saved if help arrived 
quickly. If FEMA had returned any of my calls prior to then, or reached 
out to me on its own, I could have told the agency what neighborhoods 
could best be helped.
    FEMA and the Red Cross's initial disaster response offices nearest 
Moss Point were located near the interstate, a long way from many of 
the minority and other neighborhoods severely affected by Katrina. When 
I held a meeting with the Red Cross in an African American neighborhood 
in order to discuss whether a new office could be located nearby in 
order to better serve the area, FEMA did not attend even though its 
officials were invited.
    Pascagoula, Mississippi, which is near Moss Point, had a Navy 
hospital ship docked nearby for several days after the hurricane. 
According to the ship's commanding officer, it had treated 3,000 people 
since the storm. However, while I was on the ship discussing efforts 
with the commanding officer to bus in many of my constituents who still 
needed medical care, he received orders to move the ship. Apparently 
state officials had told the Navy the ship was no longer needed. I was 
standing right there--I could have told the federal or state officials 
making these decisions that it was still desperately needed.
    In the days after Katrina struck, there were also numerous 
volunteer doctors and other medical professionals who came to Moss 
Point to help, but were turned away for various reasons, such as being 
told that their medical licenses were not good for working in 
Mississippi. We desperately needed this help at the time. I am sure 
that state and federal officials could have worked out these problems 
if they had been willing to communicate better with one another or 
other elected officials, like myself, who could have encouraged the 
appropriate state authorities to provide whatever waivers were 
necessary.
    Even now, more than six weeks after Hurricane Katrina struck, I 
have not been able to get any FEMA officials to return my calls. I have 
received numerous questions and complaints from my constituents about 
everything from mobile home availability to the level at which their 
house needs to be rebuilt to qualify for loans for rebuilding. I could 
serve as a valuable tool for FEMA to communicate with many of these 
victims of the hurricane--if the agency would just return my call. 
Yesterday, I asked for Representative Bennie Thompson's help to get 
FEMA to contact me. While I appreciate Mr. Thompson's assistance, it 
should not have been necessary for a Congressman to intervene to get my 
calls returned.
    Finally, in addition to better reaching out to local officials 
before and after a disaster, I also believe that FEMA and other federal 
agencies could be of valuable assistance helping local communities, 
like Moss Point, develop and test evacuation plans. If Hurricane 
Katrina had struck my town head on, I am not sure that we would have 
adequately evacuated all our at-risk citizens ahead of time. 
Representative Thompson has introduced legislation requiring FEMA to 
help local communities with evacuation planning, and I wholeheartedly 
support this effort.
    Thank you for accepting my testimony.

    Mr. Thompson. The Federal Government has the ability, 
assets and responsibility to help State and local governments 
respond to major disasters that overwhelm or threaten to 
overwhelm their resources. Anyone who has been a local official 
knows that it is absurd for the Federal Government to sit back 
and watch our towns struggle to respond to disasters of 
national significance. Indeed, the National Response Plan 
clearly lays out what assistance the Federal Government and DHS 
are expected to provide in the case of a catastrophic event.
    Mr. Chairman, I also have a copy of the DOD severe weather 
order that I would like to also enter into the record.
    Chairman King. Without objection, it will be part of the 
record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Thompson. With Hurricane Wilma potentially looming over 
the gulf coast, I am concerned.
    I look forward to hearing from the witnesses here today 
about how we can improve a broken system and ensure that State 
and local communities are protected whether from a natural 
disaster or a terrorist threat.
    Thank you, Mr. Chairman. And I look forward to the 
testimony.
    Chairman King. Thank you, Mr. Thompson.
    And now, without any more delay.
    Ms. Harris. Thank you, Mr. Chairman. Thank you very much. I 
am grateful to have been afforded the honor of introducing to 
this committee a man whose disciplined leadership and 
innovative governance have placed him in a league of his own. 
As Florida's 43rd Governor, Jeb Bush has developed a well-
earned repetition as a common-sense manager armed with uncommon 
and noble ability to steer his ship of state through the most 
trying of times. As a Floridian it is with respectful pride 
that I call him Governor. As an individual it is with an equal 
level of honor that I call him friend.
    Prior to the truest test of leadership skills, Winston 
Churchill noted even ordinary life and business involve the 
encountering of unknown factors and require some effort of the 
imagination, some stress of the soul to overcome them. In the 
course of his two terms in governance in office, Governor Bush 
has proven eminently qualified to exert an effort of the 
imagination and a stress of the soul. This prosperity was 
maintained even in the face of the destructively active 2004 
hurricane season in which four devastating storms, including 
three of which hitting my district directly, challenged 
residents and public officials alike. Yet Florida was able to 
retain its position as the top travel destination in the world 
and as the Nation's number one State in job growth for the past 
3 years. This resilience was needed.
    Even with Hurricane Wilma approaching and through seven 
hurricanes, two tropical storms in the past 13 months, Governor 
Bush and his administration have displayed the qualities which 
I believe distinguish them as an emergency response team 
without peer. The lessons learned through congressional 
hearings and media reports echo what we as Floridians already 
know: Florida can serve the Nation as a model for State 
response to emergency situations. As the Governor of South 
Carolina stated when asked what he would do if his State was 
threatened by a hurricane he said, call Jeb.
    Thank you Mr. Chairman.
    Chairman King. I thank the gentlelady.
    And now Congressman Smith will introduce Governor Perry.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, before I get to the formal introduction, let 
me say that in my judgment, not many elected officials emerged 
from the aftermath of Hurricane Katrina as genuine heroes, but 
I believe that Governor Perry is a hero given his actions after 
that hurricane. Texas welcomed hundreds of thousands of 
evacuees. Governor Perry immediately committed the State's 
resources to make them feel welcome, and he did so not knowing 
where those resources were going to come from, only knowing 
that we had to help, and for that, as I say, I think he 
deserves to be called a genuine hero.
    Rick Perry was sworn in as the State's 47th Governor on 
December 21, 2000. Prior to that he was Lieutenant Governor and 
also served two terms as Texas Commissioner of Agriculture. 
From 1985 to 1991, he served in the Texas House of 
Representatives representing a rural west Texas district.
    Between 1972 and 1977, Governor Perry served in the United 
States Air Force, flying C-130 tactical airlift aircraft in the 
United States, Europe and the Middle East. He is a 1972 
graduate of Texas A&M University, where he was a member of the 
Corps of Cadets.
    Governor Perry grew up in the small community of Paint 
Creek, 60 miles north of Abilene, on his family's farm and 
ranch. Rick and Anita Perry are the parents of two adult 
children.
    Mr. Chairman, thank you again for the opportunity to 
introduce the Governor of the largest State that does not 
consist of ice, Governor Rick Perry.
    Chairman King. Since Texas always tries to be twice as big 
as everyone else, Congressman McCaul wants to say a few words.
    Mr. McCaul. Thank you, Mr. Chairman.
    It is an honor to share in the introduction. And first I 
would like to say as accustomed as Texans are to bragging, I 
would like to brag a little bit about my Governor. You know, 
they say crisis brings out true leadership, and I think we saw 
that with this Governor. After the tragic events of Katrina, he 
welcomed nearly a quarter of a million of his neighbors to his 
home State, gave them clothes, food, shelter. It was the right 
thing to do, it was the compassionate thing to do, and I was 
proud to be a Texan.
    I remember visiting the emergency operation center when the 
Vice President came to Austin, and we went over the plan of 
what would happen if a Katrina hit the Gulf, the State of 
Texas. And they showed us these computer models of how it would 
literally cover the island of Galveston and flood Houston. 
Little did we know that about a week later we would be faced 
with that very threat. Fortunately it did not hit the most 
populated area of Texas, but fortunately the Governor 
implemented the evacuation plans along with the State and local 
officials. He did federalize the National Guard, and remarkably 
there was no direct loss of life due to the hurricane.
    My grandfather survived the 1900 Galveston hurricane. They 
found him in a tree. He climbed to the top of the tree, and he 
was rescued from that tree. Ten thousand people died in that 
hurricane.
    I think the fact that we survived with no one losing their 
life in that instance is a real tribute to your leadership, and 
I am proud that you are my Governor, and I am proud to call you 
my friend. Thank you.
    Chairman King. Mr. McCaul, I don't know if the gentlelady 
from Texas has recovered from Monday night's baseball game yet, 
but if she has and would like to make some remarks, she is 
recognized.
    Ms. Jackson-Lee. Mr. Chairman, first of all, it is 
certainly an honor to share this podium with you as the new 
Chairman of the Homeland Security Committee, along with a very 
stellar and outstanding Ranking Member. I expect great work 
that we will proceed with.
    Governor Perry, you have to defend me. Obviously we know 
that both of us share the dream of go Astros, but with my 
colleagues, let me acknowledge all three of the Governors and 
specifically point to Hurricane Rita.
    I want to say to my colleagues that Texas was blessed and 
we are blessed even to be able to share our lives with 
Hurricane Katrina survivors. The Governor has opened up our 
home to them. I thank you for that. But watching the work that 
we were able to do together during Hurricane Rita, you in 
Austin and those of us at the transfer center, let me thank you 
for respecting the work of Mayor Bill White and Judge Robert 
Eckels and all of the local officials for the work that they 
did. I think if there is a stellar comment to be made about the 
work of the Governor's office and our local community was that 
we, you, worked with them and their leadership. Let me thank 
you, and we look forward to your testimony.
    Chairman King. I thank the gentlelady.
    The Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman. I am happy 
to introduce Governor Napolitano from Arizona. She comes, as 
you know, with sterling credentials. She is Vice Chair of the 
NGA. She has made it her career to be a person of the people. 
We are excited to have her. We had an opportunity to have 
conversation earlier. I look forward to it.
    We want to welcome you. The camaraderie, Governor, you see 
here this morning, we do this every day. There is never a cross 
word on this committee. And so we look forward to the 
testimony.
    And, Mr. Chairman, if I might, I want to yield the balance 
of my time to the gentlewoman from California.
    Chairman King. The gentlelady is recognized.
    Ms. Sanchez. Thank you, Mr. Chairman, and I thank my great 
colleague from the State of Mississippi, and I, too, want to 
welcome a good friend, Governor Napolitano from Arizona, as a 
daughter of parents who grew up on the Douglas, Arizona, and 
Nogales border, with plenty of family in Kearney and Tucson and 
Mesa and every place you can imagine in Arizona. I have had the 
pleasure of being out there to hear your people and how much 
they love you. And we love you also. We are glad that you are 
here, and we look forward to your testimony.
    I also want to add that this Governor's State is one of 
only three States that has an accredited program in the 
emergency area.
    So we look forward to hearing your testimony this morning, 
Governor.
    Chairman King. For those of you who didn't get to make 
introductory statements, you will know that opening remarks can 
be inserted into the record.
    [The information follows:]

             Prepared Statement of Hon. Sheila Jackson-Lee

    I thank the Gentleman from New York, the Chairman, and the 
Gentleman from Mississippi, the Ranking Member for holding this very 
necessary hearing today. The distinguished panel of witnesses will 
afford me a unique opportunity given that my District in Houston, 
Texas, represents a significant stakeholder with respect to both 
Hurricanes Katrina and Rita respectively. Prior to Hurricane Katrina, 
never a disaster caused such a massive displacement of a U.S. 
population. Furthermore, never has the United States seen so vividly 
the exposure and vulnerability of displaced persons--primarily the 
poor, the infirm, and the elderly. We know from experience that 
disasters take their greatest toll on the disenfranchised, but the 
distressing television images of our citizens stranded without basic 
human necessities and exposed to human waste, toxins, and physical 
violence awakened the public health community to a frightening 
realization: given the ineffective response mechanisms that were in 
place, Katrina could become a public health catastrophe.
    The Homeland Security Act of 2002 established DHS to: prevent 
terrorist attacks within the United States; reduce the vulnerability of 
the United States to terrorism, natural disasters, and other 
emergencies; and minimize the damage and assist in the recovery from 
terrorist attacks, natural disasters, and other emergencies. The act 
also designates DHS as ``a focal point regarding natural and manmade 
crises and emergency planning.'' Poor response time, leadership, 
competency levels, and recognition of the central needs of the people 
illustrate the fact that this Administration simply failed at 
implementing the Homeland Security Act and its legislative intent. All 
the finger-pointing in the world will not bring back the individuals 
who have perished as a direct result of the acts or the failure to act 
by the government in connection with the administration of disaster 
relief for Katrina and Rita.
    Relative to the border emergency that occurred at the Arizona-
Mexico border, the Administration's failure to maintain or to restore 
dollars to Arizona's emergency medical response system proved 
detrimental when the state had to respond to this situation. The U.S. 
border with Mexico is some 2,000 miles long, with more than 800,000 
people arriving from Mexico daily and more than 4 million commercial 
crossings annually--clearly, this Administration was on notice that 
funding cuts would adversely affect prevention of the kind of emergency 
situation that befell Arizona.
    Local school districts are not under the jurisdiction of the City 
or County government. Even though FEMA, the City/County are assisting 
evacuees with housing, other than school districts making classroom 
space available, there is no coordinated effort to see to it that 
children's education continues. The record-keeping is inadequate, and 
it is presumed that many of the Katrina evacuee school-aged children 
are not enrolled. We must immediately find ways in which the federal 
government can assist with communication when issues cross 
jurisdictional lines.
    Following Katrina, the American Red Cross used the Reliant 
Astrodome as a shelter. A shelter at the George R. Brown Convention 
Center was set up by the City of Houston with the help o faith-based 
organizations. Voluntary relief organizations were quickly included. 
Red Cross opened many smaller shelters across the region. However, 
there were times that no one had a complete list of open shelters. At 
the same time, the faith-based community generously opened their doors 
to evacuees. There is no single entity or resource that these 
organizations could turn to for information or for help. The federal 
government has a role in coordination, but it seems limited at this 
point. This body must hold a separate hearing in order to revisit the 
scope of this role and to assess whether additional statutory or other 
regulatory responsibility should be crafted.
    As Co-Chair of the Congressional Children's Caucus, it continues to 
trouble me that my District's Head Start providers have classroom space 
and funding to accommodate most of the evacuee's children; however, 
there is no direct liaison to help identify the students who need 
enrollment. One of our Head Start representatives on the ground in 
Houston expressed an interest in receiving training on how to prepare 
for a natural disaster as well as policy briefings on suggested 
disaster response procedures. These issues are part of the evidence 
that our preparedness is severely lacking.
    A letter from the Honorable Mayor Oscar Ortiz of the City of Port 
Arthur accurately states the problem that we face:
    [We have been told that local jurisdictions are responsible for 
much of this care; however, we do not think it is realistic to believe 
that local jurisdictions can provide the quality of care needed for 
hundreds, even thousands, of evacuees for an extended period of time.]
    Today, we must let the record reflect that local jurisdictions need 
help, and they need it to be in place quickly and in adequate fashion!
    Mr. Chairman, Mr. Ranking Member, again, I thank you and the panel 
of witnesses for their time, and I hope that the record created today 
will aid us in fixing the many problems that hinder our ability to 
adequately respond to both natural disasters in addition to terrorist 
attacks. I yield back.

    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman King. And due to our time constraints today, we 
will need to move immediately to testimony from our witnesses. 
The Chair now recognizes the Governor of Florida, Governor Jeb 
Bush. And also if the witnesses can try to keep their remarks 
to 5 minutes.

STATEMENT OF THE HONORABLE JEB BUSH, GOVERNOR, STATE OF FLORIDA

    Governor Bush. You bet. Thank you, Mr. Chairman. 
Congresswoman Harris, Congressman Meek, Congresswoman Brown-
Waite, it is a delight to be with you all. The last time I was 
at this committee, I believe this same committee was convened 
in New York City after September 11, 2001, and we came to share 
the response at the local and State level to the attack on our 
homeland. And as I reflect back on that meeting, many of the 
same lessons learned from four hurricanes, three--excuse me, 
seven hurricanes now, two tropical storms and a hurricane that 
is approaching our State, over the last 13-1/2 months apply.
    The resources that local governments and State governments 
apply to emergencies have a direct, positive benefit to 
protecting our homeland as well, and so it is a joy to be here 
to talk about something that is important for the safety of our 
citizenry and also, I think, for the protection of our country.
    I have prepared remarks, but this morning when I woke up at 
4:00 to fly up here, I turned on the Weather Channel, which 
now, unfortunately, I seem to do more often than not, and I saw 
that Hurricane Wilma, the W storm--we are going to the Greek 
alphabet next--now a Category 5 storm, and in all likelihood 
will hit either the Florida Keys or southwest Florida hopefully 
not at Category 5 force by Saturday. So perhaps rather than 
tell you kind of in the esoteric or the abstract why this is 
important, maybe I can tell you what I have done this morning.
    The emergency operation center in Tallahassee has been 
activated. It will be working by tomorrow 24 hours-a-day. So 
have the emergency operations centers of all of the impacted 
areas from Tampa Bay on the southwest coast down to Collier 
County, as well as Monroe County. By 12:00 today, because we 
have our protocols established, uniquely depending on each 
county, evacuations, mandatory evacuations, will occur for 
visitors in the Florida Keys at noon today. We have contractual 
arrangements with every hospital in the State for them to 
evacuate when they are required to do so, and that process will 
begin in the Florida Keys by 1:00 today. Transport will be 
provided by the Florida National Guard, and emergency room 
service will be available for the Keys should a storm hit 
there. Other places will evacuate probably by Friday.
    Our special needs shelters, which we have expanded 
dramatically in the last 2 years, will be staffed in advance by 
dedicated public health nurses. We have learned lessons from 
the previous storms that it is important to pre-stage people. 
If we need to bring them in by Chinook helicopters, we have 
actually contracted already with the North Carolina National 
Guard to have Chinook helicopters be made available, so that we 
can have an immediate massive response to make sure that we 
save lives, as well as bring the recovery as quickly as 
possible to our State.
    We have pre-staged ice and water in trucks that we control, 
that we contract with, in our own warehouses so that we can--
and we have created actually--because of lessons learned, we 
now have points of distribution that we have designed for 
maximum through--put. We brought in logistics experts from the 
private sector to teach us how to do this. If Wal-Mart can do 
it, why can't the government do it is kind of the question that 
I have been asking for the last 6 months, and, in fact, we can. 
So within 24 hours our hope is, depending on the magnitude of 
this storm, that in the impacted areas, in the pre-staged, pre-
planned places and selected places designed and selected by the 
communities themselves, we will have points of distribution to 
provide water and ice and food and tarps for the residents of 
these impacted areas.
    We have pet shelters now, because we heard from our 
citizens that they weren't leaving unless there was a place to 
take their beloved pets as well. And so those will be activated 
beginning probably tomorrow.
    This will be done in a joint command, by the way, with the 
FEMA representative in our State and our very able emergency 
management director making these decisions together. And you 
know, I have watched TV like the rest of America about the 
response to the storms of this year. I can tell you one thing. 
I appreciate FEMA's ability to work with States and communities 
that are prepared and take this as a serious enterprise. We 
have never had a problem with FEMA responding in preparation 
for storms. There are things that we can all do better and FEMA 
can certainly do better as it relates to processing all of the 
voluminous paperwork that Governor Perry's State and community 
and our States have to go through when there is a disaster. 
They can do a better job in a lot of different ways. But we 
appreciate the Federal response, and we appreciate the 
seamlessness of it, and if you were in Tallahassee today, you 
would see that the seamlessness works.
    And so I would urge you not to lose the bottom-up approach 
to preparing and providing relief for the citizens of our 
country. If this process is federalized, the innovation, the 
creativity, the sense of responsibility, the passion for 
service would subside, and the local knowledge that makes it 
more effective.
    I appreciate the chance to come, and I hope that you will 
be praying for the residents of the southwest coast of our 
State in the next few days as they prepare for the big storm 
that is coming.
    Chairman King. Thank you very much, Governor Bush.
    [The statement of Governor Bush follows:]

                  Prepared Statement of Hon. Jeb Bush

    Thank you, Mr. Chairman and distinguished Members of the Committee 
for allowing me to speak before you today. I appreciate the opportunity 
to share with you some of Florida's learned lessons with emergency 
management and also provide you with some thoughts on how the federal 
response system could be enhanced.
    Florida learned a hard lesson about response and recovery after 
Andrew, a Category 5 hurricane, which stormed through South Florida in 
August of 1992. Hurricane Andrew was the most destructive of hurricanes 
in the United States. It was responsible for many deaths and caused 
$26.5 billion in damages. That catastrophic storm was a wake-up call 
for all Floridians.
    The improvements and investments made in the years since Andrew are 
the reason Florida was able to effectively respond to seven hurricanes 
and three tropical storms affecting our state in the past 14 months 
(Hurricanes Charlie, Frances, Ivan, Jeanne, Dennis, Katrina, Rita and 
Tropical Storms Bonnie, Ophelia, Tammy) and is able to help our 
neighboring states in their time of need. We continue to learn lessons 
from our experiences and improve our system after each disaster.
    This is why I can say with certainty that federalizing emergency 
response to catastrophic events would be a disaster as bad as Hurricane 
Katrina. The current system works when everyone understands, accepts 
and is willing to fulfill their responsibilities. Florida's system can 
be successful in states throughout the nation, without the federal 
government stepping on state's rights.
    In fact, when local and state governments understand and follow 
emergency plans appropriately, less taxpayer money is needed from the 
federal government for relief. Cities, counties, states, the federal 
government and we as Americans need to accept responsibility for these 
disasters and learn our lessons. More importantly, if we do not apply 
the lessons learned to future disasters, the problems will continue to 
snowball and the disasters will become more costly--in the number of 
lives and the number of dollars.

Lesson learned: the bottom-up approach yields the best results.
    Just as all politics are local, so are all disasters. The most 
effective response is one that starts at the local level and grows with 
the support of surrounding communities, the state and then the federal 
government. The bottom-up approach yields the best and quickest 
results--saving lives, protecting property and getting life back to 
normal as soon as possible.
    Craig Fugate, our able Director of Emergency Management, says, 
``Response can be quick, cheap or perfect--pick one.'' Florida invests 
substantial funding in planning and training for disasters so our 
response is as efficient as it can be when preparing for the unknown. 
But when a disaster strikes, our focus is on speed. Our goal is to 
respond quickly to needs of our citizens. Because our cities and state 
have a solid plan in place, our response capabilities are able to 
better serve our residents.
    Although we remember a lot of destruction and damage from last 
year's unprecedented hurricane season, we also remember how Floridians 
united and worked as a team to overcome a crisis. County emergency 
directors, law enforcement officers and first responders remained on 
the job even after losing their own homes. After each storm, many of 
our doctors, nurses and health care workers left their own families to 
care for the hundreds of displaced residents in general and special 
needs shelters. Despite the impact the storms had on their own homes 
and families, these selfless individuals gave security, comfort and 
care to others in a time of need. Throughout all the storms, I was 
proud to be governor and witness first-hand how the worst of times 
brought out the best in Floridians.
    The current emergency response system plays to the strengths of 
each level of government. The federal government cannot replicate or 
replace the sense of purpose and urgency that unites communities 
working to help their families, friends and neighbors in the aftermath 
of a disaster. If the federal government removes control of 
preparation, relief and recovery from cities and states, those cities 
and states will lose the interest, innovation and zeal for emergency 
response that has made Florida's response system better than it was a 
decade ago.
    Local officials should be responsible for emergency management; 
however, the federal government also plays an important role. The 
Federal Emergency Management Agency (FEMA) should serve as a conduit to 
the tremendous resources available at the federal level. For example, 
communities may not have the expertise or wherewithal to provide 
temporary housing to thousands of displaced residents. It makes sense 
for FEMA to coordinate a temporary housing plan that can be implemented 
anywhere a disaster may happen in our country.
    The federal government is capable of providing access to equipment, 
manpower, programs and funds to meet the large, but temporary needs 
created by a catastrophic disaster. FEMA can also provide an invaluable 
service to state and local communities by coordinating the federal 
response to disasters. Knowing where to get help, especially in the 
maze of the big federal bureaucracy, ensures quick and effective 
results in the impacted area.

Lesson learned: a successful response depends on teamwork and a clear 
command structure.
    Florida's emergency response team is made up of numerous agencies 
at all levels of government, charitable and faith-based organizations 
and private sector businesses. Members of the Florida National Guard 
and state law enforcement officers work side-by-side with local 
policemen and firemen. Volunteers with the Red Cross and Salvation Army 
join local community organizations, volunteer groups and churches, 
synagogues and mosques to provide aid and comfort to those in need. 
Hospitals, nursing homes and power companies are among the many 
business partners in our disaster planning, response and recovery. Once 
a storm is forecast for landfall in Florida, these groups put their 
disaster response-and-recovery plans into high gear.
    Florida's team is led by a unified command, a partnership between 
the state and federal government to coordinate efforts, share 
resources, make decisions and provide direction with one voice. During 
a disaster, I designate Craig Fugate, Director of Emergency Management, 
to serve as the chief coordinating officer of our state response. I 
delegate statutory authority to him so he can do his job effectively 
and report directly to me. He works with all of the agencies in a way 
that fosters respect and loyalty. Perhaps more importantly, his 
colleagues, even those who may technically ``outrank'' him in our state 
bureaucracy, understand his role and support our mission as a team.
    Last year, FEMA designated Bill Carwile as the chief federal 
coordinating officer. Together, Craig and Bill, and all the officials 
from local offices to federal offices, worked as one, unified team and 
as a result, did a phenomenal job helping the people of Florida.

Lesson learned: local and state governments that fail to prepare are 
preparing to fail.
    Natural disasters are chaotic situations. But with proper 
preparation and planning, it is possible--as we in Florida have 
proved--to restore order, quickly alleviate the suffering of those 
affected, and get on the road to recovery. In Florida, we plan for the 
worst, hope for the best and expect the unexpected.
    Because critical response components are best administered at the 
local level, planning for disasters and emergencies also begins at the 
local level. In Florida, each county and municipality has a plan that 
covers every aspect of emergency management--before, during and after a 
disaster. Our year-round planning anticipates the needs and challenges 
of each community--well before a storm makes landfall.
    To ensure an efficient evacuation, plans to reverse traffic along 
major interstates, called contra-flow, have been developed and modeled 
where feasible. Shelters that provide medical care for the sick and 
elderly take reservations long before a storm starts brewing. Since 
1999, Florida has been successful in reducing the deficit of hurricane 
shelter space by more than 50 percent. Twelve Florida counties now 
demonstrate a surplus of public hurricane shelter space. Due to 
retrofitting existing schools and public facilities, capacity within 
shelters is approximately 764,170 and by next year, shelter capacity 
will grow to 816,778 spaces.
    Practicing the plan is also important. We hold several statewide 
tabletop exercises a year to test the plan under different scenarios 
and most local governments do the same. Our first responders meet 
annually at the largest hurricane conference in the country to share 
new and innovative ways to respond to emergencies. Since Hurricanes 
Katrina and Rita, emergency managers from Broward, Miami-Dade, and the 
Tampa region have briefed federal officials and me, reviewed plans, and 
identified ways to improve our local and state response system. After 
each storm, wildfire, drought, flood, other disaster or exercise, we 
hold a ``hotwash'' to discuss what went right and wrong. This is an 
important part of the cycle that continually allows us to improve.

Lesson learned: a successful response requires strong communication and 
coordination.
    When a serious storm threatens our state, the State Emergency 
Operations Center, the National Hurricane Center, regional weather 
services, state agencies and county emergency managers conduct numerous 
conference calls to share information, identify needs and plan the 
response. To ensure people get out of harm's way in a safe and orderly 
manner, counties coordinate with each other and issue evacuation orders 
in phases. Additionally, some counties provide shelters for other 
counties.
    Communicating with the public is also important before a storm is 
forecast and after a storm makes landfall. One of the messages we 
frequently tell Floridians is that a storm is not just a skinny black 
line on the hurricane tracking map, meaning hurricanes do not only 
affect a small forecasted area, but a very vast area, so all residents 
need to be prepared. In communicating this and other messages, people 
listen and heed the directions of their trusted leaders. Providing 
accurate information immediately before and after a storm reassures 
citizens that its government is responding to their plight.

Lesson learned: the state needs to support_not supplant_local efforts.
    The leadership of the Florida state government meets regularly as a 
team to ensure each agency has an emergency response plan that can be 
executed in the event of a disaster. Each agency plays a role in 
preparing, responding and mitigating disasters.
    Florida's Department of Health, in coordination with federal, state 
and local officials, mobilize the Disaster Medical Assistance Teams 
(DMAT) to provide medical care in the aftermath of the storm. Our 
Department of Health also works together with the Department of Elder 
Affairs to ensure special needs shelters are open and prepared to care 
for Florida's most vulnerable citizens. Following the storm, our 
healthcare agencies work together to transition patients, veterans and 
the elderly from shelters to stable, long-term care facilities.
    The Agency for Health Care Administration works with hospitals, 
nursing homes and assisted living facilities to assist in evacuation 
and relocation of sick and injured patients. The agency allows 
pharmacies to refill prescriptions early to ensure residents, including 
those on Medicaid, have medication to treat chronic illnesses such as 
diabetes, hypertension and heart conditions.
    Natural disasters can be very stressful events, causing high levels 
of anxiety and depression, and an increase in spouse and child abuse. 
The Department of Children and Families created Project Hope, and 
collaborated with FEMA and community-based organizations, to provide 
short-term crisis counseling to those affected by the hurricanes. We 
also expanded the state's Violence Free Florida campaign to develop and 
distribute domestic materials to organizations involved in the relief 
and recovery efforts. We asked government agencies, corporate and 
business leaders, professional associations and other organizations to 
establish or renew their ``no tolerance for domestic violence'' 
policies.
    Florida's Department of Transportation lifts restrictions on weight 
limits for trucks so supplies can get where they are needed quickly. 
Immediately after the storms, transportation officials work with local 
officials to clear debris and reopen roads. Thanks to the speedy 
efforts of the Department and its contractors, travel and commerce 
returned to the Interstate 10 Bridge within three weeks after Hurricane 
Ivan washed out dozens of the massive spans that connect Pensacola to 
the rest of Florida and provide a critical transportation link across 
the nation from California to Jacksonville, Florida.
    The Department of Environmental Protection works with power 
companies to restore electricity to critical facilities, hospitals, 
schools, homes and businesses, as well as the impacted areas as quickly 
as possible. The Department works closely with petroleum companies and 
our neighboring states to maintain fuel supplies before the storms 
along major evacuation routes and after the storms for emergency 
response vehicles. Fuel distribution is based on the region's 
priorities and is replenished as quickly as possible.
    Hurricanes impact every aspect of a community and we work quickly 
for individuals to have a return to normalcy. Education is a top 
priority in Florida, and it remains that way even when a hurricane 
makes landfall. Children attending school is a leading indicator of 
recovery. Officials with the Department of Education help county school 
superintendents reopen schools quickly. Last year, after many school 
bus drivers lost their homes and could not immediately return to work, 
the Florida National Guard stepped in and drove Florida's children to 
school.
    Florida's Agency for Workforce Innovation had its personnel on the 
ground shortly after last year's disasters to offer unemployment 
assistance to people who lost jobs from the storms. Through their 
mobile one-stop centers they were able to bring assistance to the 
impacted areas to help claims be processed from impacted businesses. 
They were also able to provide job training and placement for workers 
whose employment was affected by the storms.
    Florida's Small Business Emergency Bridge Loan Program provides 
funds for small businesses to make repairs, replace inventory and 
reopen for business quickly. Obtaining a loan through the U.S. SBA and 
waiting for an insurance claim to be processed can often be a slow 
process. These short-term, no interest loans are intended to ``bridge 
the gap'' between the impact of a major catastrophe and when a business 
has received insurance proceeds and secured other more long-term 
financial resources. These loans are critical to keeping businesses 
open and Floridians working while a company makes arrangements for more 
long-term financing. Florida has made approximately $50 million 
available for this loan program for the 2004-2005 hurricanes. 
Historically the repayment rate has been approximately 90 percent.
    Officials with our Secretary of State supported local Supervisors 
of Elections to ensure counties that lost all or many of their polling 
places could participate in the primary election held 18 days after 
Hurricane Charley tore through Southwest Florida.
    We also learned that government cannot respond alone. During last 
year's hurricanes, the generous outpouring of support from the private 
sector filled the gaps left by government. The Florida Hurricane Relief 
Fund, established after the first storm, raised and spent more than $20 
million on relief efforts that could not be met by other volunteer, 
federal, state or local agencies.

Lesson learned: investing in the right tools enhances response 
capabilities.
    As the world learned from Katrina, receiving and providing accurate 
and timely information is essential to a successful response. Good 
intelligence about what is happening on the ground allows emergency 
managers to make decisions about what resources are needed and where 
they are needed most. Technology can improve our ability to share 
information when the electricity, phones and cell towers go out.
    Last year, Florida invested in a uniform statewide radio system 
that allows state and local first responders to communicate with each 
other during a crisis--regardless of the kind of radio system or 
frequency they use. Today, more than 200 local public safety dispatch 
centers in all 67 of Florida's counties are equipped to connect first 
responders and law enforcement even if the radio systems they use on a 
daily basis are not compatible. Simultaneous conversations can be 
established quickly and seamlessly on a private network without 
disruption to normal operations.
    Technology, such as Global Positioning Systems (GPS) and mapping 
software, can improve our preparation and response in other ways. 
Identifying the likely path of storm surge and testing the impacts of 
wind speed on buildings provides a sound, scientific basis for 
evacuation plans. Knowing who needs to evacuate--as well as who does 
not--can greatly improve disaster planning, especially in large urban 
areas. The size of the evacuated population impacts nearly every aspect 
of emergency preparation, response, and recovery, such as managing 
traffic and gas supplies, ensuring adequate shelters, and even 
anticipating potential damage to accelerate recovery.

Lesson learned: prepared citizens make the difference.
    All Floridians play a role in preparing, responding and recovering 
from disasters. Before hurricane season starts, we encourage our 
residents to create a family disaster plan based on where they live and 
the survivability of their homes. Citizens know if the order comes from 
their local officials to evacuate, they may only need to travel tens of 
miles rather than hundreds of miles. Citizens that don't need to 
evacuate--those that can safely shelter in place--are urged to secure 
their homes against potential damage and gather water, non-perishable 
food and necessary supplies to last them at least three days. This 
year, I partnered with the Federal Alliance for Safe Homes Inc. 
(FLASH), a non-profit organization, to develop a public service 
campaign in English and Spanish aimed at educating homeowners about the 
correct way to board up their homes against the high winds of a 
hurricane. Additionally, to encourage our citizens to prepare for 
hurricane season this year, Florida suspended the state sales tax for 
12 days on disaster supplies, such as flashlights, batteries and 
generators.
    Individuals must also plan for the financial impacts of a 
catastrophic natural disaster, especially with regard to insurance. 
Last year, we enacted a law that simplifies homeowners' insurance 
policies. Florida requires insurance companies to offer plain language 
policies with financial disclosures and a checklist of what is--and is 
not--covered by their policy. Florida also requires companies to offer 
policies that replace the actual value of the home rather than the 
amount of the mortgage. This provision is especially important in our 
fast growing state where property values are increasing by double 
digits annually.
    After Hurricane Andrew in 1992, the private reinsurance industry 
abandoned Florida. In response to this void, Florida established the 
Florida Hurricane Catastrophe Fund, which requires insurance companies 
to purchase reinsurance from the fund for protection against major 
disasters. Private insurance would not exist in Florida today without 
our established state catastrophe fund.
    After last year's hurricanes, insurance companies received more 
than $3.6 billion from the Catastrophe Fund, stabilizing the Florida 
market and cushioning the impact of $21 billion in insurers' losses 
from the 2004 hurricane season by pooling the catastrophic risk of 
hurricanes in Florida.Sec. 
    By providing reliable, affordable protection against catastrophic 
losses to insurers doing business in Florida, only one company went 
bankrupt from the most devastating hurricane season in our state's 
history. In contrast, after Hurricane Andrew, at least nine insurers 
were rendered insolvent as claims mounted. Others left the market 
altogether.
    Those who prepare for a storm, by gathering their documents, 
protecting their home, stocking extra food, water, medication and other 
supplies and sheltering properly in place or evacuating in the proper 
amount of time, are better prepared to successfully overcome the 
impacts of a storm than those who are unprepared.

Lesson learned: innovation born from disasters can improve daily 
operations.
    Last year, more than a million Floridians needed immediate access 
to public assistance. As a result, our Department of Children and 
Families launched a web based emergency system for people to apply and 
receive certain benefits, including food stamps. ACCESS Florida 
(Automated Community Connection to Economic Self-Sufficiency) is now a 
model for the nation.
    Automating the application system enabled the state to quickly 
provide $161 million in disaster aid to 1.3 million people in 27 
Florida counties. These innovations were so successful they became the 
cornerstone of ACCESS Florida and optimized the Department's efforts to 
modernize and improve the everyday delivery of public assistance for 
all Floridians. The new system saves taxpayer dollars while providing 
greater access and better service to the public.

Lesson learned: good plans can always be improved.
    Florida has made great strides in our hurricane response; however, 
no system is perfect. Each day we continue working to address needs, 
vulnerabilities and areas of weakness in our communities and states.
    Last year, we learned we could not wait until after the storm made 
landfall to launch our relief mission. Trucks of ice, water and food 
need to be ready to roll into impacted areas as soon as the skies clear 
and the winds die down. To further improve the system, we needed to 
know in advance where to deliver these critical commodities. This year, 
the state developed criteria and standard layouts for distribution 
sites to provide maximum throughput of supplies. The true measure of 
success is a strong logistics system that gets much-needed products off 
the trucks and into the hands of those affected as quickly as possibly.
    Using this guidance along with geography and population, counties 
pre-determined locations for these ``points of distribution'' or PODs. 
Depending on where a storm makes landfall and damage to the location, 
counties can activate one or more of these PODs within 24 hours of 
landfall.
    This year, we identified three priorities for improvement. First, 
continuing to improve evacuation plans to ensure we move our vulnerable 
population out of harm's way. This includes those with disabilities, 
the elderly and medically dependent residents. Second, we must continue 
to improve upon our communication by ensuring sign language 
interpreters are available for our hearing-impaired community and 
translators are available for our Spanish and Creole speaking citizens. 
Third, we need to provide options for Floridians with pets. Families 
are hesitant to seek shelter if they cannot bring their pets with them. 
Providing alternatives ensures they evacuate when the order comes.
    Florida will continue building on lessons learned and will not 
accept the status quo. We have a responsibility to continue improving 
our response and recovery efforts as Florida continues to grow.

Lesson learned: Washington needs to improve FEMA's response capability.
    Just as we have a role in preparing and responding to all hazards, 
the federal government also has a responsibility to understand and 
tailor its role to meet the needs of impacted states. As I have said, 
the State of Florida is very appreciative of the federal response that 
flows through FEMA to assist Floridians and our communities. It is 
important to note, if Florida had not prepared last summer, it would 
have looked like FEMA had not prepared. However, there are lessons 
learned from our shared experiences of the last 14 months that can 
enhance the agency's effectiveness.
    I do not have a preference on whether FEMA is an independent agency 
or remains part of the Department of Homeland Security, however, when a 
disaster is declared, the FEMA director should report directly to the 
President, just like Craig Fugate, Florida's Director of Emergency 
Management, reports directly to me.
    The divisions within FEMA that handle preparation, response, 
recovery and mitigation comprise a complete cycle of disaster. These 
four components need to be managed together as one unit. FEMA's 
logistics program is broken and needs to be fixed. For example, to move 
one truck of ice last year, FEMA officials in Florida had to send a 
request to the regional office in Atlanta, who wrote a separate 
contract for each leg of the trip, who then sent it to the trucking 
company, who then sent it to the trucker on the ground in Florida. 
Having a strong tracking system that shows where trucks are, what they 
are carrying and when they will arrive at the destination is crucial. 
The process needs to be faster, more efficient and more direct.
    In terms of housing, last year, the program was slow to start 
because we could not gauge demand. FEMA needs a better plan to 
anticipate, identify and meet the housing demand. The current system 
requires several telephone interviews, which lack efficiency for 
someone who lost their home, is staying with friends, without cell 
phone coverage or needs to provide a ``call back number.''
    The joint FEMA-Florida Long-Term Recovery office, ably led by Scott 
Morris, can serve as a model for the nation. The structure provides 
consistency in processing the volumes of paperwork for reimbursement. 
In the nine months before the Long-Term Recovery office opened in 
Florida, we were reimbursed for less than $600 million of the billions 
we spent as a result of the 2004 hurricanes. In less than five months, 
the Long-Term Recovery team has brought more than 90 percent of 
eligible dollars to the state, totaling almost $2 billion. The average 
dollars sent to Florida per day have seen a near seven-fold increase 
and the office has written 100 percent of project worksheets for all 67 
counties, while taking on three additional storms this season.
    Eligibility standards for financial assistance should be uniform 
across the nation. Aid to governments should be based on the impact to 
the community, not the size of the state. Currently, disasters need to 
meet a certain per capita cost statewide to meet eligibility 
requirements for financial assistance to repair and replace 
infrastructure. This process penalizes small communities in large 
states. Because of our size, damage from Katrina did not meet the 
threshold for program. Had the same amount of damage occurred in a 
state the size of Rhode Island, those citizens would have received aid. 
Additionally, once a state meets the threshold, then all of the damage 
becomes eligible. Lowering the threshold to one standard amount and 
requiring cities and states fund a certain level of repair--like an 
insurance deductible--might be a better approach.
    Rules should promote personal responsibility. Under the current 
process, two neighbors can both lose their homes in a hurricane. Both 
are homeless and both need help. Neighbor One demonstrated personal 
responsibility and acquired insurance to protect his home and business, 
making him ineligible for timely federal assistance. Neighbor Two 
neglected to purchase insurance, but is eligible for as much as $26,000 
in cash assistance, a travel trailer for six months and maybe even a 
mobile home for a year and a half. To us, both people need help. In the 
eyes of FEMA, only the neighbor who did not prepare receives immediate 
help. The system assumes insurance companies will be able to settle 
claims quickly, which we learned from last year is not always possible. 
This needs to change.
    Rules should also promote responsible governing by providing 
incentives for governments to invest in preparation. Right now, the 
federal government provides a minimum of a 75 percent match for 
response and recovery. To provide incentives for upgraded emergency 
management capabilities and investment in preparedness, perhaps an 
85:15 percent match would be more appropriate. Additionally, the 
federal government should not bail out communities that make poor 
planning decisions, have inadequate building codes and fail to invest 
in emergency management.
    Removing debris is a tremendous cost and can place a huge financial 
burden on communities. The debris left in Florida after last year's 
storms was enough to completely fill, and then pile a mile high, five 
of Florida's largest football stadiums. The rules for reimbursing 
debris removal from private property need to be clear and applied 
consistently.

Conclusion
    I am proud of the way Florida has responded to the hurricanes. 
Through the congressionally approved Emergency Management Assistance 
Compact, 725 first responders from 35 states aided Florida after the 
storms last year. This year, the Compact allowed Florida to provide 
much-needed relief to our neighboring states. Within hours of Katrina's 
landfall, Florida began deploying more than 3,700 first responders to 
Mississippi and Louisiana. Today, hundreds of Florida National 
Guardsman, law enforcement officers, medical professionals and 
emergency managers remain on the ground in affected areas. Along with 
essential equipment and communication tools, Florida has advanced more 
than $100 million in the efforts, including more than 5.5 million 
gallons of water, 4 million pounds of ice and 934,000 cases of food to 
help affected residents.
    Steve, a resident from Diamondhead, Mississippi, summed it up best. 
He wrote, ``The first responders I remember were Florida State 
Troopers. They have been nothing less than awesome. They brought us 
water, ice, food and most important, they brought truck loads of 
compassion, understanding and a wonderful attitude.''
    As you develop plans to improve our nation's emergency management 
system, I ask that you consider Florida's three guiding principles in 
emergency response. Our team knows them as Craig's Rules:
        1. Meet the needs of the victims.
        2. Take care of the responders.
        3. See Rule 1.
    Rather than assume everything should be done at the federal level, 
our nation is much better off holding localities to higher expectations 
and improving FEMA. Taking away Florida's ability to respond takes away 
our passion for creativity and service that makes us good first 
responders.
    Before Congress considers a larger, direct federal role, it needs 
to strengthen areas within FEMA and hold communities and states 
accountable for properly preparing for the inevitable storms to come. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Government works best in emergencies
By: Bill Cotterell
July, 11, 2005
Tallahassee Democrat
    Hanging around the state's Emergency Operations Center, you get the 
feeling that this is how Gov. Jeb Bush would like Florida government to 
be all the time--without the emergency, of course.
    Imagine putting all agencies into one big room. Just a few hundred 
people. Everybody busy and intensely focused on the task at hand. Golf 
shirts and windbreakers with agency names on them. Lots of high-tech 
computerized stuff.
    If Bush created a video game of state government, it would be 
sorted into 17 ``support functions'' and have big, colorful satellite 
maps overhead, just like the EOC. Instant teleconference hookups, yes; 
bureaucracy or paper-shuffling, no.
    If he could get rid of the acronyms the federal government loves so 
much and outsource half the operations, Bush might never want to leave 
the bunker near Southwood.
    Just as hard times bring out selfless qualities in family, friends 
and strangers, emergencies show the people of Florida what they're 
paying taxes for. It's state government at its best, everybody working 
together with no complaining or grandstanding.
    ``I'm inspired by the response that is underway right now,'' Bush 
said after one of his weekend briefings on Hurricane Dennis. ``I think 
people should expect people to respond the way they do, but it's 
gratifying to see.''
    Hurricane preparation and response didn't always run so well. When 
Hurricane Andrew hit in 1992, the command post was a bunch of offices 
in the Rhyne Building, where Gov. Lawton Chiles passed out paper maps 
and held briefings in a small Department of Community Affairs 
conference room.
    At the modern operations center this weekend, somebody crafted a 
little cartoon of Dennis the Menace with a muscular little twister 
following him. It flashed on the center screen, amid constantly 
changing satellite images and written updates on everything from 
evacuation shelters and generator supplies to animal safety and nuclear 
power plant status.
    Bush had almost all of his department heads on hand. Those who were 
missing--probably because they were out in the field--sent their top 
deputies. Federal agencies, military units and representatives of the 
insurance and utility companies, Red Cross and Salvation Army all had 
seats at the big tables.
    That's the drill. Hurricanes involve a lot of agencies you'd never 
expect to see. Department of Juvenile Justice Secretary Anthony 
Schembri, for instance, was there to decide about evacuating youthful 
offenders who can't be left in danger but can't be put in adult jails, 
either.
    During the past session, legislators said the work of state 
employees during last year's four hurricanes justified a 3.6 percent 
pay raise. Actually, the fact that they didn't get a raise last year--
just a one-time $1,000 ``bonus'' that worked out to about $675 take-
home pay--was reason enough for the 3.6 percent.
    But the sentiment was appropriate. Bush said it several times 
during the weekend.
    ``People across the state should know that their fellow Floridians 
are going to be by their side in the relief effort,'' he said as the 
storm approached. ``It includes a lot of people who are true quiet 
heroes in our state.''

Think Locally On Relief
By Jeb Bush
Washington Post
Friday, September 30, 2005; A19
    In the wake of Hurricane Katrina, Americans are looking to their 
leaders for answers to the tragedy and reassurances that the mistakes 
made in the response will not be repeated in their own communities. 
Congressional hearings on the successes and failures of the relief 
effort are underway.
    As the governor of a state that has been hit by seven hurricanes 
and two tropical storms in the past 13 months, I can say with certainty 
that federalizing emergency response to catastrophic events would be a 
disaster as bad as Hurricane Katrina.
    Just as all politics are local, so are all disasters. The most 
effective response is one that starts at the local level and grows with 
the support of surrounding communities, the state and then the federal 
government. The bottom-up approach yields the best and quickest 
results--saving lives, protecting property and getting life back to 
normal as soon as possible. Furthermore, when local and state 
governments understand and follow emergency plans appropriately, less 
taxpayer money is needed from the federal government for relief.
    Florida's emergency response system, under the direction of Craig 
Fugate, is second to none. Our team is made up of numerous bodies at 
all levels of government, including state agencies, the Florida 
National Guard, first responders, volunteer organizations, private-
sector health care organizations, public health agencies and utility 
companies. Once a storm is forecast for landfall in Florida, all these 
groups put their disaster response-and-recovery plans into high gear.
    Natural disasters are chaotic situations even when a solid response 
plan is in place. But with proper preparation and planning, it is 
possible--as we in Florida have proved--to restore order, quickly 
alleviate the suffering of those affected and get on the road to 
recovery.
    The current system plays to the strengths of each level of 
government. The federal government cannot replicate or replace the 
sense of purpose and urgency that unites Floridians working to help 
their families, friends and neighbors in the aftermath of a disaster. 
If the federal government removes control of preparation, relief and 
recovery from cities and states, those cities and states will lose the 
interest, innovation and zeal for emergency response that has made 
Florida's response system better than it was 10 years ago. Today's 
system is the reason Florida has responded successfully to hurricanes 
affecting our state and is able to help neighboring states.
    But for this federalist system to work, all must understand, accept 
and be willing to fulfill their responsibilities. The federal 
government and the Federal Emergency Management Agency are valuable 
partners in this coordinated effort. FEMA's role is to provide federal 
resources and develop expertise on such issues as organizing mass 
temporary housing. FEMA should not be responsible for manpower or a 
first response--federal efforts should serve as a supplement to local 
and state efforts.
    Florida learned many lessons from Hurricane Andrew in 1992, and we 
have continued to improve our response system after each storm. One of 
the biggest lessons is that local and state governments that fail to 
prepare are preparing to fail. In Florida, we plan for the worst, hope 
for the best and expect the unexpected. We understand that critical 
response components are best administered at the local and state 
levels.
    Our year-round planning anticipates Florida's needs and 
challenges--well before a storm makes landfall. To encourage our 
residents to prepare for hurricane season this year, for 12 days 
Florida suspended the state sales tax on disaster supplies, such as 
flashlights, batteries and generators. Shelters that provide medical 
care for the sick and elderly take reservations long before a storm 
starts brewing. To ensure that people get out of harm's way in a safe 
and orderly manner, counties coordinate with each other and issue 
evacuation orders in phases. Satellite positioning systems, advanced 
computer software and a uniform statewide radio system allow all of 
these groups and first responders to communicate when the phones, cell 
towers and electricity go out.
    The Florida National Guard is deployed early with clear tasks to 
restore order, maintain security and assist communities in establishing 
their humanitarian relief efforts. Trucks carrying ice, water and food 
stand ready to roll into the affected communities once the skies clear 
and the winds die down. Counties predetermine locations, called points 
of distribution, that are designed for maximum use in distributing 
these supplies.
    Florida's response to Hurricane Katrina is a great example of how 
the system works. Within hours of Katrina's landfall, Florida began 
deploying more than 3,700 first responders to Mississippi and 
Louisiana. Hundreds of Florida National Guardsman, law enforcement 
officers, medical professionals and emergency managers remain on the 
ground in affected areas. Along with essential equipment and 
communication tools, Florida has advanced over $100 million in the 
efforts, including more than 5.5 million gallons of water, 4 million 
pounds of ice and 934,000 cases of food to help affected residents.
    I am proud of the way Florida has responded to hurricanes during 
the past year. Before Congress considers a larger, direct federal role, 
it needs to hold communities and states accountable for properly 
preparing for the inevitable storms to come.

------
HURRICANE
K A T R I N A
                                 Florida's Response

Florida aid committed to neighboring states to date: $138,329,353
<bullet> Mississippi: $136,577,345
<bullet> Louisiana: $1,752,008

Total Florida responders committed to date: 6,330
<bullet> Mississippi: 6,283
        <bullet> Civilian: 5,785
        <bullet> Florida National Guard: 498
        <bullet> Entire US EMAC Response: 23,518
<bullet> Louisiana: 47
        <bullet> Civilian: 40
        <bullet> Florida National Guard: 7

Emergency Operations Center Status: The State Emergency Operations 
Center remained at a full Level 1 activation for 17 days in response to 
Hurricane Katrina.

Florida First Responders: 2,165
<bullet> State and Local Law Enforcement Officers: 1,425
<bullet> State and Local Urban Search and Rescue Teams: 740

Florida Department of Health Medical Assistance Personnel: 556
<bullet> Doctors, nurses and support personnel: 416
<bullet> Emergency Medical Services personnel: 140
<bullet> Logistical Support Vehicles: 20

Florida State Emergency Response Team Incident Command Officials: 215
<bullet> State and Local Emergency Management Officials: 194
<bullet> Mass Care Coordination Team: 21 Specialists

Resource and Commodity Support Personnel: 2,261

Response Mission Support Personnel: 73

Agriculture and Animal Protection Personnel: 77

Florida Radio and Network Communications Specialists: 10

Volunteer and Donations Management Teams: 14

Florida Recovery Personnel: 20

Florida Public Information Officer Deployment Teams: 14

Florida Hazardous Material Teams: 9

Local Utility Personnel supporting drinking and wastewater programs in 
Mississippi: 101

Florida Department of Elder Affairs' Community Responder Teams: 30

Florida Department of Transportation: 23

Florida Division of Forestry Support Missions:

<bullet> 217 Personnel
<bullet> 46 Pickup trucks
<bullet> 15 Vans
<bullet> 11 SUVs
<bullet> 1-30 KW Generator Trailer
<bullet> 2 Dump trucks
<bullet> 1 Mechanic truck
<bullet> 1 Semi Unit
<bullet> 2 Fuel Trailers

    Essential commodities committed to impacted communities by 
Florida's State Emergency Response Team or managed by Florida:
<bullet> 954 trucks of water (768 State of Florida purchased)
<bullet> 940 trucks of ice (457 State of Florida purchased)
<bullet> Baby Food--8,438 cases; 10,318 cases of formula; 4,000 cases 
of juice
<bullet> Ensure--2,100 cases
<bullet> Juices--16,000 cases
<bullet> Diapers--1,755 cases; bottle nipples--2,495 cases
<bullet> 1,000-person self-contained Base Camp, including provisions 
for sheltering, feeding and hygiene needs of rescue workers, deployed 
to Stennis NASA Logistical Staging Area for emergency workers
<bullet> 500-person Life Support Package for feeding and hygiene needs 
of rescue workers Urban Search and Rescue Teams
<bullet> Logistical Staging Area and Points of Distribution material:
<bullet> 154 Forklifts
        <bullet> 125 Pallet Jacks
        <bullet> 97 generators
        <bullet> 93--4,000 watt light tower sets
        <bullet> 25 pumps
        <bullet> 5 Field HVAC Units
        <bullet> 25 Truck Shuttle Fleet
<bullet> 11 satellite data systems
<bullet> 4 emergency deployable interoperable communications systems
<bullet> 1 loading ramp
<bullet> 2 Logistics Support Trailers
<bullet> 110 Satellite Phones
<bullet> 1 AM/FM Radio Station Tower

------
Supplemental Page
Governor Jeb Bush
Designated Representative: Nina Oviedo

Summary
    I appreciate the opportunity to share with you some of Florida's 
learned lessons with emergency management and also provide you with 
some thoughts on how the federal response system could be enhanced. I 
can say with certainty that federalizing emergency response to 
catastrophic events would be a disaster as bad as Hurricane Katrina. 
The current system works when everyone understands, accepts and is 
willing to fulfill their responsibilities. Florida's system can be 
successful in states throughout the nation, without the federal 
government stepping on state's rights. More importantly, if we do not 
apply the lessons learned to future disasters, the problems will 
continue to snowball and the disasters will become more costly--in the 
number of lives and the number of dollars.
        <bullet> Lesson learned: the bottom-up approach yields the best 
        results.
        <bullet> Lesson learned: a successful response depends on 
        teamwork and a clear command structure.
        <bullet> Lesson learned: local and state governments that fail 
        to prepare are preparing to fail.
        <bullet> Lesson learned: a successful response requires strong 
        communication and coordination.
        <bullet> Lesson learned: the state needs to support--not 
        supplant--local efforts.
        <bullet> Lesson learned: investing in the right tools enhances 
        response capabilities.
        <bullet> Lesson learned: prepared citizens make the difference.
        <bullet> Lesson learned: innovation born from disasters can 
        improve daily operations.
        <bullet> Lesson learned: good plans can always be improved.
        <bullet> Lesson learned: Washington needs to improve FEMA's 
        response capability.
    As you develop plans to improve our nation's emergency management 
system, I ask that you consider Florida's three guiding principles in 
emergency response:
        1. Meet the needs of the victims.
        2. Take care of the responders.
        3. See Rule 1.
    Rather than assume everything should be done at the federal level, 
our nation is much better off holding localities to higher expectations 
and improving FEMA. Taking away Florida's ability to respond takes away 
our passion for creativity and service that makes us good first 
responders.
    Before Congress considers a larger, direct federal role, it needs 
to strengthen areas within FEMA and hold communities and states 
accountable for properly preparing for the inevitable storms to come.

    Chairman King. Now Governor of Texas, Governor Rick Perry. 
Governor.

             STATEMENT OF THE HONORABLE RICK PERRY

    Governor Perry. Chairman King, thank you very much. It is 
an honor to be with you and the members of the committee, 
including my fellow Texans Lamar Smith and Sheila Jackson-Lee. 
And, yes, go Astros. And tonight Mr. Thompson will be--
    Chairman King. I would ask the Governor to confine his 
remarks to relevant topics, not the Astros.
    Governor Perry. Oh, I am sorry.
    And I promise not to talk about any football from last week 
either. And, Michael McCaul, it is an honor to be with you. 
And, Michael, just one thing to make sure there is not any 
misinformation, I did not federalize the National Guard during 
our--we obviously used them substantially, but we directed them 
from Austin, Texas. And as we go through these remarks, that 
will become abundantly clear why I did not federalize them.
    And I want to testify before you today with a very clear 
point of view. I opposed the federalization of emergency 
response efforts to natural disasters and other catastrophic 
events. And I say this with absolutely no malice towards the 
Federal Government or the military, which can and should bring 
tremendous resources to bear in responding to catastrophes. I 
have the highest appreciation for the capabilities of our 
military partly because, as Lamar shared with you, I spent 4-1/
2 years flying those aircraft and flying a number of those 
relief missions. I know what the military does best, and their 
expertise is in preparing for wars, fighting wars and winning 
those wars. The mission of our military is not that of a fire 
department or a police department or a hospital. It is not 
designed to be a first responder. Our firefighters, our peace 
officers, our EMS personnel, they respond to emergencies every 
day in our local communities. They know their communities best. 
They have done the emergency training exercises in those 
communities, and they can respond the quickest to the 
emergencies in their communities. I say leave first response to 
first responders. Leave decisionmaking in the hands of the 
local and the State leaders. And leave, for our military, the 
most important job that they have of fighting wars and keeping 
the peace.
    The idea of federalization raises many questions, first 
being perhaps the most important. You know, if, from the 
President right on down, we recognize that the Federal response 
may not have been as adequate as we would have liked to have 
seen during Katrina, you know, does that inspire confidence in 
a greater Federal role in the solution? And if the Federal 
Government takes this over, will they perform 150 emergency 
exercises in Texas over the next 4 years, as we did over the 
last 4 years, while also attending to the needs of the other 49 
States? Will the Federal Government take over responsibility 
for coordinating with our States 1,200 nursing homes, hundreds 
of hospitals concerning the evacuation of people with special 
needs? If the military creates a special division of first 
responders, will we have highly trained, well-equipped Federal 
troops unavailable for duty overseas as they wait for an 
emergency large enough to respond to? Would this not turn them 
into the equivalent of the Maytag repairman, waiting for the 
call when an emergency strikes at home, but underutilized as 
part of our main military mission at home and abroad?
    First responders must train together because they respond 
together. When you add a new layer of bureaucracy, 
decisionmaking becomes paralyzed. Decisions are placed in the 
hands of those who know less about the community, and 
miscommunication becomes rampant as lives hang in the balance. 
Think about it this way. When you call 911 because your loved 
one's life is on the line, do you want an operator who knows 
your community, or do you want an operate or who lives in 
Washington, D.C.?
    The military's most vital role in a disaster is to provide 
specialized heavy equipment, aviation assets and the personnel 
to operate them. The lesson of Hurricanes Katrina and Rita is 
that while Federal resources are incredibly important, they are 
going to be very important to Jeb over the course of the next 
few days, no State or local community should wait on the 
Federal Government to act.
    We are responsible for the safety of our citizens before 
and after a natural disaster, and we are responsible for 
creating detailed emergency response plans and testing them. In 
Texas, we ran into challenges, and we had to adapt to rather 
unforeseeable circumstances. But most important to our response 
is that we had a clear chain of command. We had responsible 
local leadership. We had tested our capacity and our 
capabilities during training exercises, and we exercised and 
implemented a plan that did not depend on the Federal 
bureaucratic execution. And because of that, and despite the 
challenges that remain, I would call the Texas response to both 
hurricanes a success.
    In conclusion, let me just say that the discussion of 
federalizing emergency response makes me wonder what these 
mayors behind me, what Mayor Ortiz from Port Arthur, what 
Woodville Mayor Jimmy Cooley would say if they were told that 
the Federal Government would lead the response in the next 
major hurricane. And I think they would tell you to leave the 
resources and the manpower and the decisionmaking to the folks 
of Texas, and let Texans run Texas.
    Thank you, sir.
    Chairman King. Thank you, Governor Perry.
    [The statement of Governor Perry follows:]

                 Prepared Statement of Hon. Rick Perry

    Thank you Chairman King and members of the committee. I testify 
before you today with a clear point of view: I oppose the 
federalization of emergency response efforts to natural disasters and 
other catastrophic events.
    I say this with no malice toward the federal government or the 
military, which can and should bring tremendous resources to bear in 
responding to catastrophes.
    I have great appreciation for the capabilities of our military 
because I served for four and a half years. I know what the military 
does best: their expertise is preparing for wars, fighting wars and 
winning wars.
    The mission of our military is not that of a fire department or 
police department or hospital--it is not designed to be a civil first 
responder.
    Our firefighters, peace officers and EMS personnel respond to 
emergencies every day in our local communities. They know their 
communities best, they have done the emergency training exercises in 
those communities, and they can respond the quickest to emergencies in 
their communities.
    I say leave first response to the first responders, leave decision-
making in the hands of local and state leaders, and leave for our 
military the important job of fighting wars and keeping the peace.
    The idea of federalization raises many questions, the first being 
perhaps the most important:
    If, from the President on down, we recognize the federal response 
was not adequate during Katrina, does that inspire confidence that a 
greater federal role is the solution?
    If the federal government takes this over, will they perform 150 
emergency exercises in Texas over the next four years, as we did in the 
last four years, while also tending to the needs of the other 49 
states?
    Will the federal government take over responsibility for 
coordinating with our state's twelve hundred nursing homes, and 
hundreds of hospitals concerning the evacuation of people with special 
needs?
    If the military creates a special division of first responders, 
will we have highly trained, well-equipped federal troops unavailable 
for duty overseas as they wait for an emergency large enough for their 
activation? Would this not turn them into the equivalent of the 
Military Maytag Repairman, waiting for the call when emergency strikes 
at home, but underutilized as part of our main military mission at home 
and abroad?
    First responders must train together because they respond together. 
When you add a new layer of bureaucracy, decision-making becomes 
paralyzed, decisions are placed in the hands of those who know less 
about the community, and miscommunication becomes rampant as lives hang 
in the balance.
    Think about it this way: when you call 911 because your loved one's 
life is on the line, do you want an operator who knows your community, 
or do you want someone at a switchboard in Washington, D.C.?
    The military's most vital role in a disaster is to provide 
specialized heavy equipment and aviation assets and the personnel to 
operate them.
    The lesson of Hurricanes Katrina and Rita is that while federal 
resources are very important, no state or local community should wait 
on the federal government to act. WE are responsible for the safety of 
our own citizens before and after a natural disaster, and WE are 
responsible for creating detailed emergency response plans and testing 
them.
    In Texas, we ran into challenges and had to adapt to unforeseen 
events. But most important to our response is that we had a clear chain 
of command, we had responsible local leadership, we had tested our 
capabilities during training exercises, and we implemented a plan that 
did not depend on the federal bureaucracy's execution. Because of that, 
and despite the challenges that remain, I would call the Texas response 
to both hurricanes a success.
    In conclusion, the discussion of federalizing emergency response 
makes me wonder what local leaders like Port Arthur Mayor Oscar Ortiz, 
or Woodville Mayor Jimmie Cooley, would say if they were told the 
federal government would lead the response to the next major hurricane. 
I think they would tell you give us your resources and manpower, but 
let Texans run Texas.
    It would be a great mistake to do otherwise. Thank you.

    Chairman King. Now Governor Napolitano.

          STATEMENT OF THE HONORABLE JANET NAPOLITANO

    Governor Napolitano. Thank you, Mr. Chairman and Ranking 
Members, members of the committee. It is a pleasure to be here 
with Governor Bush and Governor Perry.
    Arizona does not have hurricanes, but we do have large 
flash floods in the winter and huge forest fires in the summer, 
among many things that I have confronted as Governor. And I 
echo what Governor Bush and Governor Perry said. We operate an 
emergency operations center. We are able to activate that on a 
moment's notice. We have evacuation plans. We practice, 
practice, practice to make sure that when a catastrophe 
happens, things go smoothly.
    There is a Federal role, but the Federal role is not to 
lead that effort, it is to support that effort when the 
circumstances warrant.
    We learned lessons from the catastrophes and the disasters 
that happened in 2002 in Arizona. We had the Rodeo-Chediski 
fire; burned over 400,000 acres in northern Arizona, had to 
evacuate many communities. The fires cost over $150 million to 
suppress. We found out in the course of that fire that our 
communities up in the rural parts of the State did not have 
evacuation plans, and we did not have interoperability 
capability of communications among the many different 
departments that had to respond to the fire.
    Now every one of those communities has an evacuation plan. 
We have all practiced them, and we used some of the homeland 
security money we got from the Federal Government to purchase 
five vehicles that provide patch interoperability capability 
that we can drive anywhere in the State whenever a fire or 
other related disaster occurs. In fact, one of those vans was 
sent to Louisiana to help with interoperability problems in the 
aftermath of Katrina.
    We also want to make sure that priorities are properly set 
in light of the particular needs of a particular State, and I 
think the State Governors are in the best position working with 
their mayors and others to know what those needs happen to be.
    It is no surprise that the National Governors Association, 
the Governors of the States, Republican and Democrat alike, 
have issued a joint statement against federalizing emergency 
relief. And I think that statement is important, and I commend 
it to you for your attention.
    One of the things that I think this committee might want to 
focus on is preparation for emergency in two specifics ways. 
One is general preparation, the things you need to do all the 
time for whatever emergency, making sure you have evacuation 
plans, making sure you have taken care of your special needs 
citizens, making sure that you have dealt with problems like 
communications interoperability, and then to practice those 
plans over and over and over again.
    The second kind of preparation has to do with what Governor 
Bush is doing now. He knows a hurricane is coming to his State. 
He has some sense about the strength of that hurricane, and he 
is taking specific action to prepare ahead of time. In those 
areas, these are places where the Federal Government can team 
with the States in terms of preparation. But, again, the 
leadership must come from the State level.
    I don't want to leave my testimony without mentioning a 
particular problem in our country for which I declared a state 
of emergency, and that is the situation at the border, because 
in its own way, that has been a disaster for us, and it is one 
where we request and need Federal help. We have now at the 
Tucson sector of the Arizona-Mexico border over 1,500 people 
being arrested per day. Those are the people they are finding. 
Several hundred people were found dead in the desert who had 
come across and been abandoned by the coyotes who brought them 
and then left in the desert to die. This is an area where 
homeland security and emergency relief combine, because we 
cannot say that we have a secure country, we cannot say that we 
have a national homeland security plan without a secure border, 
and we have lost operational control of the border in Arizona.
    Let me close with several suggestions in response to the 
question presented for this hearing. First, I would ask the 
committee to respect the historical and constitutional 
authority of States and the Nation's Governors in emergency 
situations.
    Second, I would ask that you look at restoring homeland 
security and emergency response resources that the Federal 
Government has actually cut in the last years. Homeland 
security resources to the State of Arizona have been reduced 35 
percent in the last year, although I don't think our incidences 
or our security issues have been reduced in the same level. The 
value of proper funding for preparation and practice in advance 
of an emergency cannot be underestimated.
    Third, I would ask this committee and the Congress to 
better evaluate and examine disaster threats such as the 
Federal levees in New Orleans and prioritize funding for those 
areas. Obviously securing the border must be a top funding 
priority here.
    Fourth, work with the States to obtain accreditation for 
State emergency preparedness plans. The accreditation process 
is extremely thorough and provides a mechanism for States to 
ensure they have covered all that is necessary.
    And last but not least, let us not forget the public health 
aspects of disaster and recovery and that they must be 
integrated into any response plan. Preparations or the lack 
thereof for the Avian flu help illustrate this point.
    Before I close, I would like to recognize the members of 
the Tahono O'odham Nation that are here with us today. This is 
an Indian reservation that actually covers 70 miles of the 
Arizona-Mexico border. Their statement is quite compelling in 
terms of their special needs, and I would hope the committee 
would pay special attention to that.

Prepared Statement of Vivian Juan-Saunders, Chairwoman, Tohono O'Odham 
                             Nation-Arizona

I. INTRODUCTION
    In the wake of Hurricanes Katrina and Rita, the Committee will 
examine the historical and constitutional roles and responsibilities of 
Local, State, and Federal governments in responding to disasters and 
other emergencies. The Committee will explore the issue of Federalism 
and disaster response, and the policy implications of expanding the 
Federal role with respect to disaster response. This statement is 
submitted by the Tohono O'odham Nation to apprise the Committee of the 
Nation's unique emergency response role with regard to the 75-mile 
stretch of international border that the Tohono O'odham Reservation 
shares with Mexico, and to explain the impact of Federalism. Before 
addressing the specifics of these issues, this statement provides 
general background about the Nation and the historical background that 
created the Nation's current border security crises.

II. BACKGROUND
    The Tohono O'odham Nation (``Nation'') is a federally recognized 
Indian Tribe in South Central Arizona with over 28,000 enrolled tribal 
members. The Tohono O'odham Reservation consists of four non-contiguous 
parcels totaling more than 2.8 million acres in the Sonoran Desert, and 
is the second largest Indian Reservation in the United States. The 
largest community, Sells, is the Nation's capital. The 75-mile southern 
border of our Reservation is the longest shared international border of 
any Indian Tribe in the United States.
    As a federally recognized Indian Tribe, the Nation possesses 
sovereign governmental authority over its members and territory. 
Accordingly, the Nation provides governmental services to one of the 
largest Indian populations in America and is responsible for managing 
one of the largest Indian reservations in the America. Moreover, the 
Nation spends approximately $7 million annually from tribal revenues to 
meet the United States' border security responsibilities. The Nation's 
longest international border of any Tribe in the United States has 
created an unprecedented homeland security crises for America.
    Prior to European contact, the aboriginal lands of the O'odham 
extended east to the San Pedro River, West to the Colorado River, South 
to the Gulf of California, and North to the Gila River. In 1848 the 
United States and Mexico negotiated the terms of the Treaty of 
Guadalupe Hidalgo, which among other things, established the southern 
boundary of the United States. The Treaty placed the aboriginal lands 
of the O'odham in Mexico. In 1854 through the Gadsden Purchase, the 
United States and Mexico further defined the southern boundary by 
placing the boundary at its present location cutting into the heart of 
our aboriginal territory. Consequently, the boundary displaced our 
people on both sides of the international border bisecting O'odham 
lands and separating our people from relations, cultural sites and 
ceremonies, and access to much needed health care, housing, and 
transportation. Not surprisingly, neither the United States nor Mexico 
consulted with the O'odham during the Treaty negotiations in 1848 and 
1854. Respect for the sovereign status of the O'odham was simply 
ignored.
    Unfortunately, the lack of consultation or input from the O'odham 
continued throughout the generations leaving the Nation with a modern-
day border security crisis that has caused shocking devastation of its 
land and resources. The genesis of this crisis stems from the 
development and implementation of the U.S. government's border policy 
in the last decade. Again, without the benefit of consulting with the 
Nation, federal border security policy was developed focusing on 
closing down what were considered to be key points of entry along the 
U.S. southern border. This policy was implemented by extensively 
increasing manpower and resources at ports of entry and located at 
popular entry points such as San Diego (CA), Yuma (AZ), and El Paso 
(TX), and therefore, created a funnel effect causing the flow of 
undocumented immigrants, drug traffickers, and other illegal activity 
to shift to other less regulated spots on the border.
    Consequently, because of the lack of border security resources and 
attention to the Nation, illegal immigration through the Reservation 
has become a prime avenue of choice for undocumented immigrants and 
drug trafficking activities traveling into the United States. This has 
created urgent challenges to protect against possible terrorists coming 
through a very vulnerable location on our Reservation. Although the 
Nation has neither the sufficient manpower nor the resources to 
adequately address this crisis, we continue to be the first line of 
defense in protecting America's homeland security interests this highly 
volatile and dangerous region.

III. BORDER SECURITY CRISIS ON THE TOHONO O'ODHAM NATION
    The modern day consequences of the border security crisis facing 
the Nation is indeed devastating to our people, lands, culture and 
precious resources. While immigrant and drug trafficking have decreased 
on other parts of the southern border of the United States, levels have 
sky rocketed on the Nation causing a flood of crime, chaos and 
environmental destruction on our Reservation. By conservative 
estimates, over 1,500 immigrants illegally cross daily into the United 
States via the Nation's Reservation. A Border Patrol spokesman recently 
reported that the Nation is in the ``busiest corridor of illegal 
immigration in the [America].'' Tribal members live in fear for the 
safety of their families and their properties. Often times, homes are 
broken into by those desperate for food, water and shelter. It is no 
longer just Mexican nationals crossing the Nation's reservation land. 
Over the last year, undocumented immigrants from Guatemala, Honduras, 
and Central America have been apprehended on the Nation.
    The Nation's seventy-one member police force provides primary 
border security law enforcement services against the unrelenting and 
increasing traffic of undocumented immigrants and drug traffickers who 
cross our border to enter America. The Nation has sustained a loss of 
millions of dollars annually in manpower, health care, sanitation, 
theft and destruction of our property and lands from the relentless 
flow of illegal immigration. Equally devastating is the adverse impact 
on our cultural resources and traditions as our Tribal elders no longer 
gather ceremonial plants in the desert for fear of their safety. The 
Nation stands on the front line of this crisis but is inhibited from 
directly accessing funding and other resources from the Department of 
Homeland Security.
    Consider the following statistics:
    <bullet> In 2004 alone, 111,264 entries into the Nation, resulting 
in 84,010 actual apprehensions.
    <bullet> Since October 2003, approximately 180,000 pounds of 
narcotics have been seized.
    <bullet> When combining federal and Tribal law enforcement efforts, 
more than 300,000 pounds of illegal narcotics were seized on the 
Nation's lands in 2004.
    <bullet> There are 160 known illegal crossings along the 75 mile 
shared border with Mexico--in 36 locations and there are no barriers at 
all.
    <bullet> In 2003, sixty-nine people died on the Reservation 
crossing the border, leaving the Nation to pay for the burial and 
related costs. The Nation pays for autopsy costs at $1,600.00 per body 
out of tribal police funds.
    <bullet> The Nation loses $2 million annually from its allocation 
of Indian Health Care funding due to emergency health care treatment of 
undocumented immigrants taken to our health clinic.
    <bullet> The Nation is forced to address the 6 tons of trash a day 
that is littered on the Nation's Reservation by fleeing undocumented 
immigrants. This predicament has caused serious environmental problems 
and contributes to the 113 open pit dumps on the Nation's Reservation 
that need to be cleaned up.
    Moreover, the Tohono O'odham Nation Police Department (TOPD) has 
stretched its resources to the limit and now spends over $3 million 
annually in tribal funds on homeland and border security law 
enforcement function and activities, more than half of its annual 
budget. To date, the Nation has spent more than $10 million dollars for 
these functions, which we believe are clearly federal responsibilities.

    For example:
        <bullet> On an average day, every public safety officer in the 
        TOPD spends 60% of his or her time working on border related 
        issues.
        <bullet> In 2004, TOPD officers responded to over 6,000 calls 
        for assistance with undocumented immigrant apprehensions; 
        Border Protection estimates over 111,000 individual 
        apprehensions on the Nation's lands in 2004.
        <bullet> Between 2002-2003, an estimated 1500 illegally crossed 
        through the Nation each day. While apprehensions continue to 
        rise, more than 700 additional undocumented immigrants are 
        estimated to pass through the Nation every day undetected. In 
        FY 2002-2004, the U.S. Border Patrol-Casa Grande Sector 
        apprehended 166,514 undocumented immigrants on the Nation's 
        lands.
        <bullet> In 2002, 4300 vehicles were used for illegal drug and 
        immigrant smuggling. A total of 517 stolen vehicles were 
        recovered on tribal land. From 2003-2004, Tribal police 
        investigated 15 vehicle crashes involving undocumented 
        immigrants.
        <bullet> From January 2003 through mid-2005, 4380 abandoned 
        vehicles were found on the reservation with 308 stolen vehicles 
        used for criminal activities en route to Mexico. These vehicles 
        were stolen in Tucson, Phoenix, and Chandler etc and used for 
        illegal activity.
        <bullet> Between January 2003 and March 2004, 48 undocumented 
        immigrant deaths from heat and exposure were investigated by 
        Tribal Police. A total number of 7 staff members are in the 
        criminal investigations unit.
    Many other areas on the Nation, such as limited hospital and 
ambulance services, have been similarly negatively affected. Overall, 
the Nation expends $7 million of its tribal resources annually on 
services directly relating to border issues. Part of the expenditure 
relates to health care and environmental clean up services. When the 
Nation pays for federal responsibilities, we are unable to address 
education, health care, housing, roads, infrastructure priorities, to 
name a few. Below are a couple of key examples.
        <bullet> In 2003, the Indian Health Service (IHS)-Sells Service 
        Unit spent $500,000.00 on emergency health care services to 
        undocumented immigrants, for example, for those at risk of 
        dying from dehydration. These funds are not reimbursed to IHS 
        and result in the inability of certain tribal members to 
        receive health care services that are allocated for their 
        benefit.
        <bullet> The Nation spends millions of dollars a year to pay 
        for the 6 tons of trash per day left by undocumented immigrants 
        and the Nation is faced with cleaning up the 113 open pit dumps 
        on the Reservation.
        <bullet> 758 homes on the Reservation (20% of all homes on the 
        Reservation) are without potable water and 1,393 (38% of all 
        homes) are without a sewer or water system. Many of the 
        residents at these homes use either hand-dug or agricultural 
        wells for drinking water and are exposed to contaminants such 
        as fecal coliform, arsenic and fluoride in excess of the 
        federal Safe Drinking Water Act standards. The total need to 
        construct suitable drinking water and waste water systems for 
        these homes is estimated at $24.4 million.
        <bullet> The Nation has been forced to deal with all of these 
        issues because we must protect our people and our lands. The 
        Nation's efforts are complemented by the Border Patrol, which 
        recently increased its presence on the Reservation through the 
        Arizona Border Control Initiative, for which support the Nation 
        is thankful to have. We also acknowledge the efforts of Arizona 
        Governor Janet Napolitano, who provided the Nation more than 
        $100,000 in resources from additional funding the State 
        received as a result of the Governor's recent border emergency 
        declaration.
        <bullet> However, our needs are overwhelming and we need 
        immediate federal assistance and direct communications with the 
        Department of Homeland Security on policy, funding and other 
        important matters that affect our Nation. Unfortunately, the 
        Nation has not received sufficient federal attention to address 
        our law enforcement/border security activities. In the wake of 
        the creation of the Department of Homeland Security, the 
        increased federal funding for the Department, and the 
        announcement of a number of federal initiatives to address 
        homeland security challenges, the Nation has respectfully 
        requested a seat at the table as well as the appropriate level 
        of federal funding to support our efforts in providing homeland 
        security for America. Again, we thank Governor Napolitano for 
        her leadership and support in ensuring that we have a role in 
        the State's homeland security planning and grant distribution 
        process. We commend her outstanding leadership and efforts to 
        work with the Nation. We believe that the federal governments 
        must step up to the plate and work directly with the Nation on 
        addressing the border crises we face on a daily basis.

IV. BARRIERS TO SECURING FUNDING FROM THE HOMELAND SECURITY DEPARTMENT 
& LEGISLATIVE RECOMMENDATIONS.
    In response to the September 11, 2001 terrorist bombing and related 
events in the United States, the 107th Congress passed the Homeland 
Security Act of 2002 (P.L. 107-296) authorizing the reorganization of 
existing federal agencies under the Department of Homeland Security 
(DHS) umbrella. This led to expanded border protection policies through 
the National Homeland Security Reorganization Plan. Once again, 
although these changes have had dramatic impacts on the Nation's people 
and land, we were not consulted and have been inhibited from receiving 
direct funding for homeland security expenditures.
    Under the DHS organic legislation, Indian Tribes are not eligible 
to obtain direct funding for homeland security purposes. This barrier 
is particularly unfair to the Nation given the unique circumstances in 
protecting the 75-mile international border with Mexico on the 
Reservation. This lack of consultation and lack of access to direct 
funding has strained the Nation's Government-to-Government relationship 
with the United States placing the Nation in a difficult and untenable 
position of having to react policy decisions as opposed to proactively 
working together in a unified fashion with the proper respect accorded 
to the Nation's sovereign status.
    To improve the federal government's emergency response and 
assistance to our border security challenges, Congress must take 
legislative action to authorize the Nation to obtain direct access to 
Homeland Security resources. We believe this approach will 
significantly improve our emergency preparedness and ability to 
response to terrorist threats that may occur in this vulnerable 
Southwest region. Specifically, the Nation supports the immediate 
passage of H.R. 1544, The Faster and Smarter Funding for First 
Responders which would accomplish the following:
        <bullet> Require states to consult with Tribes and ensure that 
        Tribes are eligible to receive pass-through funding from 
        states;
        <bullet> Allow Tribes to petition directly to the Department of 
        Homeland Security (DHS) for funding (local units of government 
        also have this right under H.R. 3266).
        <bullet> Establish a pilot program for up to 20 ``directly 
        eligible tribes'' (which can include a consortia of tribes) to 
        receive direct funding grants each year from DHS, rather than 
        through the states if the petitioning Tribes meets the 
        following threshold eligibility criteria: (i) having 
        administrative capability under P.L. 93-638 to enter into self-
        determination contracts or compacts, (ii) employing at least 10 
        full-time emergency response or public safety personnel, and 
        (iii) having a demonstrated level of threat as determined by 
        its location on or within 5 miles of an international border, 
        near critical infrastructure, adjacent to a large metropolitan 
        area or having more than 1,000 square miles of tribal land 
        (roughly the equivalent of the state of Rhode Island).
        <bullet> Set aside for the 20 directly eligible Tribes 
        collectively, at least 0.08 percent of the amount appropriated 
        for first responder grants in a given year.
        <bullet> Authorizes Tribes which are not selected for direct 
        funding, may apply to the DHS for direct funding in the event 
        the State fails to award funding to the Tribe consistent with 
        the state homeland security plan.
    We will continue to coordinate and collaborate our efforts through 
Arizona's regionalized approach, and we are pleased that the Nation has 
been recently successful in securing funds through this process. 
However, the Nation is unlike any city or municipality in Arizona. As a 
constitutional matter, the Nation is a sovereign entity whose 
governance is separate from that of the State. Accordingly, the Nation 
supports H.R. 1544 which provides a meaningful government to government 
role to Indian Tribes having discrete homeland security concerns.

    Similarly, the Nation supports the following provisions in H.R. 
1320--Secure Borders Act, would be of particular significant and 
assistance to the Nation:
        <bullet> Section 151 would establish an Office of Tribal 
        Security (OTS) within DHS to coordinate all of its homeland 
        security efforts in Indian Country and to serve as an official 
        point of contact within DHS for Indian Tribes.
        <bullet> Section 152 would transfer the Shadow Wolves from the 
        Bureau of Customs and Border Protection (BCBP) to the Bureau of 
        Immigration and Customs Enforcement (BICE). This provision 
        would keep the Shadow Wolves in tact as a distinct unit focused 
        on identifying, following, and arresting illegal drug smuggler 
        along the 75 miles of international border along and within the 
        Nation. The Shadow Wolves better fit within BICE because their 
        work is more similar to BICE agents who investigate and crack 
        down on substantial drug smuggling operations. In recognition 
        of the Shadow Wolves' success, the provision also authorizes 
        the DHS Secretary to establish additional BICE special units 
        whose mission, similar to that of the Shadow Wolves, is to 
        prevent the smuggling of illegal drugs, weapons and other 
        contraband on Indian reservations, where such law enforcement 
        is clearly needed.
    The Nation supports these legislative proposals because they will 
strengthen the homeland security capacity of the United States through 
a government-to-government relationship with Tribes to protect and 
secure America. Indian Tribes subject to the highest security risks and 
vulnerabilities should not be left out of the discussion to improve 
national security.
    Finally, the Nation proposes that the BCBP have an specific 
agreement relating to federal access on the Nation's lands. BCBP is 
working on an memorandum of understanding with the Department of 
Interior governing federal access on public lands under Interior's 
authority. In these discussions, the Bureau of Indian Affairs expressed 
its view that it cannot make decisions for Indian Tribes due to tribal 
sovereignty, and therefore recommended that BCBP enter into an 
agreement with the Nation governing federal access on our lands. We 
believe this approach would greatly improve coordination among law 
enforcement personnel as well as promote and foster better government 
to government relations. Because our territory is so vast, and given 
the recent boost in border security activities, the Nation believes it 
is imperative to have a written agreement which details our respective 
roles and policies, in addition to important tribal protocols that are 
otherwise unknown to law enforcement personnel inexperienced in working 
with Indian tribes.

    Thank you, Mr. Chairman
    Chairman King. Thank you, Governor.
    [The statement of Governor Napolitano follows:]

                 Prepared Statement of Janet Napolitano

    Chairman King, Ranking Member Thompson, and Committee Members, 
thank you for inviting me here today to speak about an issue foremost 
on the minds of all Americans: how the local, state and federal 
governments should respond to disasters and emergencies in our 
homeland.
    Less than two months ago, we saw the harrowing affects of Hurricane 
Katrina, and the human tragedy that occurs when the government response 
is delayed and disorganized.
    In its aftermath, every American is rightfully asking, what if 
another Hurricane Katrina happened in my community? Is the federal 
government meeting its responsibility in assisting my state prepare for 
a natural disaster or a terrorist attack? Will my government learn the 
important lessons of Hurricane Katrina?
    I applaud Congress for holding these hearings so we can learn from 
the lessons of Katrina. I am increasingly troubled, however, by 
suggestions that the federal government pre-empt the constitutional 
authority of states and the nation's governors during an emergency.
    While the federal government is often a critical partner in 
disaster relief, it is the states that have historically responded 
well. State and local governments are in the best position to prepare 
for, respond to, and recover from emergency and disaster.
    Just last week, our nation's Governors joined together--Republicans 
and Democrats--and with one voice called on the federal government not 
to undermine the authority and rights of states.
    I encourage all of you to read the joint statement we issued 
through the National Governors Association, and as vice chair of 
National Governors Association and chair of the Western Governors 
Association, I ask that you pay special attention to our state 
commanders-in-chief throughout this process.
    Governors have a particular relevancy in our nation's response 
plans. Because of the continued critical role of the National Guard in 
emergency and disaster response, governors would have to be universally 
supportive of any changes to our nation's response strategy, or the 
federal government would risk its ability to utilize the Guard.
    The Constitution is clear: when a National Guard unit assists in a 
primarily federal purpose under Title 32, it does so under the command 
and control of governors--not Congress or the President.
    When National Guard troops so admirably and capably responded to 
Hurricane Katrina and in the wake of the terrorist attacks September 
11, they did so under the command and authority of governors. The law 
of the land demands that it stay that way.
    States also have a strong track record of working together during 
emergencies without federal involvement.
    Through the national Emergency Management Assistance Compacts, or 
EMACs, states have mutual aid agreements that direct emergency 
equipment and staffing to areas that need it most during a disaster. 
Because these agreements determine reimbursement and liability issues 
before a disaster strikes, states are able to deploy resources to other 
states quickly without the need to enter into a new agreement first.
    Katrina notwithstanding, states have a long and successful history 
in responding to natural and man-caused disasters. In Arizona, we have 
experienced many disasters, ranging from wildfires during the summer 
months to flash floods in the winter, and have learned lessons along 
the way.
    We have a long record of success in managing our relationship with 
the federal government, and coordinating a system that works well in 
fighting fires.
    In Arizona, if a wildland fire starts on state land, Arizona 
officials coordinate the efforts to fight the fire; if the fire grows 
beyond our capacity to suppress it, or we need additional assistance, 
we call on the U.S. Forest Service for help. It is a complex 
relationship, and there are many elements to fighting fires, but the 
system works.
    We also work with other states to fight fires. We frequently draw 
on resources from other states, and we often send experienced 
firefighting crews from Arizona elsewhere.
    Similarly, the Forest Service is the lead response agency in 
fighting fires on federal land in our state. If a fire starts on 
national forest land, it is the federal government that coordinates the 
fire suppression efforts, and calls on Arizona for additional 
assistance.
    Unfortunately, as federal budget cuts take hold, we find ourselves 
fighting with the federal government for reimbursement to the state for 
its fair share of costs in fighting fires on federal lands.
    While we have built a solid record of success, we have also had 
difficulties. Some of these disasters have been particularly 
devastating, but rather than re-inventing the wheel every time 
something goes wrong, we learn from our experience and understand how 
we can be better prepared next time.
    This is particularly true of the Rodeo-Chediski Fire in 2002--a 
fire that burned more than 450,000 acres, destroyed more than 400 
structures including many homes, and cost more than $150 million to 
suppress.
    Arizona learned some tough lessons from that fire. Our emergency 
responders couldn't communicate with each other, and communities caught 
in the middle of the fire did not have evacuation plans.
    Those communities have since developed evacuation plans, and 
Arizona's fire-prone communities are also working to remove hazardous 
fuels to lower the risk of fire. Further, we have purchased five 
incident command vans with interoperable communications capabilities 
that can travel wherever they are needed, allowing our emergency crews 
to communicate with each other during any incident. In fact, one of 
those vehicles was deployed to Louisiana following Hurricane Katrina.
    We learned our lessons, and are better prepared for future 
emergencies. That is the same approach the federal government should 
take: to understand what it did wrong, and to better prepare for the 
future.
    Rather than embarking on a course that could have many unknowable 
and unfortunate consequences, Congress should focus its attention on 
how the federal government can best team with states. That analysis 
should break into two parts: what the federal and state governments 
should do in advance of an emergency; and what they should do 
afterward.
    Pre-emergency has two aspects. First, there is general preparation 
for all different types of scenarios. Second, there is specific 
preparation when a known emergency is developing--such as in the days 
immediately preceding Katrina. In the wake of September 11, Congress 
initially understood that role, and provided states with resources to 
prevent and prepare for disasters. Those resources are how Arizona paid 
for the five mobile communications vans I mentioned a moment ago; they 
also paid for the Arizona Counter-Terrorism Information Center, a 24-7 
intelligence gathering and dissemination center that links together 
representatives from the local, tribal, county, state and federal 
levels to detect and prevent acts of terrorism.
    Federal dollars also paid for critical capability-specific training 
and equipment along the Arizona-Mexico border, where we are at risk for 
a terrorist strike. We exercised a mutual-aid agreement with the 
Mexican State of Sonora in conducting a federally funded bi-national 
training exercise--simulating a WMD attack at the border--with 22 
Mexican law enforcement, medical services and emergency management 
agencies and 50 local, state and federal agencies from the United 
States.
    We established interoperability capabilities in the four counties 
that border Mexico, trained more than 900 Mexican firefighters, medical 
responders and law enforcement officers, and developed the ability to 
communicate with Mexican authorities during an emergency. We will have 
interoperability capabilities in the entire state of Arizona by the end 
of 2006.
    In addition, we have also forged homeland security and preparedness 
partnerships with tribal governments--like the Tohono O'odham Nation--
whose lands include 78 miles of porous international border.
    Our ability to handle a disaster along the border was tested just a 
few months ago when a train in Mexico derailed and spilled 10,000 
gallons of sulfuric acid into the Santa Cruz River. Even though the 
spill occurred in Mexico, it contaminated the water that flows through 
the river into Arizona.
    Arizona's local governments--from cities to counties to the state--
responded to the disaster quickly and effectively, and worked with 
their counterparts in Mexico to avert what could have been a very 
dangerous situation.
    Arizona puts homeland security resources to good use. That's why I 
am frustrated and disappointed that Congress and the Administration cut 
Arizona's homeland security resources. The federal government cut our 
Homeland Security Grant Program resources by 36 percent, our 
Metropolitan Medical Response System by 50 percent, and our Law 
Enforcement Terrorism Prevention Program by 22 percent, and failed to 
fund many worthwhile homeland security projects in other states. In 
terms of general preparation, having properly-funded emergency relief 
initiatives is key.
    In terms of specific preparation for known and anticipated crises, 
the federal government needs to participate more in joint planning with 
states to identify necessary assets and have them pre-positioned where 
they will do the most good.
    I am troubled that in recent years the federal government has 
severely limited our ability to fight the huge forest fires that have 
plagued the West. In March 2004, the federal government made available 
33 heavy air tankers to states to fight fires, but just three months 
later--at the height of our fire season--none were at our disposal. 
There were many reasons for this, but none justifies the lack of pre-
planning with the states and the timing of the decision to ground the 
air tankers.
    Once a disaster occurs the lead responsibility should reside with 
the states. One of the purposes of preparation and prevention is to 
develop an ongoing partnership between state personnel and their 
relevant federal counterparts. And, with specific respect to FEMA, 
governors need more, not less, authority to make decisions.
    Arizona is one of the states that received Katrina evacuees; we 
experienced firsthand FEMA's total breakdown in providing any 
meaningful information regarding the status, welfare or destinations of 
those evacuees.
    I cannot leave the topic of preparation for known risks without 
discussion of the Arizona--Mexico border. Securing the international 
border is a federal responsibility, but time and time again the federal 
government has refused to provide the proper resources--and enough 
Border Patrol agents--to secure it. On average, 1500 people are 
apprehended every day while attempting to cross the Arizona border 
illegally; that number obviously does not include those who are never 
caught. The Arizona-Sonora border is the gateway for more than half of 
the illegal cross-border activity that occurs along the U.S.--Mexico 
border. In fact, of the 1.1 million Southwest border apprehensions in 
2004, nearly half were apprehended in the Tucson Sector alone. While 
most of the people who cross seek to work in the United States, we have 
no way of knowing if some of those who cross seek to attack us. 
Congress must make it a priority to regain operational control of the 
border.
    I hope that one of the lessons we learn from Hurricane Katrina is 
that certain emergencies can be prevented or minimized, and that the 
best disaster response actually happens years before a first responder 
ever arrives on the scene.
    Aside from learning that lesson, there are many things this 
Congress should do to prevent and prepare for future disasters in the 
United States:
        <bullet> First, respect the constitutional authority of states 
        and the nation's governors in an emergency situation.
        <bullet> Second, restore critical homeland security and 
        emergency response resources that the federal government has 
        cut in recent years. The value of funding for preparation and 
        practice in advance of a true emergency cannot be 
        underestimated.
        <bullet> Third, better evaluate and examine disaster threats, 
        such as the federal levees in New Orleans, and prioritize 
        funding for those areas. Obviously, securing the border must be 
        a top funding priority here.
        <bullet> Fourth, work with the states to obtain accreditation 
        for state emergency preparedness plans. The accreditation 
        process is extremely thorough and provides a mechanism for 
        states to ensure they have covered all that is necessary.
        <bullet> Last but not least, the public health aspects of 
        disaster and recovery must be integrated into any response 
        plan. Preparations, or the lack thereof, for the avian flu 
        illustrate this point.
    I appreciate your time and consideration, and am pleased to answer 
any questions you have at this time.

    Chairman King. Governor Bush, I want to assure you that the 
prayers of all Americans are with the people of Florida, for 
the people of Florida, especially those in the southwest, and 
we certainly wish you the very best as you confront this latest 
crisis. You detailed very systematically what you have already 
begun to do, how you are preparing for this weekend's 
hurricane. Obviously it is based on past experience. It is 
constantly being updated. But as you know, the best plans, 
there is always glitches along the way.
    Something unexpected is going to happen. What other 
preparations do you make? For instance, what contact do you 
have with the Federal Government now as to what they will do, 
assuming something goes wrong, the storm goes a different way, 
some evacuation doesn't work, some hospital can't be evacuated 
or whatever? Are you in contact with representatives in the 
Federal Government now for the unexpected?
    Governor Bush. Absolutely; including the President of the 
United States when appropriate. I mean, the Governors will 
have, during an emergency, have direct contact with the 
Secretary of the Department of Homeland Security, the head of 
FEMA, the military. There is--what is interesting about 
hurricanes, or disasters, is that I think the rule book gets 
thrown-out about all the nooks and crannies of government at 
every level. And there is a unified command structure in our 
State, so for starters, in our emergency operations center we 
will have a FEMA representative, and we will have a Homeland 
Security representative, typically high level, typically the 
admiral from the regional Coast Guard that is based in Miami. 
And so we will have direct access to agencies of the Federal 
Government.
    And you are right. You can't plan for every contingency in 
a disaster. Things happen. We prepare for the worst. We hope 
for the best, and then we expect the unexpected, and that is 
exactly what happens every storm. So we have a seamless 
relationship. We don't expect, and if we don't get, we push 
hard. We plan massively as well and worry about the paperwork 
later. That can get--you know, after the fact sometimes that 
may not look as pretty as you did when you make that decision, 
but when you are preparing for a storm where you know there is 
going to be major devastation, you don't worry about that.
    And we have found that the problems with FEMA isn't at this 
time--you know, the 2 or 3 days before the storm--the problem 
can be in the recovery phase, trying to get housing, trying to 
get individual assistance, dealing with creating a consistent 
reimbursement means for debris removal, which is a much bigger 
problem than you could ever imagine. The tonnage of debris that 
comes from a natural disaster of any kind is enormous. And so 
the bureaucratic part of FEMA becomes a problem in the 
recovery, not in the relief and preparation, in my opinion.
    Chairman King. Governor Perry, with Rita what contacts or 
what lines of communication and coordination did you have with 
the Federal Government as you prepared and as the storm was 
beginning its onslaught? And did you feel that those lines of 
communication were adequate?
    Governor Perry. Mr. Chairman, one of the--I think the keys 
is the preparation that is done prior to an event. And again, I 
can't stress enough how important it is for those exercises to 
have been conducted, for that homeland security dollars to have 
been appropriately spent, for those State and local first 
responders to work together in exercises prior to, and I might 
add the Federal Government is in our State operation center 
working with us during those exercises.
    Chairman King. Who is the Federal Government at that stage?
    Governor Perry. The FEMA representative, the Air Force, the 
Army, the Navy, all of those Federal agencies that you would 
deal with, they game play with us on these exercises. I mean, 
they are occurring, and so the issue of is your communications 
there with the Federal Government, from our time that we have 
worked with them, yes. I mean, the fact of the matter is this 
isn't--I mean, I will tell you that from a Texas perspective, 
we have had--with Rita in particular and with Katrina, our work 
with the Federal Government was good. You know, was it perfect? 
No. I mean, as you said, you throw out the play book. But the 
fact of the matter is it is at the local level, I think, where 
the first decisions have to be made, and that response is being 
made.
    Again, you know, I am not here to particularly criticize 
FEMA or criticize any of the other agencies of government, but, 
you know, the fact is that the less bureaucracy that we have to 
deal with in an emergency, the better. We operate just like Jeb 
and Florida in the fact that we ask for forgiveness later. We 
are going to not ask for permission today to go save the lives 
of our citizens, and as appropriately it should be. And, you 
know, we will work out the--any bureaucratic details later.
    But, so, you know, I talked to the President a number of 
times prior to Rita hitting our coast and afterwards. You know, 
we talked to Secretary Chertoff and to--and I talked to Jeb. I 
mean, we called each other before Katrina actually. We had a 
conversation, and he called me and he said, listen, we are the 
bookends on this thing. And what--are we doing everything that 
we need to do to help the people in Alabama and Georgia and 
Mississippi and Louisiana? Because he said the fact of the 
matter is, he said we are perfectly suited, and he needed some 
things from us, some gasoline, and that had been disrupted from 
a previous storm, and so these Governors work together. And I 
think it is very important to realize that there is a lot of 
good communications. There is a heck of a lot more good that 
goes on than things that are bad. And it seems like there are 
some folks that want to focus on the bad.
    Chairman King. Thank you very much. My time has expired.
    Ranking Member Mr. Thompson.
    Mr. Thompson. Thank you very much. And I appreciate the 
testimony of the witnesses.
    One of the things I would like to be very clear on is there 
is some discussion here in Washington that the Federal role in 
disaster preparedness should be expanded to become a primary 
role rather than a secondary role. Is it your testimony here 
today that, as Governors of your State, you reject that notion 
and assume the responsibility of disaster preparedness and 
response for your particular State? All three of you.
    Governor Bush. Absolutely. I think if this responsibility 
is federalized, then that will be as big of a disaster as any 
natural disaster that hits our communities.
    Governor Napolitano. We can't do our jobs if it is 
federalized. Our job is to protect the safety and welfare of 
our citizens. We are on the ground there every day working with 
our first responders, our sheriffs, our fire Department, our 
police officers. Moving the locus and focus to Washington, 
D.C., would be a disaster.
    Governor Perry. It would be a great mistake, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. I yield 
back.
    Chairman King. Gentleman from Texas Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Governor Perry, a lot of observers do feel that Texas did 
respond well to both Hurricane Katrina and Hurricane Rita, both 
in the response to the disaster itself, as well as to meeting 
the needs of hundreds of thousands of evacuees. Why was Texas 
able to respond so quickly and appropriately, in your judgment?
    Governor Perry. And I will be very brief because I am going 
to repeat myself, but it was because of the preparation and the 
appropriate coordination from our State emergency operation 
center. You are going to have the opportunity to talk to local 
officials from Beaumont and Jefferson County and from over in 
Sugarland, and I think you are going to hear that exact same 
story is that because of the preparation and the gaming out and 
the exercises that we went through, we were as prepared as you 
can be, and always knowing that there is going to be some curve 
ball thrown at you that you did not perceive. The idea that we 
were going to have evacuees from Louisiana to the numbers that 
we had, and then we had to evacuate those evacuees, I am not 
sure anybody put that one into the game book. But now we know 
how we would deal with this massive evacuation out of one of 
the most populous areas along the gulf coast. And we didn't get 
it perfect. We learned, and we are analyzing and deconstructing 
that as we speak so that we can make it better the next time, 
because we know there will be a next time.
    Mr. Smith. Governor Perry, in your prepared statement, in 
fact it was the second sentence of your prepared statement, you 
said, I oppose the federalization of emergency response efforts 
to natural disasters and other catastrophic events. That is 
pretty clear, and it sounds like all three Governors agree with 
that statement. And--but my question is, that being the case, 
what do you think is the appropriate--when is it appropriate 
for the Federal Government to be involved, if ever, in natural 
disasters?
    Governor Perry. I look at the military's role. I think we 
need to be careful as we talk about the government's role here. 
What I was making reference to is the military taking over as 
the first responder. That is the clear concern that I think all 
three of us share. But there is an absolute role for the 
Federal Government in a number of ways, obviously, but the 
military's is to come in with their assets, with their 
transportation assets, with their personnel to operate that 
heavy equipment, et cetera, whether it is, you know, the 
removal of huge amounts of debris on the road so that the 
emergency responders can get in, and there are a lot of 
different roles that they play. But it is not to come in and be 
the first responder of the fire and police and people who have 
been working together for years, and they almost instinctively 
know what one is going to do and how those work together.
    The military's role should be not unlike the National Guard 
or the Reserve's role when we are in a conflict and the 
military has--needs some assistance; then that is when we call 
up our National Guard and our Reserves to complement the 
military. I look at the Active Duty military as our Reserves in 
these disasters, and we will call them up when we need them.
    Mr. Smith. Okay. Thank you, Governor Perry.
    Governor Bush, do you tend to agree with that response? 
What do you think is the appropriate Federal role of the 
government when it comes to natural disasters? I assume it is 
pretty much in line with what Governor Perry said.
    Governor Bush. It is. And there are unique things that can 
be accessed through the EMAS system, the Emergency Mutual Aid 
System that exists. Remember, in a Federal system, to put in 
perspective, we had 3,700, at the peak, 3,700 firefighters, 
police officers, National Guard, State law enforcement agents, 
fish and game folks, and public health people in mostly 
Mississippi, and some in Louisiana. That was the Federal 
response, because it was asked for by the Governor, mostly the 
Governor of Mississippi, some the Governor of Louisiana; it 
went through FEMA and through this mutual aid pact; we 
responded.
    We happened to be in better shape to do it, because you 
couldn't get to Mississippi from Texas or from the north. The 
only way to get there was from the east. We had already 
mobilized because the storm could have hit our State. So we 
were the first responders literally in southern Mississippi.
    That is a federalist response, coordinated by the Federal 
Government. It worked. It worked really well. Ask the folks 
that--at least I have gotten a lot of comments about how much 
they appreciate the fact that there was that quick response in 
southern Mississippi.
    There are unique things that right now we are asking for, 
we are beginning to plan for. If the storm hits the Florida 
Keys, there is one way in, one way out. We are going to have to 
have a unique means of getting in there to make sure we do our 
search and rescue. That will probably be a Hoover craft. We 
don't have Hoover crafts in State government. That is from the 
military, and the military is already beginning the process to 
see if it is possible to stage that in a way that would be 
helpful.
    That is the kind of response we asked for, and, again, we 
typically get it. I think the problem with the Federal response 
gets more burdensome in the recovery, not the preparation and 
relief part of this. When people are there in line, you know, 
waiting to get an SBA loan or trying to get public assistance 
or communities that may have a small budget that are 
overwhelmed by debris removal or having to build their 
infrastructure up and are trying to get reimbursed through 
FEMA, that is the place where I think there needs to be some 
work. It can get really frustrating is all I can tell you.
    Mr. Smith. Thank you, Governor Bush. Thank you, Mr. 
Chairman.
    Chairman King. The gentlewoman from California, Ms. 
Sanchez.
    Ms. Sanchez. Thank you all, governors, for being before us. 
The President just signed this week a Homeland Security 
appropriations bill, the spending monies for 2006, and in it he 
cut by half the State Homeland Security grant program, from 
$1.1 billion to $550 million, and he also cut the Urban Area 
Security Initiative, UASI, by over $120 million.
    Will this affect you at all? Will this affect your 
programs, governors, in particular for example, Governor 
Napolitano? You spoke about trying to get more of our agencies 
interoperable on communications equipment, et cetera. Do you 
think this will affect you at all?
    Governor Napolitano. Mr. Chairman, Congresswoman, yes, it 
will. It can't help but not to. I think that what the Congress 
should look at is what is--what are the States doing and how do 
they need to be properly funded at the Federal level to do what 
we are asking the States to do? That means funding for all of 
the exercises that Governor Perry has discussed. That means 
funding for the right kinds of equipment so that as we 
preposition it before a hurricane or forest fire, we have that 
kind of equipment. It means really evaluating risks and funding 
for no able risks as well as those that may be unknowable.
    So from a State perspective, yes, it definitely will have 
an impact and not a good one.
    Ms. Sanchez. Anybody else want to talk about what impact it 
might have?
    Governor Perry. I would like to respond first and foremost. 
I don't know what the rest of the Federal Government budget 
looks like, just because they cut back in one area doesn't 
necessarily mean we are not going to have dollars flowing to 
the State of Texas. It is up to us to make those decisions and 
prioritize where those dollars are spent. If that is the only 
dollars that are going to be flowing to the State for the 
purposes of Homeland Security, then the obvious answer would be 
there might be some concerns there. But I would need more 
information about the total budgetary outlay for Homeland 
Security for those types of operations.
    When you just describe it as that is the only--
    Ms. Sanchez. Governor, I was assuming you might know what 
types of production or what you are using those particular 
Homeland Security programs for in your State.
    Governor Perry. The fact of the matter is we don't know 
what the total budget is, Ms. Sanchez, and I think to try to 
talk about how a reduction in one line item is going to impact 
your entire State's appropriation and your entire State's 
activities relative to Homeland Security is inappropriate, and 
I can't tell you without looking--
    Ms. Sanchez. Thank you, Governor. I understand. Just for 
your own information, there were three law enforcement 
programs, including the COPS, which have significantly been 
scaled back, and one of the reasons that this administration 
has said they had done that is they were putting more monies 
into these times of programs in Homeland Security. So it came 
to me as somewhat of a surprise this was cut in this year's 
bill.
    Governor Bush, do you have any comment on those particular 
programs, the State Homeland Security grant and the UASI 
programs? Do they affect your State at all?
    Governor Bush. I don't know, to be honest with you. You 
know what, in a perfect world, I think you probably hear this 
from governors a lot--
    Ms. Sanchez. You just want the money and you want no 
strings attached?
    Governor Bush. Exactly.
    Ms. Sanchez. Thank you, Governor Bush.
    I have another question. We understand that.
    Governor Perry. Just for the record, Governor Napolitano 
agrees with that also.
    Ms. Sanchez. I have a question in particular for Governor 
Napolitano, but you all are, in a sense, border States, maybe 
not Florida, but you certainly have this issue of ports and a 
lot of coastline where people may come in. I am the ranking 
member on the subcommittee here that deals in particular with 
border security and the Border Patrol, et cetera, and there 
have been several governors who have mentioned that this is a 
national security problem.
    So, my question is, in particular to Governor Napolitano, 
and if we have time, to the other two, I am not picking just on 
her, but she happens to have an ongoing problem of people 
coming across the Sonora Desert there, as does Texas, but we 
hear more of it coming out of Governor Napolitano's area, we 
are looking at doing some immigration reform here in the 
Congress, maybe in this next 2 months, maybe beginning with the 
whole issue of border security.
    Can you talk to me about the number of border patrol, what 
the problem is, what we vice president done at the Federal 
level, what you need to see? Not only from securing the border, 
but also what happens if we do nothing about the people who are 
already inside of the United States who may not have documents 
or have overstayed their documents for staying here. What 
problems does this cause you? What would you like for us to do 
here at the Federal level?
    Governor Napolitano. Congresswoman, I would like the 
Federal Government to put more resources into the Arizona 
border, as has been promised now for many, many years. The 
resources were put in the San Diego-Tijuana area in Operation 
Gatekeeper, they were put into the El Paso-Juarez area in 
Operation Hold-the-Line, and the Arizona border was left 
unresourced and the traffic, quite frankly, moved into Arizona.
    The border has to be dealt with as a whole, the whole 
stretch of it, and we need more by way of resources there. We 
need Border Patrol agents north of the border. The County of 
Maricopa, where Phoenix is located, is the point of destination 
for literally hundreds of thousands people who are crossing on 
an annual basis. We have no Border Patrol agents to pick them 
up. They are caught and released. That is the policy, catch and 
release. So the rule of law is not being applied. That has to 
be a top priority.
    Accompanying that needs to be a thorough examination of our 
Federal immigration law and policy and how it should be changed 
to match the economic realities of today.
    Governor Perry. Absolutely, if I could, Mr. Chairman, I 
would like to just give you some numbers, Mrs. Sanchez. Other 
than Mexicans, that is the individuals, OTMs, that is the 
biggest area of concern, not the biggest, it is one of the 
great areas of concern. From 2002 to 2005 in the Del Rio 
sector, the OTMs went up that were apprehended by 613 percent. 
In the McAllen area, the very far southern part of the Texas 
area, those numbers went up 429 percent. The number of Mexican 
aliens that were apprehended stayed basically level.
    But we are seeing a huge problem with OTMs, and there is a 
very much a nonsensical policy today by Homeland Security to 
bring those people inwards 150 miles in the case of from the 
border of Texas to San Angelo, and release them on to that 
community without knowing who these people are, with the 
directions that he would want you to show up at a deportation 
hearing in X number of days and the fact of the matter is none 
of them show up. This is a real problem and it has to be dealt 
with. We need more technology, we need more Border Patrol 
agents, we need more dollars along the border to pay for the 
overtime for our law enforcement officials that are there.
    So, I think all of us share in the fact of the matter is 
with all due respect, the State of Texas has about 1,200 miles 
of that border to deal with, and in between those ports of 
entry is where a lot of those resources are going to have to be 
spent.
    Ms. Sanchez. Thank you.
    Governor Bush. Well, while we don't have a land border, we 
do have a significant border with the Caribbean and we also are 
the recipient of a tremendous number of people that cross the 
Texas and Arizona borders to come to pursue their dreams in our 
State. So I think protecting the homeland, one of the main ways 
that you could do that, I don't know about all of the little 
programs you were talking about, this is an area where Border 
Patrol enforcement, more agents for the Border Patrol, not just 
in the southwest, not at the expense of the southwest, we 
certainly don't want to do that, but including areas like 
Florida where we have seen a dramatic increase in the number of 
interdictions of people coming by boat.
    Then this is a dicey subject, but the treatment of illegal 
immigrants, their status, is something that can't be ignored.
    Ms. Sanchez. You are talking about people who are already 
here who are working who might be part of the community.
    Governor Bush. Which is part of your question.
    Ms. Sanchez. We can fortify the border. What does that do 
for the people inside?
    Governor Bush. I think in turn for fortifying the border, 
strengthening the border, there needs to be some recognition of 
the fact that these are, by and large, most of these folks are 
hard-working people, they are working so that they can provide 
for their families. There needs to be a policy I think that 
respects them. Until we can control our borders, I doubt that 
that will be done in Washington, D.C.
    So I think the first step is the proper one we are talking 
about, but immediately to ignore the fact that we have millions 
of people here that don't have documentation, that are making 
contributions, but they are not being recognized. That may be 
politically correct in this day and age, but I think it is 
important to recognize.
    Chairman King. The gentlewoman's time has expired.
    Ms. Sanchez. Thank you, Mr. Chairman, for your indulgence.
    Chairman King. I am always willing to indulge the lady.
    I would just note for the record that this is an ongoing 
debate that we do, but the amount of homeland security grants 
has actually increased over the last 4 years from $200 million 
to $1.7 billion, and there are some States who have not spent 
more than half the money that has been awarded to them from the 
Department of Homeland Security, and there is almost $6 billion 
in the pipeline. Again, this is debate that we have ongoing.
    I recognize the gentlewoman from Florida, Ms. Harris.
    Ms. Harris. Governor Bush, I wanted to ask you specifically 
about some the issues that we have faced in Florida, most 
notably the debris situation.
    What we have had from FEMA are a number of different rules 
and regulations, different types of issues that they have told 
us and that has made it very difficult on counties, 
particularly in my economically challenged counties like Hardy 
and DeSoto. So I wanted to ask you what you saw about the 
actual policies concerning debris removal?
    For us, what our experience was is that FEMA focused more 
on semantics, not on the sewage and waste that were 
overwhelming communities. In their clean-up processes, they 
instituted unworkable definitions and standards for what 
constituted gated communities, for what were movable and what 
was removable. It just got into a bureaucratic morass.
    From Tallahassee's standpoint, we want to know you felt 
that you could deal with that better. It seemed like the rules 
continue to change daily. And the costs that were incurred and 
then the interest rates that were incurred, that small 
communities, small counties, had to borrow in order to 
accommodate what government had told them on the front end, 
what the Federal Government told them on the front end was 
going to be permissible.
    I would like to know what your thoughts are on that.
    Governor Bush. I think this is a serious issue. There needs 
to be greater transparency and clarity in treatment of debris 
in Phoenix just as it should be treated in Orlando, just as it 
should be treated in Austin. I think the interpretation of 
these rules varies from community to community, which makes it 
hard to determine when you should pick-up debris and when you 
shouldn't.
    The question of debris removal on private property, one 
would think that is a legitimate restriction. But you have many 
communities that have public functions but private streets. 
Those aren't gated communities that you think of in affluent 
areas. In Florida, as you know, many of these gated communities 
are mobile home communities. Those are the ones hurt the most, 
but yet they couldn't get the debris removed. I think having 
greater transparency and clarity of interpretation would be 
very important.
    Secondly, one of the problems that we face has been just 
getting the reimbursements done. The grind-it-out process 
which, Congressman, you are going to probably begin to hear 
about from your constituents increasingly because of Katrina, 
getting invoices through the process has been quite difficult.
    Thankfully, in Florida, Scott Morris came to be part of the 
long-term recovery effort in Orlando and made a commitment that 
he would deal with this issue and has done so. But it really 
required his effort. It shouldn't be based on one individual. 
There ought to be systemic change, so that the reimbursement 
that we thank you for--and I haven't expressed my thanks for 
the appropriation last year that saved our State--but for the 
supplemental that you provided made it possible for us to 
recover.
    Accessing that supplemental budget that you appropriated 
has been a challenge that we have now finally resolved.
    Going forward, I think there should be higher expectations 
of FEMA to get this process done quickly.
    Ms. Harris. On another note, and I would like all the 
governors to address this, we specifically had a hurricane 
summit this past week, then you commented on the idea that we 
have been discussing for some time on a national CAT fund. I 
really liked some of the ideas you had in terms of the 
accountability, that States should have their own CAT funds 
established first, some of the building code issues.
    Would you elaborate on some of your ideas concerning a 
national catastrophic fund? I would like to hear from Governor 
Perry and Governor Napolitano as well.
    Governor Bush. In response to this notion of federalization 
of the emergency response, maybe a better approach would be to 
hold local communities and States to higher expectations. Part 
of that could be to create a culture of preparedness. One of 
the things we have done in our State to achieve that is we have 
a statewide building code that is the toughest in the country. 
It changes the dynamics of evacuations, it changes the dynamics 
of cost. It creates the possibility of having a private 
insurance market, which we still have.
    We created, after Andrew, a catastrophe fund that had $4.5 
billion, I believe, of equity built up that had the capacity to 
borrow up to, I think, $18 billion to deal with these storms. 
That created another buffer.
    Given the fact we seem to be in an era where there are 
tremendous amounts of disasters going on, maybe I am so 
immersed in it, maybe it is not a typical, but it seems like 
there are more of these going on, and as we see the costs of 
these rise, perhaps it is time to consider a national 
catastrophe fund, and to opt into something like that, the 
Federal Government could perhaps require local and State 
governments to have preparation second to none, to have a State 
catastrophic fund to be able to buffer the private insurance 
market, and to create a culture of preparedness, which I think 
is essential for quicker recoveries.
    Governor Perry. Just briefly, we have a State CAT fund, but 
the fact of the matter is with the cost of these catastrophes 
reaching the level they are today, it is certainly worth the 
debate and we would be open to discussing of the Federal 
catastrophic fund and then obviously it is always the strings 
attached with that. But we are certainly open to discuss that.
    Governor Napolitano. Certainly it is an idea worth 
considering. We, too, have a State catastrophe fund. It goes by 
a somewhat different name, but that effectively is what it is. 
One of the things it does is advances costs that are really 
legitimately Federal costs because the Federal reimbursements 
come so tardily. So I think the notion of having a national 
fund with State funds and whatever, leveraging against each 
other, if we can clear up the paperwork, is well worth doing.
    Chairman King. The gentleman from the State of Washington, 
Mr. Dicks.
    Mr. Dicks. I want to welcome the governors. I appreciate 
your testimony.
    What about the housing issue, Governor Perry in particular, 
and Governor Bush, since you have been faced with this? This is 
one that worries me, how do we get these people into the right 
temporary housing and how do we get them into permanent 
housing?
    Governor Perry. Absolutely. Yesterday, in a meeting with 
Secretary Chertoff and his senior staff, we discussed that 
exact issue. We still have some 287,000 individuals in hotels 
and in motels and those types of rooms that are very expensive 
way to put folks up. One of the ideas that I laid out yesterday 
in some remarks was the concept of a housing voucher that could 
be used for either mortgage payments, particularly incenting 
people to go to VA, FHA, USDA type of housing, or for rent, but 
to put them in the responsible position of taking control of 
their lives, rather than keeping them in some type of this 
temporary housing that is incredibly expensive.
    Mr. Dicks. Is FEMA paying for that?
    Governor Perry. Yes, sir, that is my understanding. It is 
$22 million--excuse me, $11 million a day, a pretty expensive 
hotel bill.
    Mr. Dicks. Governor Bush, what is your experience after 
last year?
    Governor Bush. Well, we had a frustrating experience. This 
is back to the recovery side of it. As I said, prevention and 
relief, I thought FEMA did a pretty good job. Recovery is 
difficult. FEMA had the responsibility of providing the housing 
and it just was slow coming, to be honest with you.
    We ended up I think with 12,000 mobile homes or mobile 
structures that, thankfully, many people now have gotten out 
of, although some continue to use.
    It is extraordinarily expensive, and there is really not an 
easy answer to a Katrina-like storm, where you are overwhelming 
the housing stock of a broad expanse of area. There is just not 
a place you can go in the United States and say order me up 
200,000 manufactured homes. They are not in the inventory. So 
it will take an extended period of time.
    I think just if there could be a way for FEMA to perhaps 
challenge how they go through their process of determining if 
someone is eligible, speeding up that process, it would be very 
helpful. Eliminating some of just the uncertainties that--when 
someone has been hit by a storm, they have lost most of their 
assets typically. People that are most hurt don't have a lot of 
assets to begin with or a lot of income. To try to go through 
the maze is extraordinarily difficult.
    Mr. Dicks. Thank you very much.
    Could I ask one additional question here. On the military 
side of this, I am on defense appropriations and have been on 
the committee for a long time. The military isn't excited about 
taking over this responsibility either, by the way. I wanted to 
ask you this. Both the Coast Guard, and I think, the active 
duty forces that had helicopters come in and did a lot of 
important relief work. Was that done under the leadership of 
the governors and your emergency people?
    Governor Perry. Yes.
    Mr. Dicks. So they weren't acting independently of you. 
This was all coordinated with you?
    Governor Perry. It came straight out of our State operating 
center.
    Mr. Dicks. There is no way you have that kind of equipment.
    Governor Perry. We do have a substantial number of aviation 
assets in the Guard, a lot of Blackhawk helicopters, but those 
Coast Guard choppers that were doing the evacuations that you 
saw out of Louisiana, those were directed by their assets 
there.
    Mr. Dicks. To be honest with you, I don't know who was in 
charge of Louisiana. I don't know who was calling the shots 
there. We are still wondering that ourselves up here.
    Governor Napolitano, on Interior appropriations, we have 
jurisdiction over the forest fires in appropriations, and I am 
very interested to hear what you might want to say about what 
were the strengths and weaknesses in the response to these 
major forest fires that you have endured in Arizona?
    Governor Napolitano. Thank you. We have developed a system, 
if a fire starts on State land, we are the first responder and 
we coordinate with the Forest Service to provide support. If it 
starts on Federal land, they are the first responder, we 
coordinate with them. One of the key things about forest fires 
is you may not know precisely when or where one is going to 
start, but you can pretty much predict the month you are going 
to start your fire season and you can pretty much predict the 
areas of your State where they are going to begin.
    Mr. Dicks. Did you have problems with the Federal response 
in terms of getting money back?
    Governor Napolitano. Yes, indeed. When we are incurring 
Federal expenses for helping fight fires on Federal land, delay 
in reimbursement has been a real problem for the Forest 
Service. And a second real problem has been the lack of plan 
and coordination with the States on air tanker support for 
wildfire fighting. We were literally in the middle of a very, 
very bad fire season, then the forest season with no real 
prewarning to the States, grounded all 33 of the large air 
tankers that are really your first wave of attack on a large 
fire. We still don't have that situation worked out. So there 
are problems there in coordinating with the Forest Service.
    Overall, historically, it has been a good relationship, but 
in those particular areas, speed of reimbursement and air 
tanker support, problematic.
    Chairman King. The gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. I want to correct my 
introduction. It was the Texas National Guard, and it was not 
federalized.
    I don't want to let one bad apple ruin the whole federalist 
scheme here. I think as you stated, let first responders be 
first responders. I think the Federal Government can provide 
the assets, the resources to help, but not take over the entire 
scheme. I think we had a situation in Louisiana where, quite 
frankly, there was a breakdown of communication and leadership, 
but yet that should not change our fundamental laws and 
Constitution. What Louisiana did raise was the issue of 
preparedness to not only Mother Nature as a terrorist, but to 
the terrorists themselves.
    I want to see if the panel would comment on that, how well 
prepared you feel in your States you are to a potential 
terrorist attack, and then as we talk about the border, which I 
know in my home State is an enormous issue, could you comment 
on whether you believe we need to declare a national State of 
emergency?
    Governor Perry. That is a pretty broad set of questions, 
and I will try to hit them very quickly.
    I think Texas is as prepared as humanly possible for an 
event, whether it is man-made or whether it is natural 
disaster. Are we prepared for every eventuality? No. That is 
physically impossible to be prepared for everything. We know 
that. We learn every exercise.
    But the fact is that, again, I go back to if States have 
adequately used their Homeland Security dollars and other funds 
have funneled into their States for those purposes, and we were 
really thankful to the Federal Government for the dollars we 
received, and hopefully, as you audit our expenditures of 
those, that you will find that we have used them in an 
appropriate way and reflective of how we dealt with Katrina and 
Rita, and those 150+ plus exercises, that there is proof in the 
pudding, if you will.
    But our big concern, as you rightfully bring up, Michael, 
is the border, and it is the terrorist individual who we don't 
know about. In those OTMs, Mrs. Sanchez, that have been 
apprehended in the State of Texas, we see people from countries 
like Iraq, Iran, Bangladesh, that tri-border region between 
Brazil and Argentina and Paraguay, that we know are al-Qa'ida 
hot beds. It is those individuals that cause us great concern. 
And the fact of the matter is, this catch and release program 
that you heard Janet, that is just the lingo of the industry, 
but that is a pretty accurate description of what they do. They 
are apprehended, taken inland and turned loose. If that policy 
does not change, there will be another terrorist attack on 
America that comes from that type of immigration policy.
    We must have the resources, we must have the border patrol, 
the technology. And I can't overstate the presence--we have 
Operation Linebacker that is ongoing in Texas today that our 
sheriffs along the border have put together. It is following, 
not unlike Operation Stone garden which occurred in a couple of 
regional areas along the border. But it is that presence of 
uniformed individuals in particular that really stops, lowers, 
the amount of criminal activity that is ongoing.
    So, it is a very broad subject that you bring up, but the 
entire border region, from California all the way to 
Brownsville, is susceptible to--is a very porous border. It is 
a huge problem that we have to deal with as a country, because 
this just isn't about Texas, Arizona and New Mexico and 
California. This is about the entire country that is being 
impacted by that type of open border.
    Governor Napolitano. I think Governor Perry said it well. 
It really is resources to be deployed between the ports of 
entry further north, and the susceptibility is there. This must 
be a top priority of our Homeland Security effort.
    Governor Bush. I think Florida is better prepared after 
September 11 than before. We were maybe better prepared than 
other States because of the fact we have more natural 
disasters. So the natural disasters actually, and how we 
respond to them it is a training process to keep local 
communities and the State focused on what is a huge priority 
for our State. So I think we are better prepared.
    But I guess what I try to tell the team that works so hard 
on this is success is never final, and that we constantly have 
to be upgrading how we prevent the damage of a natural disaster 
and how we prevent an attack on our country. Florida is a place 
that people move in and out of more than most places. So we are 
a logical place where there could be a terrorist attack, just 
given our coast and given our population.
    So we are trying to constantly upgrade our skills. One of 
the ways we have done a better job in the last 3 or 4 years is 
the communication between fire and police, the sheriffs and 
police departments. We have these regional security task force 
structures that demand more transparency and more 
communication. Then we are using technology to back it up with 
more interoperability. That has been a problem, I think, across 
the country.
    Chairman King. The gentleman's time has expired. The 
gentlewoman from New York, Ms. Lowey.
    Mrs. Lowey. Thank you very much, Mr. Chairman. I want to 
thank all three governors for appearing before us. It has been 
tremendously helpful.
    I want to switch the subject to the pandemic possible, 
let's hope, not the reality of a possible pandemic flu. But 
first, I just wanted to comment briefly on Governor Bush's last 
comment concerning interoperability, and Governor Napolitano 
talked about that as well.
    Unfortunately, the Federal Government's office of 
interoperability really hasn't shown much leadership, and for 
me, this has truly been unfortunate. Many of us have been 
talking about it for years with the Department of Homeland 
Security. I think it was Governor Napolitano that mentioned, I 
am not sure, one of you mentioned that you have an 
interoperable system in place. But what did happen in 
Louisiana, even if they did have an interoperable system in 
place, when the Federal departments came in, Federal agencies 
came in, they weren't interoperable.
    What we have been calling for is not a prototype that every 
State has to have the exact equipment, but there should be 
standards, there should be RFPs sent out, and we haven't done 
this on the Federal level. So I hope you will work with us to 
encourage more Federal activity and leadership in that area, 
and I congratulate you for what you have done in terms of 
interoperability.
    But I want to get to pandemic influenza preparedness, 
because I have been talking about a year. In hearings on April 
12, before that in October, about the need for a Federal 
preparedness plan to deal with the possible influenza pandemic. 
I am pleased to learn that each of your States has begun 
working on this kind of preparedness plan. In fact, it makes me 
wonder why the Federal plan has been in draft form since last 
August, and we still don't have a permanent Federal influenza 
plan.
    Now, I think we would all agree that we wouldn't look to 
Michael Chertoff to be the Nation's doctor, nor would we ask 
the CDC to train firefighters and police and EMS workers.
    Clearly, there is a role for multiple Federal agencies as 
well as State and local governments. But in my judgment, and I 
think the judgment of so many of us, we really need to plan 
ahead to make sure everyone is equipped and ready to coordinate 
an immediate response.
    For example, do you open the schools? Do you close the 
schools? Do you allow planes to fly intrastate? Does the 
President stop all flights? There needs to be a great deal of 
planning.
    So I was pleased to learn that you have begun to make these 
plans, and I would like you to perhaps give us some 
information. Where are you in your planning? Have you developed 
plans to date? I am sure if and when the Federal Government 
comes out with their final plan, you will amend your plans. But 
if you can give me an update, if, God forbid, a flu outbreak 
reaches our shores and your State, what is your understanding 
of your role in this scenario? Whoever would like to begin. 
What have you done, what kind of meetings have you held, what 
kind of--I am not sure if all that chat is you haven't done 
anything.
    Governor Bush. No, we were trying to figure out who gets to 
go first. I think I volunteered.
    Mrs. Lowey. I appreciate that. What I would like to know is 
what have you done? Has there been any assistance from the 
Federal Government?
    Governor Bush. Absolutely. We do table-top exercises for 
natural disasters--
    Chairman King. If I could intervene, we are going to be 
voting in about 25 minutes. I would ask if the governors can 
try to keep their remarks brief. Thank you, Governor.
    Governor Bush. We train for these exercises. In fact, the 
public health issues are probably the highest priority for us, 
given the nature of our State. So what would happen if there 
was a pandemic in Florida, and Florida was a participant in it, 
would be the Secretary of the Department of Health, rather than 
the head of the emergency management team, would be the lead, 
but we would use the exact same structure that we have in place 
which is battle-tested.
    Through the departments of health in the 67 counties, in 
coordination with the CDC, there are protocols in place already 
to deal with these issues.
    There will be circumstances in the--God forbid if that 
happened--that wouldn't be part of the plan that we have in 
place. But many of the same lessons learned from the hurricanes 
and preparing for emergencies would apply for this, as well.
    Again, I hope that this is something that is only 
theoretical, because it is just an enormously--it would be an 
enormous challenge. But there has been significant preparation 
in place. When this news came out, we had already had several 
briefings. The Secretary of the Department of Health has 
already begun the process of implementing the beginning parts 
of this plan to be prepared.
    Mrs. Lowey. What does that mean?
    Governor Bush. Again, to make sure--have 67 counties in our 
State; we have 67 health departments. All of them have to be 
part of a successful preparation. It simply means know what 
your plan is. Run through it. Make sure that the community 
partners in the hospitals, for example, in the emergency rooms, 
make sure that people know what their role is. Assure that--one 
of the key elements of this is to identify the flu as early as 
possible. There are places, whether it is schools or emergency 
rooms in hospitals or doctors offices, there are ways that you 
can do that if you have prepared for it in advance. That is 
what we are doing.
    Mrs. Lowey. Governor Napolitano.
    Governor Napolitano. Congresswoman, yes, we have worked on 
a flu plan, but a flu plan can apply to a number of other 
scenarios as well. But the kinds of preparation includes 
looking at who--
    Who we would require physical exams. How we would describe 
medicine and vaccine. How we would procure medicine and 
vaccine. How we would provide for transportation of medical and 
support personnel, if a particular area were particularly hard 
hit. Those all go into a flu plan, a disease plan, as it were.
    Just as in Florida, I think in most States it will be the 
State Department of health services that will be the lead 
agency coordinating with county health departments and 
providers in terms of providing the care. But another essential 
element, quite frankly, is the Department of Agriculture, 
because there is an animal kind of interface that you also have 
to look at.
    Mrs. Lowey. I am glad you mentioned that. In fact, my 
colleague, Rosa DeLauro--
    Chairman King. Nita, we are really running out of time.
    Mrs. Lowey. Let me just close--
    Chairman King. Actually, no.
    Mrs. Lowey. Can I close with one other statement?
    Chairman King. No, we are really out of time. We have many 
members and we only have 20 minutes to go. I hate to do this. 
This is the only time in my life, I have to shut the gentlelady 
off.
    I have discussed this with Congresswoman Sanchez. If we can 
limit the questions to a total of 3 minutes so we can try to 
get as many members to ask them, and if the governors would 
keep their statements within the 3-minute time period.
    Mr. Dent.
    Mr. Dent. Governor Perry, you obviously had an experience 
recently with a major evacuation of a large metropolitan area. 
My question to you is, what should the role of the Federal 
Government be in preparing and implementing an evacuation plan 
that is directed toward a major metropolitan area like Houston 
or Philadelphia or New York City?
    Governor Perry. Right. I think what you will see is what 
happened in Houston and the surrounding Gulf Coast area will be 
a model, not a perfect model, but a model that will be, again, 
analyzed and deconstructed and talked about. We have a group 
already working on recommendations on how to do this better, to 
preposition fuel, to rest stops, to how you contra-flow 
highways. All of those issues are in front.
    I will just briefly conclude by saying that what happened 
in Texas is now a model that everyone can look at, whether you 
are in L.A. or New York or Atlanta or whatever major 
metropolitan area, and to start looking at all of the 
contingencies that occur and how to possibly make their plans 
better.
    Mr. Dent. As a quick follow-up, my district is less than 80 
miles from New York City and the City of Philadelphia. My 
question is, what was the ability of communities that were 
receiving evacuees to absorb all those folks coming in?
    Governor Perry. You saw some Herculean efforts by the local 
folks. Again, you have the opportunity with the next group of 
individuals to talk to those mayors and those county judges. 
Those are the people that really have the absolute best 
information. Again, it goes back to why you need to keep the 
first responders being the first responders, because these are 
individuals who have the real live experiences that can share 
with you exactly how they absorbed those people and how they 
were able to very quickly bring them in, shelter them, and now 
dispersing them after the fact.
    Mr. Dent. Can I quickly ask one last question?
    Chairman King. Mr. Dent, we have to wrap up within one 
minute.
    Mr. Dent. Posse comitatus. Do you think we should 
reconsider it?
    Governor Perry. No.
    Governor Napolitano. No.
    Chairman King. The gentlelady from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I thank the 
governors for their respective views. It has been very 
important.
    Let me get the red herring out of the room. I don't think 
you will see a single member here that wants to federalize 
first responders. I want to assure you of that. President Bush 
has asked to me it seems a responsible question, and 
essentially that requested asked before Katrina and since is 
under what circumstances should the military be used. That is 
all we are interested in.
    It is about disaster response here. Not only natural 
disaster response. I just wanted to put the dilemma we face to 
you. Assuming that the State and local responses were as 
perfect as they could be, the preparation and execution, in 
Katrina, of course, there is the Emergency Assistance Act, 
Stafford Act. He used the military, my friends, every branch of 
the military there. We, of course, want to fix FEMA. I was 
surprised the gentlewoman--rather, at the governors' response 
on FEMA, because I am on the subcommittee that has taken a lot 
of hits for not having calling FEMA in in 2004 when we are told 
that four hurricanes in Florida had the handwriting all on the 
wall about problems in FEMA. So we bear responsibility for 
looking at what we can do to make all of this moot.
    But I think the reason the President has put this to us is 
that in any case, for example, a disaster could be a terrorist 
disaster, the information then the response could be totally in 
his hands or if not the response, the intelligence, the 
Northern Command, ladies and gentlemen, are already gaming on 
the theory that there would be circumstances where any local 
and State would be overwhelmed and where the military would be 
necessary, if you are serious about saving human lives.
    I want to know if you oppose the use of the Army, the Navy, 
the Air Force, every branch of the military as it was used in 
Louisiana, apparently with the approval of the Governor and it 
was also used in Mississippi. Would you oppose the use of the 
military if there were a terrorist attack? And do you think 
this committee ought to try to figure out what circumstances 
should lead to the use of the military in either of those 
situations? For me, that is the only issue before us today, 
frankly.
    Chairman King. I would ask the witnesses to give the 
briefest possible answer they could.
    Governor Bush. I do think this committee needs to look at 
the circumstances in which the military would play and the 
President would play a direct role and the military play the 
direct role. There are, God forbid, we would be in this 
circumstance where an overwhelming event of national importance 
could take place, where the intelligence and the information 
available would be provided the commander-in-chief and not a 
Governor or mayor. Again, God forbid that would happen. Under 
those circumstances, in some way it could be appropriate for 
direct action. But it should not be in natural disasters, where 
we have a responsibility and we should be held accountable for 
that responsibility to respond.
    Ms. Norton. You don't oppose the use of the military, with 
the Governor, as was done in Louisiana, or not?
    Governor Bush. I do not oppose the military's involvement 
in preparation and relief, so long as the Governor of the State 
is in charge of that effort.
    Chairman King. Governor Perry?
    Governor Perry. Briefly, there is an absolute military 
aspect to most disasters. The military, the active duty 
military, should be at the discretion of the local Governor.
    Ms. Norton. The active duty Federal military?
    Governor Perry. Yes, ma'am.
    Ms. Norton. With the permission of the local government?
    Governor Perry. Yes.
    Ms. Norton. You don't have any authority over the active 
duty military?
    Governor Perry. The fact of the matter is with the State 
operations center shall the people who are organizing, we do 
work as a team. I think that is a very important thing to 
understand, is we do work as a team. If our State operations 
center says to the active duty C-130 crews that are sitting 
there waiting to move people with special needs, we need three 
C-130's in Beaumont, Texas, at 10:30 in the morning.
    Ms. Norton. I am talking about the Army, Air Force and 
Marines.
    Chairman King. The gentlewoman's time has expired. Other 
members have waited a long time.
    Governor Perry. The fact of the matter is we worked 
together. It can be the active duty Air Force, and they do, in 
fact, work with us. When we say this is what we need, yes, we 
go through the chain of command, but the fact of the matter is, 
that is the important part of this, is that realizing that we 
have this organizational chart and it is the States that would 
continue to be at the heart of the decisionmaking on where 
these assets would be placed.
    Chairman King. Governor Napolitano?
    Governor Napolitano. Very quickly, there is a role for the 
military, but it needs to be under the direction of the State 
Governor and in cooperation. That is exactly what we practice 
and prepare for, and we do use active duty military in these 
response plans, but we don't cede control over the response to 
the Pentagon.
    Chairman King. The gentleman from the State of Washington 
for 3 minutes.
    Mr. Reichert. All three of you have commented on three 
major points, communication planning and joint exercises and 
practice. I want to focus just on the communication piece that 
was mentioned earlier, a two-part question for anyone on the 
panel who chooses to answer.
    One, how can the Federal Government help those States that 
do not have a statewide communication? If you were just setting 
up a system in your State and you all three have systems, as 
does my State, the State of Washington, what could the Federal 
Government do to help you or the State do that?
    The second part of the question would be do you have a plan 
in place that would, in case your communications systems 
totally collapsed?
    Governor Perry. We do. In Texas, as a matter of fact, we 
have a substantial amount of satellite communications, the 
Texas task force 1 also has that type of capability. As a 
matter of fact, they were the first people in Louisiana with 
the ability to communicate because every land-based and cell 
tower was down in Louisiana, so those are already in place. We 
prepositioned them.
    If Jeb has the need for those over the course of the next 
three or four days, they will be prepositioned to the west of 
Florida to go in to assist.
    Chairman King. Governor Napolitano.
    Governor Napolitano. Thank you. The answer is we have an 
interoperability. We used our Homeland Security money not to 
create a statewide system of fixed assets, but to buy vans that 
you could literally drive anywhere, that Federal, State and 
local responders can all plug into. It is like having mobile 
patches that we can make available throughout Arizona, but, as 
I said, we made available in Louisiana.
    What you can do is work with States to help them develop 
strategies like that, if they haven't done so already.
    Chairman King. Governor Bush.
    Governor Bush. Absolutely. The key to this is to have a 
robust system that is redundant. We have that, and it is 
mobile. It has been funded by State and Federal dollars. So 
Washington has done its part. Again, have I expressed my 
appreciation for the money you all have given us?
    Chairman King. Yes, Governor. We know that.
    Governor Perry. Mr. Chairman, let me just add one thing. 
The private sector plays a very important role in that also. 
For instance, our satellite trucks went into the Gulf Coast 
regions, Gycom, which is one of the local satellite trucks, to 
give us real-time pictures in the advent that we lost all of 
our electrical power. So the private sector also plays a very 
important role in this, as well as both the State and the 
Federal.
    Chairman King. The gentlewoman from Texas is recognized for 
3 minutes. We have cut the time to 3 minutes because of the 
votes coming up, not that I have to remind you in particular, 
but I just thought I would do it.
    Ms. Jackson-Lee. Thank you, Mr. Chairman. It is hard to 
count, but you have given me that number, and I do appreciate 
it very much.
    Let me, first of all, again, acknowledge the governors for 
their work and let me also acknowledge Michael Williams, who I 
have had the pleasure in the State of Texas to work with on the 
Texas Railroad Commission. For those uninformed about the 
processes of government in Texas, I commend you to--I have 
taken up about 30 seconds--but I commend you to Texas history. 
In any event, it is a very important commission. We thank you 
very much for your leadership.
    You can tell we are troubled by this question dealing with 
Federal levels of help. Let me share my focus with you and 
raise some questions so that we can be appropriately 
instructive in our work.
    One, we agree, I believe, that you have heard no interest 
in federalizing local law enforcement. In fact, one of my 
questions at the end will be that we like to take the burden of 
border security, which is another point, off of the States and 
do the job we are supposed to do.
    But just noticing a White House declaration shortly after 
Hurricanes Charlie and Francis, I think in the fall of 2004, if 
I am correct, and Governor Bush, you have certainly, if you 
will, been tested. But the efforts were defined and definitive, 
if you will.
    He submitted a request for emergency funds to Congress to 
ensure response efforts in Florida and elsewhere continued 
without any interruption. The President announced he would 
submit a supplemental request for approximately $2 billion to 
pay for the response and recovery efforts related to the 
hurricane, and the request for the first supplemental 
appropriation requests will total $2.2 billion that went to 
FEMA, primarily for emergency clean-up, et cetera.
    I also noted in your comments that you had talked about 
pre-deployment. Some of the other issues, about 100 trucks of 
water and 280 trucks of ice are present and will arrive in 
Jacksonville staging area today. 900,000 meals ready to eat. I 
notice 7,000 cases of food. So we concede there is a prime role 
for the Federal Government.
    What I would appreciate hearing, I am going to first start 
with my own governor, because we did one of the most massive 
evacuations, Governor Perry. Can I ask you to place in there 
where an appropriate government role would have been?
    For example, the added fuel trucks along the freeway, the 
utilization you did of the National Guard, but whatever other 
resources you might have needed, ice and water down in port 
Arthur. Is there not a role in synergies am with you, and 
Governor Napolitano, would you answer that? I am not asking 
Governor Bush, because you laid it out for us. If there is 
time, I welcome you to answer that question as well, and 
comment on the need for Federal resources and border security.
    Chairman King. Actually, there isn't enough. I would ask 
Governor Perry and Governor Napolitano to answer questions as 
briefly as possible.
    Governor Perry. Absolutely, there is a Federal response, 
and the coordination and its assets. It is those transportation 
assets, those heavy equipment assets, it is those fuel trucks. 
It is just the coordination of them. That is the important 
thing again that we can reiterate, the continual coordination 
between the State and the local and the Federal Government, and 
that is the real key to an evacuation, is having thought 
through all of those places where you need those individuals, 
where the bottlenecks are going to be, where you can use either 
the active duty or the military to direct traffic. It is a 
matter of managing those assets.
    Governor Napolitano. I would agree with Governor Perry, 
although I would say that border security issue itself on an 
ongoing basis is a Federal responsibility and requires 
federally-trained and paid-for law enforcement at the border. 
But in terms of managing a disaster and how you interact with 
the military and other Federal resources, it is a matter of 
coordination.
    Chairman King. The gentleman from California, Mr. Lungren.
    Mr. Lungren. With respect to the issue everybody has 
brought up, border security, I just might advise people that 
the bill the President signed yesterday, the fiscal year 2006 
appropriations bill for first responders, specifically added 
money for more Border Patrol officers, more interior 
enforcement, more beds, so that we don't have the OTMs caught 
and released.
    In reflection of that, or as a factor in that, it was the 
Congress that made the decision with respect to lesser money 
for the State Homeland Security Grant Program. We transferred 
some of the funds so that those things could be done in light 
of the fact that we discovered there are literally billions of 
dollars still in the pipeline from the previous two years that 
had not yet been spent. I would like that for the record.
    Secondly, and this is the question I would like to direct 
to you, when I was Attorney General of California, we dealt 
with fires and floods and earthquakes and riots and so forth 
and we dealt with the Federal Government on all levels, and we 
dealt with these issues. We never had a problem of where the 
Federal Government should be and where we should be.
    The problem that has really come out, and the big elephant 
in the room, is the fact that there was a failure of 
leadership, at least some of us think, at the State and local 
level, in Katrina. So some of the discussion here in Congress 
has been where does the Federal Government enter in? Not when 
under the Insurrection Act the Federal Government can use the 
military to subdue any insurrection, domestic violence, 
unlawful combination or conspiracy as an exception to posse 
comitatus, but is there another level of decision that ought to 
be made by the Federal Government?
    That is, some members have come to me and said when we have 
a certain size hurricane, Category 5, we ought to assume that 
the Federal Government is going to come in. Others have said 
when we make a decision that there has been a certain amount of 
loss of life, then the Federal Government should come in. 
Others have said we ought to reserve the ability to make the 
judgment when there has been a failure of leadership at the 
Governor level or at the local level, that the Federal 
Government should then presume it can come in, using Federal 
forces, including active military, as first responders. That is 
the real issue here.
    I would like to have your response to that, because I feel 
very strongly that posse comitatus has served us well and that 
we should be very leery of giving a President that kind of 
authority. But I would like to ask the three of you to respond 
to that.
    Governor Bush. I will start very briefly simply by saying 
that of the scenarios you described, that the only one that 
possibly would be appropriate is the last one, and it is not 
different than what happens--it hasn't happened in Florida 
since I have been Governor, it may have happened in the past, 
where a mayor was derelict in their duties, and under our 
emergency powers, we have the ability to countermand a decision 
made by a mayor or county chairman that endangers the lives of 
the people of that community as it relates to maybe not 
evacuating when they are supposed to or something like that.
    The last thing that should happen though is to create a 
system where you enable bad behavior. We should be rewarding--
we should make it a higher priority in every community, 
emergency response needs to be a higher priority, given the 
realities of the world we live in. And the more that the 
Federal Government assumes responsibility, the less likely it 
is that local first responders, local elected officials and 
governors, will feel compelled to make it their first priority.
    Chairman King. Governor Napolitano, and then Governor 
Perry.
    Governor Napolitano. I agree. As a former attorney general 
myself, the saying is bad cases make bad law, and I think 
changing the whole system because of one incident would be 
unwise.
    Governor Perry. Here is what I think that the government 
can do, is the dollars, you have had 4 years to see whether or 
not the States had expended those Homeland Security dollars 
appropriately. I think that is one of the real keys for you to 
look at, each State, and I don't know how you do that, you look 
at each State, see how those dollars have been spent, see if 
they are exercising and gaming out the types of events that 
could happen in those States and make a decision at that 
particular point in time. If they are not directing their 
States to these types of activities, then the public will 
respond appropriately to that Governor or to that mayor or to 
that doubt I judge, that you are not spending the money right 
to protect our citizens.
    Chairman King. The gentleman's time has expired.
    The gentleman from New Jersey, the Ranking Member of the 
Emergency Preparedness Subcommittee, Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I have three questions, yes or no, from each and every one 
of you, and then a final question which I would ask Governor 
Bush to respond to, if you would. So this should go very 
quickly, like teeth extraction.
    Since the creation of the Department of Homeland Security, 
much of the Federal focus has been on preparing for and 
responding to terrorist attacks. Is the Department giving 
enough adequate focus, in your opinion, to natural disaster? 
Governor Bush?
    Governor Bush. Yes.
    Mr. Pascrell. Governor Perry.
    Governor Perry. Yes.
    Mr. Pascrell. Governor Napolitano.
    Governor Napolitano. No.
    Mr. Pascrell. Thank you.
    Second question is this: Does the Federal Government have a 
role in ensuring that each State has interoperable, better 
known to us in Paterson, New Jersey, as proper communications 
systems? Do you think that the Federal Government has a role? 
Governor Bush?
    Governor Bush. Yes.
    Governor Perry. Yes.
    Mr. Pascrell. Governor Napolitano.
    Governor Napolitano. Yes.
    Mr. Pascrell. All right. Thank you.
    The third question is this: Do you think--should the 
President have the ability to declare a disaster under the 
provisions of the Stafford Act and direct Federal aid without a 
State request? Governor Bush?
    Governor Bush. I would say no just to keep it simple.
    Mr. Pascrell. No. Okay.
    Governor Perry. I will take a pass on that one.
    Mr. Pascrell. Okay.
    Governor Napolitano. No.
    Mr. Pascrell. All right. Here is my final question. This is 
to you Governor Bush
    Governor Bush. Is this like the $500 Jeopardy question?
    Mr. Pascrell. You are doing very well so far.
    Governor Bush. I don't know where this is leading.
    Mr. Pascrell. Do you think, Governor Bush, that FEMA--and 
you have had more experience here because of the disasters that 
have occurred in your State--do you think it should be 
extracted from the Department of Homeland Security?
    Governor Bush. I don't think it matters one way or the 
other. I think what matters is that the business practices of 
FEMA need to be reviewed and updated, and I think in an 
emergency the FEMA Director needs to report directly to the 
President of the United States, just as the director of 
emergency management who is embedded in a department in State 
government reports directly to me when there is a declaration 
of an emergency.
    Mr. Pascrell. You said in your testimony, Governor, that 
the FEMA logistic program is broken, and I agree with you 
100Sec. rcent. You gave an example. You gave an example of the 
ice that was supposed to get to Florida, and, you know, we 
don't have the time for you to go through that whole example. 
It is right in your testimony. It would seem to me that we need 
to do something very substantial here to get FEMA up and going 
again, to give it teeth so that it is of value to you before 
and in preparation and afterwards, God forbid, if the 
catastrophe does happen. It would seem to me that we should 
look at your testimony here, and then we ought to be thinking 
and talking amongst ourselves as we should make some very 
fundamental changes with FEMA. It is not working, in my 
estimation. Thank you.
    Chairman King. There has been a series of votes called, 
which means it is probably going to last over an hour. What we 
will do is try to go through two more questioners, and then we 
will have to excuse the panel. The committee will stand in 
recess subject to the call of the Chair for approximately 1 
hour, and then we will resume with the second panel after that.
    The gentleman from Nevada Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman.
    And to our Governors, thank you for being here today. We 
appreciate your testimony.
    My question would deal with the military, of course, 
serving on the Armed Services Committee. As you know, under 
State law, title 32 gives each Governor control of the National 
Guard within their respective States. Title 10 controls Active 
Duty Forces. There is a provision to allow for activation of 
title 32, National Guard into the Active Duty Forces, but not 
vice versa. In other words, no title 10 can go down to title 
32.
    My question would be, I read with interest the New York 
Times dated October 11, the military proposes an Active Duty 
Force for relief effort. Now, in each of your jurisdictions, do 
you believe that Congress would be better suited to ensure that 
our National Guard Forces who deal primarily with first 
responders within their individual States should be better 
prepared and better equipped to deal with natural disasters, or 
do you feel that it is better for Congress to take that giant 
leap and create a new division within our military forces that 
would be an overriding singular entity to deal with natural 
disasters with the equipment and the kind of responses that you 
talked about earlier?
    Governor Napolitano. My initial response without knowing 
the details is that, no, you want to work with your existing 
National Guards. There is a mechanism by which title--you can 
have a joint task force of title 32 National Guard married with 
title 10, and that happened at the national conventions last 
summer. That is how they managed the security at both the 
Democratic and Republican convention. You can do it under 
existing law.
    Mr. Gibbons. But you would also agree that there is no 
legal jurisdiction and chain of command in title 10, too.
    Governor Napolitano. No. You have to use the mechanism of 
the joint task force approach. But it has been used before.
    Governor Perry. Yes, sir. You just have to coordinate, and 
we do that very well in Texas, and I think these, all these 
Governors work. But my statement that I talked about the Maytag 
repairman I think is what you are talking about. If you create 
an Active Duty military group that is sitting around waiting 
for the next disaster, they may sit 6 months out doing anything 
when they could be out serving the people, keeping the peace, 
you know, fighting the wars that the military is supposed to be 
doing. So I would certainly be opposed to creating a special 
military unit just for disasters.
    Governor Bush. I agree. And I think enhancing the Guard is 
the way to go. We will have 1,000 guardsmen and women activated 
by tomorrow and 6,000 available for this storm, and they are 
citizen soldiers. They want to do this, and they do a darn good 
job.
    Mr. Gibbons. And States can share resources through a 
memorandum of agreement between States for anything.
    Governor Bush. Absolutely
    Chairman King. The gentleman's time has expired.
    The gentlelady from the Virgin Islands, Donna Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I have gone through several hurricanes, being from the 
Virgin Islands, both on the hurricane side and then FEMA side, 
and I will say that in the response to Katrina, I did not 
recognize FEMA at all, the FEMA that I am accustomed to. I am 
going ask a question; I guess one question is what I have time 
for. The National Response Plan outlines seven responsibilities 
of the Federal Government in a catastrophic event, and I 
consider Katrina catastrophic: mass care, housing, urban search 
and rescue, decontamination, public health, medical support, 
medical equipment, supplies, casualty and fatality management 
and public information. Is there any one of those seven in 
which you would give the Department or the Federal Government a 
C or better? Did you think that they met their responsibility?
    Governor Napolitano. With relation to Katrina or other--
    Mrs. Christensen. Katrina.
    Governor Napolitano. With relation to Katrina, no.
    Governor Bush. I can only speak from the Florida 
experience, and as it relates to the emergency response, the 
first response, I would give FEMA strong grades. As it relates 
to recovery, I think there is a lot of work that needs to get 
done.
    Mrs. Christensen. Even given the fact that there were 
people standing on bridges not being fed for 3 days?
    Governor Bush. I am talking about the Florida experience, 
which, again, you know, I think you can't grade FEMA based on 
that particular disaster where it is possible that the local 
and State response was inadequate.
    Mrs. Christensen. In my experience, FEMA is supposed to 
come in, the Federal Government is supposed to come in at the 
level at which the State is at capacity and fill in the gaps. 
One State is perhaps better prepared than another. FEMA should 
be coming in at the level at which that State has maxed out its 
capacity and build from there. Your State is well prepared. But 
through the coordination process they should be able to assess 
the capacity of the State and build up that capacity.
    Governor Bush. I guess the number of employees in FEMA, 
there is 2,500 employees in FEMA. We had 3,700 people that went 
to the aid of people in Louisiana and Mississippi. Because this 
system is not a FEMA system, it is a Federalist system, there 
were people from all over the United States, and still are in 
these regions. And I am not sure that you can grade FEMA as an 
agency by itself based on the emergency system that we have in 
place.
    Governor Perry. And I think the very key phrase that you 
used was that his State was prepared. And I think that is a 
very important aspect of this debate that we are having is 
there are some States that are very well prepared. There are 
some that aren't.
    Mrs. Christensen. And FEMA should come in and build up the 
level of preparedness and the coordination of it.
    Governor Perry. You have obviously had some good 
experiences with FEMA with the hurricanes that you have. As you 
said, that wasn't the FEMA that you recognized. So I think the 
analysis of Katrina may be as much with the local level as it 
is with how do you make FEMA better. And the fact of the matter 
is if the Federal Government is perfect in its activation and 
its efforts, and the local is less than adequate, then you are 
going to have some problems.
    Chairman King. The gentlelady's time has expired.
    There are about 6 minutes left in the vote, so I recognize 
the gentleman from New Mexico for 2 minutes.
    Mr. Pearce. Thank you, Mr. Chairman.
    Again, those yes or no answers, Mr. Pascrell.
    Governor Napolitano, you said that the border security is 
your real emergency, and that the national and the Federal 
Government is not doing enough. Are there any immigration 
enforcement-free zones either in Arizona or any locality in 
Arizona?
    Governor Napolitano. Any what?
    Mr. Pearce. Enforcement-free zones; that is, free spaces 
where immigrants can come without having any fears of having 
Federal--
    Governor Napolitano. The answer is no. And, in fact, I 
signed legislation this year including--
    Mr. Pearce. Thank you. This is just a yes or no question.
    Governor Napolitano, you said that you would be greatly 
inconvenienced by the cuts that--in answer to Ms. Sanchez's 
question. Are you aware that Arizona, according to the DHS 
spending report, has, fiscal year 2002, $28 thousand unspent; 
fiscal year 2003, $16 million unspent; fiscal year 2004, $47 
million; and fiscal year 2005, $40 million unspent, $131 
million total unspent dollars nationwide? It was the same with 
all States, about $3 billion unspent. So we did go in and we 
cut the budget, but it is hard to see where you would be 
inconvenienced
    Governor Napolitano. May I respond, please? Those monies 
have been allocated.
    Mr. Pearce. Ma'am, I have got 2 minutes. You are either 
aware of it or you or not. Yes or no?
    Governor Napolitano. You either want the information or you 
don't want the information. Everything has been allocated.
    Mr. Pearce. It has been allocated, but if it is like my 
State, we continually go things have been allocated back in 
2002, but the checks never been written to the first 
responders. Thank you.
    Again, in the last of my 2 minutes, Mr. Chairman, looking 
at the national preparedness goal and national preparedness 
guidance, are you all aware that the Federal homeland security 
grants are going to be contingent on complying with those goals 
starting next year? Yes or no?
    Governor Bush. Am I aware of that?
    Mr. Pearce. Yes. Federal national preparedness goal. Are 
you aware that your Federal homeland security grants are going 
to be contingent on you all being in compliance with that?
    Governor Bush. I am now.
    Mr. Pearce. Okay. Thank you, Mr. Chairman
    Chairman King. The gentleman's time has expired.
    The gentleman from North Carolina for 1-1/2 to 2 minutes, 
if you can try to wrap it up.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Let me thank each one of you for being here this morning. 
And, Governor Bush, in your written testimony you talk about 
the need for the Department of Homeland Security to consolidate 
preparedness response recovery mitigation in the one shop. I 
agree. I hope the Secretary is listening to that and he reads 
your testimony.
    We had Floyd in our State. I would share with each one of 
you as we talk about--I don't want to get into what happened 
with Katrina and others other than to say when a State is 
overwhelmed, and we were in North Carolina, the military and 
others moved in. They were there and helped. We can prepare for 
hurricanes. As you well know, North Carolina has had a lot. But 
when you get overwhelmed, you need the Federal Government to be 
there as a partner, and then you move very quickly and respond 
immediately. And I won't go there other than to say that.
    But let me ask you a question to answer as has just been 
followed up. What can FEMA and DHS do to enhance your States' 
ability to respond quickly to a natural disaster or terrorist 
attacks? You know, currently a lot of our funds are focused on 
terrorism, but for many of you and our State, natural disasters 
may be greater than the terrorist attack. But for the 
individual at the end of the line, the first responder, it 
doesn't matter which one comes. You have the same problem.
    Chairman King. Could you answer it within 15 seconds?
    Governor Napolitano. They can help with training, 
preparation and equipment.
    Mr. Etheridge. Resources.
    Governor Bush. And I think Governor Perry is correct that 
it is legitimate for you all to hold us accountable for how our 
homeland security dollars are being spent. You can spend this 
money in a way that does allow you to prepare for natural 
disasters at the same time that you are training and preparing 
for the defense of the homeland.
    Governor Perry. Yes, sir.
    Let me just say it has been a real honor to be with you, 
Mr. Chairman.
    Chairman King. Again, I will overlook the fact that in our 
prior meeting you did make some deprecating remarks about the 
Notre Dame-Southern Cal game. Mr. Lungren was very upset over 
that. But we will overlook that.
    Mr. Meek. Mr. Chairman,
    Chairman King. Mr. Meek.
    Mr. Meek. Yes. I would just like 1 minute, if you can give 
it to me.
    Chairman King. You can get 1 minute with no time for 
answers. Just total 1 minute.
    Mr. Meek. Thank you very much. I appreciate it.
    Thank you all for being here today. I just basically have 
one question for you. A lot of you, I have heard your 
testimony, I have actually read your testimony about the 
importance of lessons learned so that we can all do better in 
the future. As it relates to Katrina and Rita, Governor, I know 
that you had a lot with traffic and a lot of things, but I look 
at this as being a member of the Homeland Security Committee as 
something that we really need to know more about, because it 
could be a terrorist attack and we need to evacuate a U.S. 
city, so we need to review this. And this book, this 9/11 
Commission report, has helped to improve security here in 
America. We are asking for the same thing as it relates to an 
independent commission looking into Hurricane Katrina and Rita.
    I wanted to ask you all, do you believe that we need an 
independent commission of--a bipartisan, independent commission 
that is away from this Congress that can do the work to be able 
to find the success and failures in the recovery of Katrina at 
this particular time?
    Governor Perry. I can save you a little money, and we will 
tell you everything that we did with Katrina and with Rita and 
no charge.
    Mr. Meek. Governor Bush.
    Governor Bush. I think Congress is more than capable of 
exercising its responsibilities in terms of an oversight over 
how to improve.
    Governor Napolitano. I most respectfully disagree. I think 
the national public would have more credibility if there were 
an independent commission created as it was for 9/11.
    Mr. Meek. Thank you. Thank you, Governors.
    Thank you, Mr. Chairman.
    Chairman King. Thank the Governors for their testimony.
    The committee stands in recess subject to the call of the 
Chair.
    [Whereupon, at 12:17 p.m., the committee recessed, subject 
to the call of the Chair.]
    Chairman King. The subcommittee will come to order.
    First of all, let me thank the witnesses for staying 
around. We had a very unfortunate situation with the votes 
today, and then Secretary Rice is speaking to Members of 
Congress, which is also cutting into the turnout here at the 
hearing. So I really want to thank you for being here, for 
staying with us.
    You certainly have valuable testimony to give. We look 
forward to it, and I have discussed this with Congresswoman 
Christensen. Congressman Poe has asked to introduce the guests 
today. He is not a member of the committee, so I ask unanimous 
consent that he be allowed to sit on the dais and conduct the 
introductions. Without objection.
    So ordered, Congressman Poe.
    Mr. Poe. Thank you, Mr. Chairman. I appreciate you having 
this important hearing on appropriate roles of local State and 
Federal officials when it comes to disaster management and the 
response.
    As all of you know, Texas was recently hard hit by 
Hurricane Rita and this committee is indeed fortunate to hear 
from local officials in Texas, who just recently served on the 
front lines of that disaster. County Judge Robert Eckels, who 
was going to testify, has been asked to be over at the White 
House, so he will not be here this afternoon to testify. But 
his testimony is in the record.
    [The statement of Mr. Eckels follows:]

              Prepared Statement of Hon. Robert A. Eckels

    Mr. Chairman and members of the Committee, I am Robert Eckels, and 
I serve as the County Judge of Harris County, Texas. To clarify my 
role, a County Judge in Texas is the presiding officer of the 
Commissioners Court, the governing body of the county. I represent all 
the citizens of the third most populous county in the United States.
    Harris County is 1,756 square miles in area and home to 3.6 million 
residents, making it more populous than 23 states. There are 34 
municipalities within the county, including the City of Houston, the 
fourth largest city in the country. More than 1.2 million people live 
in unincorporated Harris County and rely on the county to be the 
primary provider of basic government services.
    As County Judge, I am charged by statute with the responsibility 
for emergency management planning and operations for Harris County. 
Most departments within Harris County have emergency functions in 
addition to their normal duties and play key roles in our emergency 
operations strategy. All departments work together to coordinate 
services and prepare for an emergency or disaster.
    I want to thank the Committee for inviting me to testify on 
Federalism and Disaster Response. Because of my involvement in 
emergency management, I have had numerous opportunities to consider the 
best alternatives and I will try to make a case for the National 
Response Plan (NRP) because I believe it is the best way to respond in 
Harris County and in our region to catastrophic events.
    I also believe that there are situations that would call for a 
Federal response, such as military intervention, but only when 
circumstances prevent implementation of the NRP. I expect the more 
serious incidents to seriously strain our resources and capabilities 
and it would only be when we are overwhelmed to the point of failure 
that I could see asking for a Federal response to take over. Other than 
extreme situations, I believe that the best method of handling response 
is at the local level where we have first responders who are closest to 
the incident not only in proximity but in their training. No one knows 
Harris County better than those who live and work in Harris County.
    As we seek to make our communities more prepared for any kind of 
disaster and resilient to those disasters, it is clear that all 
government functions are interrelated. A healthy and robust community 
is better prepared for emergencies. I believe that local governments 
which work well together and work well with the state and federal 
governments in day-to-day operations, will work well together in times 
of stress. A number of issues stand out as we look at Hurricane Katrina 
and Hurricane Rita and there were a number of lessons learned as we 
responded quite differently to these two Incidents of National 
Significance.

Hurricane Katrina Response
    Harris County played a major role along with the State of Texas 
and, in fact, nearly every other state in the nation to address the 
short-term effects of the devastation of Katrina. Harris County 
provided shelter and comfort to Hurricane Katrina victims in what 
became the largest mass evacuation in US History at that a time. It is 
estimated that more than 373,000 evacuees came to Texas and more than 
150,000 came to Harris County alone. Our response was an unprecedented 
coalition of the Harris County government as well as the City of 
Houston, the State of Texas, the Federal government, the private 
sector, non-profit organizations, and citizen volunteers. The mission 
of the coalition was to provide temporary shelter, social services and 
relocation options for the citizens displaced by Hurricane Katrina. In 
less than a day a city was created which, at its peak, offered more 
than 27,000 people shelter, health care, child care, mental health 
services, housing assistance, travel vouchers, employment services, and 
much more. The population eventually became so large at the Reliant 
Park Complex that the US Postal Service assigned the complex its own 
zip code.
    Harris County and the greater Houston area is a caring community. 
We welcomed our neighbors in need when they had no where else to turn. 
Harris County through its Reliant Astrodome shelter and later 
expansions to our related venues absorbed the sudden shock of the 
exodus from Louisiana for a few days and gave the rest of the nation 
time to respond by creating more shelters.
    We had a plan and we executed the plan. It was not a plan for the 
Dome, but a plan for action. We learned as we went along, but the 
structure was sound and the people knew their roles and 
responsibilities.
    We dealt with problems and forces beyond our control and kept a 
giving spirit. I believe that the Katrina victims were a blessing to 
our city and that we are stronger today for our service to our 
neighbors.

Hurricane Katrina Houston Response Unified Command
    As we watched Hurricane Katrina intensify in the Gulf of Mexico 
after passing over Florida and approach New Orleans, it became clear 
that the threat was serious and growing. On Sunday, August 28, 2005, I 
visited with Jack Colley, the State Coordinator of Governor Rick 
Perry's Division of Emergency Management (GDEM). He asked if the 
Reliant Astrodome was capable of housing potentially as many as 2,000 
evacuees, should the need arise. I assured him that we would do 
whatever necessary to make our facilities available.
    When the levees breached on August 30 and New Orleans began to 
flood, it forced the evacuation of the Superdome, where residents had 
gone for initial sheltering. I received a call at 3:00 a.m. on 
Wednesday, August 31, from Jack Colley asking me to implement our plan 
to open the Reliant Astrodome to evacuees who would be coming to us 
from the Superdome that night. The number of evacuees he expected grew 
to 23,750.
    At approximately 6:00 a.m. on August 31, 2005 we began to organize 
the Hurricane Katrina Houston Response Unified Command under the Harris 
County Emergency Management Basic Plan and the National Response Plan. 
We created a relatively flat unified incident command center in 
accordance with the National Incident Management System (NIMS) at the 
Reliant Park Complex composed of the Federal government, the State of 
Texas, Harris County, the City of Houston, and non-governmental 
organizations. The Reliant Park Complex which includes the Reliant 
Astrodome, the Reliant Arena, and the Reliant Center is managed by SMG 
Management. Other non-governmental organizations include Aramark Food 
Services, which provided all food services in the Reliant Park Complex; 
Contemporary Services Corporation (CSC), which provided security; the 
Red Cross which provided shelter operations; and numerous other 
charitable organizations.
    We also recognized that with such a large number of evacuees, we 
would need to have a strong and unified communication to those housed 
in our facilities, to those evacuees in other shelters and motel and 
hotels in Harris County and in other parts of Texas and other states, 
to our volunteers, to our citizens, and to the news media covering the 
event. The Joint Information Center (JIC) was established in the 
Reliant Astrodome headed by a Public Information Officer who was 
responsible for unified coordinated communications, both internally to 
the unified command and externally. We established an extensive 
telephone system and created an Internet Web page at www.hcjic.org that 
contained situation reports, press releases, media alerts, and other 
critical command announcements. We had frequent press conferences each 
day and media updates to keep the public informed about developments 
and to share information.
    Another element of the JIC that gave us greater communication 
opportunities was the interoperable communication system that we have 
been developing in Harris and surrounding counties over the past 8 to 
10 years. With a price tag in excess of $250 million, neither Harris 
County, nor most counties around the country, are capable of purchasing 
such a system as a replacement for existing systems. What we have done 
is to develop our communication system in stages to give us the ability 
to communicate across jurisdictional and disciplinary lines. We are 
currently working to expand our system geographically and to have more 
mobile communication devices and lap top computers/personal data 
assistants (PDA) with text and file transfer capabilities in the hands 
of our first responders. Our objective is to have streaming video 
capability so that first responders can send live video from the field 
back to incident command and better tactical decision-making can be 
done with real time information. With our system in the Reliant Park 
Complex we were able to respond to developing situations and bring in 
the correct professional and voluntary assistance to resolve problems 
as quickly as possible.
    It is very important for Congress to continue to fund state and 
local government efforts to evolve or transform existing system 
capabilities to achieve interoperability. I know that in our situation 
we can't afford the downtime required to learn how to operate a new 
system, so we have chosen to make improvements in manageable bites that 
enhance rather than disrupt our capabilities. Congress and the federal 
agencies should create rules that set minimum standards but allow local 
government the flexibility to work within their means to achieve those 
standards.
    On September 20, 2005, at approximately 7:00 p.m. we announced that 
our mission had been completed and our unified command at the Reliant 
Park Complex was standing down after 21 days of around-the-clock 
operation. Lt. Joe Leonard of the US Coast Guard, who led the 
operation, said, ``Our success is directly attributable to the strong 
personal relationships developed long before the Hurricane in 
Louisiana.''
    Many members of the Hurricane Katrina Houston Response Unified 
Command staff first worked as a team during the Tropical Storm Allison 
disaster that hit our community in June 2001. We learned a lot from 
responding to this disaster and then rebuilding our own community. We 
also developed those relationships over time by developing a 
coordinated emergency preparedness and response plan and then having 
serious and frequent training exercises to enable us to work the plan 
when incidents occur. These relationships were absolutely critical to 
the success of our mission.
    Developing and working a plan requires complete communication, 
coordination, cooperation, and even friendships between emergency 
managers and professionals at all levels of government.
    I urge Congress to continue to provide adequate funding to assist 
the funding provided by state and local governments as well as to 
provide incentives for thorough training and exercises for further 
improvements to the NRP. Lee Trevino, the great golfer, said it best, 
``The more you practice the luckier you get.''
    Based upon the risks facing a community, preparedness is ultimately 
defined differently in different areas of the country. Local leaders 
must determine the level of faith that their constituency have in their 
emergency response plan and improve it until citizens will follow the 
plan with the highest degree of confidence when an emergency arises.
    The current model of the NRP with uniform standards for training, 
equipment, and procedures among state and local governments can 
continue to work well. As more counties and municipalities operate 
under that plan and our capabilities increase over jurisdictional 
lines, first responders from Harris County could go to Florida or 
California or any other area of the country or first responder could 
come help us if we need it. The more interoperable our equipment is and 
the more common training we have the better our capability will be to 
respond under the NRP.
    We began housing evacuees in the Reliant Astrodome. It became 
apparent as the population grew that we could not safely house all of 
the evacuees that we expected in the Astrodome. The City of Houston's 
fire marshal ordered us to cap the evacuee population in the Astrodome 
at 8,000. Houston's mayor overrode his fire marshal and authorized up 
to 12,000 evacuees. Eventually the population inside the Astrodome 
would reach 17,500. As additional evacuees came in we included the 
Reliant Arena that housed 4,500 evacuees, while 2,300 were housed in 
the Reliant Center. The City of Houston opened the George R. Brown 
Convention Center downtown in order to handle 2,800 more.
    Evacuees received hot meals and plenty of liquids and were able to 
sleep on cots with blankets and pillows. They were given comfort 
packages that included basic toiletry needs and, importantly, they were 
able to take a hot shower for the first time in several days. They were 
comforted by volunteers and were able for the first time to begin to 
have a feeling that they were finally in a secure location.
    Not everything went as smoothly as I would have liked, but we were 
able to quickly adapt. Emergency planning coordinators in our Homeland 
Security & Emergency Management division had to learn on the fly what 
worked and what didn't work. Our plan was evolving continuously. Our 
Unified Command and the Joint Information Center allowed us to reach 
decisions more easily and to communicate changes and adaptations more 
quickly. We arranged communications between evacuees not only within 
our compound, but also in the various centers around the country to 
expedite reunification of families. We accomplished this by 
establishing television viewing areas, telephone service areas, and 
Internet service areas. We also worked with airlines and bus companies 
to arrange tickets for travel to help families reunite.
    Because the county is the landlord of the Reliant Park Complex and 
we have an ongoing relationship with SMG Management who manages the 
complex, we were able to get the lights and air conditioning turned on 
immediately so we could began operations. The management team, with 
security assistance provided by CSC, was able to prepare various 
buildings within the complex and secure sensitive areas. Aramark, who 
already had the concession contract for the complex to provide food 
service, hired an additional 800 food service professionals in order to 
prepare meals to feed the masses when they arrived. We began food 
service on September 1 and continued until the mission was completed, 
having served some 450,000 meals.

Other County Departments Response to the Katrina Disaster
    This was truly an all county effort, and most of our county 
departments participated in the relief operation by assisting evacuees 
directly or supporting those that did. We are still assessing the 
expenses that were incurred and will know the extent of the 
reimbursement we will be seeking, but our estimates total more than $1 
million for these departments in just the first two weeks of the 
operation.
        <bullet> Children's Assessment Center--This agency supported 
        the mental health needs of children at the Reliant Complex. 
        Expenses include salaries, contract therapists and supplies.
        <bullet> Commissioners Precincts--Commissioner Pct .1, El 
        Franco Lee; Commissioner Pct. 2, Sylvia Garcia; Commissioner 
        Pct. 3, Steve Radack; and Commissioner Pct. 4, Jerry Eversole 
        provided buses for various purposes including medical transport 
        and taking individuals from shelters to other temporary 
        housing. Pct. 1 supported various community-based shelter 
        operations and also opened and operates two temporary shelters 
        for evacuees having their own transportation.
        <bullet> Constables--All Constable Precincts provided security 
        and related services for shelter operations that were not at 
        the Reliant Park Complex.
        <bullet> County Attorney, Mike Stafford--Advised various 
        agencies and officials on legal matters related to the 
        operation.
        <bullet> County Library--The library system made computers 
        available primarily for Internet access for evacuees seeking 
        assistance and locating lost relatives. The library also 
        provided library services to evacuees at the Reliant Center.
        <bullet> District Clerk, Charles Bacarisse--Assisted child 
        support activities for evacuees by helping them get child 
        support payments forwarded to the right location.
        <bullet> Domestic Relations--The Family Court Services Division 
        has provided mental health assistance at the Reliant complex in 
        partnership with Youth and Family Services.
        <bullet> Fire and Emergency Service--Provided fire protection 
        services and fire prevention advice related to shelter 
        operations. The Harris County Fire Marshal's office was part of 
        the operation command staff.
        <bullet> Hospital District--Our medical teams administered 
        10,000 tetanus shots and other inoculations as well as filling 
        more than 15,000 prescriptions. The 2,700 volunteer doctors and 
        other medical professionals examined some 15,000 patients in 
        the Reliant Park Complex and another 10,000 at the George R. 
        Brown Convention Center.
        <bullet> Housing and Community Development--Provided food, 
        temporary shelter and related services to evacuees.
        <bullet> Information Technology Center--Provided support for 
        computer and communications for shelter operations.
        <bullet> Juvenile Probation--95 staff members provided services 
        for juveniles in the shelter effort
        <bullet> Medical Examiner--Provided services related to 
        deceased evacuees.
        <bullet> Office of Homeland Security and Emergency Management--
        Initially established operations and continued support service 
        for incident command.
        <bullet> Protective Services for Children and Adults--Thirty of 
        our clinical staff provided mental health and other social 
        services at the Reliant Park Complex.
        <bullet> Public Health and Environmental Services--The 
        Executive Director of HCPHES coordinated all medical operations 
        conducted at the Reliant Park Complex. An additional 500 HCPHES 
        staff performed approximately 15,000 Katrina-related hours of 
        service for many critical duties at the Reliant Park Complex 
        around the clock.
        <bullet> Sheriff, Tommy Thomas--Coordinated security and 
        provided law enforcement protection for the Reliant Park 
        Complex.
        <bullet> Social Services--Provided transportation to and from 
        the shelters at the Reliant Park Complex to the Harris County 
        Housing Authority at Lantern Point for voucher applicants and 
        then transported applicants to housing developments around the 
        county.
        <bullet> Tax Assessor Collector, Paul Bettencourt--Provided 
        personnel to the emergency management center, the County 
        Judge's office, the joint information center and other 
        operations so service levels could be maintained.
        <bullet> Youth and Family Services Division--was a first 
        responder to the social and emotional needs of Katrina victims 
        evacuated to the Reliant Park Complex.

    The Role of the Harris County Citizen Corps
    After the September 11 terrorist attack, President Bush called upon 
all Americans to dedicate at least two years of their lives--the 
equivalent of 4,000 hours--in service to others. He launched the USA 
Freedom Corps initiative to inspire and enable all Americans to find 
ways to serve their community and country. The Citizen Corps is a 
component of the Freedom Corps. In August 2002, I launched the Harris 
County Citizen Corps to create opportunities for individuals to 
volunteer to help their neighborhoods prepare for and respond to 
emergencies by bringing together local leaders, citizen volunteers, and 
the network of first responder organizations, such as fire and police 
departments. I believe the Citizen Corps is an integral part of our 
participation in the NRP and it allows us to respond to our own needs 
much quicker than could ever be possible under a Federal response.
    The Community Emergency Response Team (CERT) Program is a subset of 
the Citizen Corps. This program educates people about disaster 
preparedness and trains them in basic disaster response skills such as 
fire safety, light search and rescue, and disaster medical operations. 
Using their training, CERT members can assist others in their 
neighborhood or workplace following an event and can take a more active 
role in preparing their community.
    The program is administered by the US Department of Homeland 
Security as part of the National Response Plan for community 
preparedness. It was the Citizen Corps with some 7,000 volunteers, 
including more than 1,200 CERT members, that made our relief efforts 
possible. Our volunteers came from all walks of life and disciplinary 
backgrounds. They were organized, trained, and had already volunteered 
collectively more than 200,000 hours of community service.
    We realized that we were going to need at least as many, if not 
more, volunteers than the number of evacuees we were going to shelter. 
Estimates were enormous not only for Harris County but for the entire 
State of Texas. When the initial e-mail was sent out to the Citizen 
Corps seeking volunteers at about 9:00 a.m. on August 31, we were 
overjoyed when we had 1,000 volunteers in the first hour and more 
coming in continuously.
    I can assure you that without these volunteers and tens of 
thousands more who came forward through the organization of Citizens 
Corps, we could not have responded to the disaster as we did. 
Volunteers were organized into teams, and the newly recruited 
volunteers were given orientation upon arrival and then assignments in 
all areas of service to the evacuees. I am particularly proud to report 
that our citizens in Harris County acted with courage, compassion, and 
unity. We had more than 60,000 volunteers come forward, and they were 
absolutely essential to the success of this operation.
    I have spoken to many volunteers who said that they experienced 
something during this operation that brought personal rewards far 
beyond their expectations. They accomplished the near impossible with 
kindness and compassion in a situation unparalleled in anyone's 
experience. In the future I envision taking our Citizen Corps and CERT 
members to the next level by organizing them within many more 
neighborhoods so they are capable of being truly the first responders 
to an incident, while they await the arrival of professional first 
responders. In the role of neighbor helping neighbor, our CERT members 
and Citizen Corps volunteers will be able to communicate with incident 
command regarding situation reports on the ground and be prepared to 
assist neighbors who need help. I can see the Citizen Corps volunteers 
being able to assess the capabilities and needs of their neighbors in 
the event of a needed evacuation and being able to communicate those 
needs to the incident command to expedite evacuations more smoothly. A 
network like this could also provide a head-count and location of those 
who refuse to evacuate.
    I urge Congress to continue to provide the funding necessary to 
help us further develop our Citizen Corps, to develop Citizen Corps in 
more communities around the country, and to provide the funding for 
training of CERT members. Training and organization will be the key to 
our success. I would like to invite each of you to come to Harris 
County to see first hand how our Citizen Corps operates and to see 
where we are in our development and where we plan to be.

The Role of the Faith Based Community
    Organized through Houston's Second Baptist Church (www.second.org) 
and its pastor, Dr. Ed Young, an interfaith ministry made up of a dozen 
denominations came together for Operation Compassion. Collectively they 
organized and provided Red Cross training for 43,500 additional 
volunteers. Of these, 17,300 volunteers served 109,613 meals in the 
George R. Brown Convention Center to the evacuees there. They also 
produced nearly 90,000 personal hygiene kits.
    Another organization, Interfaith Ministries of Greater Houston, 
(www.imgh.org) has organized a program called Neighbors 2 Neighbors 
(www.neighbors2neighbors.org), where volunteers are matched with 
evacuees who have found housing. Most of these people have no 
transportation, don't know their neighborhoods or the city, and don't 
know how to get their services started. The objective is to help them 
adjust to life in Harris County and their new surroundings.
    The Houston Area Pastors Council, Catholic Charities, and many 
other faith based organizations provided countless hours of service and 
opened their homes and places of worship to evacuees. This outpouring 
of volunteerism made it possible to serve evacuees at the Convention 
Center and to make them more comfortable as they worked through the 
process of seeking more permanent housing. This kind of community 
service through volunteerism is possible under the NRP and would be 
difficult to adequately coordinate without a coordinated local 
response. It may be too difficult to coordinate the level of 
volunteerism we realized in Harris County under a Federal response.

Corporate Community Giving
    Many Houston area corporations, from Fortune 500 to smaller 
regional companies, stepped into the forefront to support the Katrina 
relief effort. CenterPoint Energy provided IT support for the GRB 
Shelter operations, built showers for the George R. Brown Shelter, and 
helped start the transitional housing Task Force. Jim MacIngvale of 
Gallery Furniture provided the ``Town Center'' with recreational 
facilities from the YMCA for the Reliant Park shelters as well as 
thousands of cans of baby formula and other support. Tilman J. Fertitta 
of Landry's Restaurants loaned helicopter support to supplement Houston 
Police Department aerial surveys. Continental Airlines offered air 
transport to reunite families. John Nau and Silver Eagle Distributing 
Co. provided thousands of cans of water for Katrina evacuees in Houston 
and in the Louisiana, Mississippi, and Alabama disaster zone.
    Maintaining support for a response infrastructure is difficult for 
local and state governments. For future events, the corporate community 
has business continuation plans and resources beyond those of local 
governments. Emergency preparedness is a high priority for the Houston 
area today, but that commitment could fall through the cracks as 
political leadership and priorities change. A ``virtual organization'' 
with a sustainable response capability could be built around the 
corporate community in Harris County and the greater Houston region. 
Future plans should include these community resources. Congress should 
look for ways to encourage corporate support for community 
preparedness.

Charitable Giving
    In addition to providing volunteers, faith based organizations, 
corporations and individuals contributed more than $7 million to help 
Katrina victims. Those contributions made it possible to provide 
comfort to he victims and help them begin the long road of recovery. 
Houstonians and residents of Harris County brought, literally, 
mountains of clothes to help victims and brought toys and books for 
children. When volunteers got to know the victims better, they would 
bring some of their favorite things like cookies and other favorite 
dishes.
    Volunteers worked endless hours to help victims find family members 
and get information on the Red Cross and FEMA Debit Cards and other 
benefits. It was the volunteers and those who made contributions to 
Katrina victims who defined the character of our community, and I am 
overwhelmed with our spirit of caring and giving.
    City of Houston Mayor Bill White and I have established the Houston 
Katrina Relief Fund (www.houstonkatrinarelief.org) that will raise 
money to help evacuees and to transition them from shelters into the 
community.

Lessons Learned--Ways to Improve the National Response Plan

Pay for Regular Time for Reassigned Employees
    There are two strong disincentives for communities to accept 
evacuees that should be addressed and rectified. The typical disaster 
declaration will pay only for overtime for qualified first responders 
and other professionals. This is because the community where the 
disaster is declared would have normally paid the regular time of these 
workers and the overtime is extraordinary time caused by the disaster. 
In accommodating evacuees from another community our citizens had to 
forego the services of these qualified workers and yet pay for those 
services even though they were reassigned to serve the evacuee 
population.
    The Executive Director of the HCPHES demonstrated quite well what 
this means to our constituents. In a press release dated September 5, 
2005 she informed the public that there would be delays in service 
while she and another 500 HCPHES professional staff members provided 
public health services to the evacuees at the Reliant Park Complex. She 
also advised the public that there would be a temporarily reduced staff 
at each of our five health clinics and that she anticipated there would 
be an increased number of individuals accessing the WIC program. She 
warned that residents who utilize our public health services may 
experience a longer than normal ``wait-time'' while staff responded to 
this relief effort, and she asked for patience while this inconvenience 
lasted.
    This concern applies not only to our public health workers, but 
also to all of our employees who participated in this operation. They 
were reassigned from normal duties, and those duties went unfulfilled, 
yet we still have to pay for that regular time. For example, the Harris 
County Sheriff's Office incurred expenses for a little more than $1 
million during the sheltering operation. Of that, about 80% or $800,000 
was regular time that was paid by Harris County taxpayers even though 
these officers were not performing their regularly assigned duties. 
This is blatantly unfair to our citizens and is a serious disincentive 
to local governments to accept a request to host evacuees.
    I urge Congress and FEMA to recognize the need for an exception to 
existing policy and for Congress to provide sufficient funding to pay 
for regular time for reassigned workers. I hope that Congress and the 
Administration will recognize the fact that in this situation, Harris 
County's response to Katrina, we acted more as a contractor for DHS 
under the National Response Plan and as such we should be fully 
compensated for our expenses in providing these services.

Pay for Lost Revenue from Cancelled Programs at Public Facilities
    It is also a strong disincentive for local governments to use their 
convention centers and other public facilities for evacuee shelters, 
because FEMA will not reimburse for lost income. Harris County, the 
City of Houston, and our enterprise funds lost millions of dollars in 
revenue that is needed to meet debt service schedules. Millions of 
dollars will be lost due to canceled events in the Reliant Park Complex 
and the George R. Brown Convention Center. Harris County's convention 
center and sports venues are not supported by property or sales taxes. 
Our reimbursement schedules have been thrown off, and we may face 
penalties and additional interest. I urge Congress and FEMA to 
reimburse this loss of income.

Health Care
    At over $1 billion, Harris County's single largest budget item is 
health care. The Houston region's health care surge capacity is at its 
absolute limits. Louisiana, and to a lesser extent Alabama and 
Mississippi through the Katrina evacuees, as well as Beaumont, Port 
Arthur and east Texas through their Rita evacuees, have sent their most 
medically dependent to Houston. The ability to respond to a disaster 
depends on a robust system--and America does not have a robust health 
care system.
    The reasons are many and the subject of another hearing, but the 
Harris County Hospital District and the health care providers of our 
community were stressed before these disasters with high numbers of 
uninsured patients and uncompensated care. Some short term needs are 
addressed in my written remarks. In the long term, Katrina evacuees 
will continue to stress our overburdened system. A sustainable system 
to deal with long term needs and future disasters will require at least 
a statewide initiative and federal programs that support long term 
solutions.

Critical Infrastructure--
    Critical infrastructure includes locally critical infrastructure, 
such as water, power, transportation and communications and nationally 
strategic infrastructure such as our refining and petrochemical complex 
which represents as much as 15% of the nation's capacity.
    These local and national interests can coincide with each other. 
After Hurricane Rita, Baytown lost power to its water treatment and 
distribution system. It's primary power supply was struck by lightning 
and its backup generator caught fire. This problem was well on its way 
to being solved, but they still had only four more days of water 
supply. It turned out that the pumps for the canal supplying 12 million 
gallons of water each day to Baytown had also lost their power supply 
in the hurricane. Upon further inquiry I learned that this canal 
supplied 80 million gallons a day to the ship channel refining 
industries for industrial processing as well. Without this process 
water, the refineries cannot produce gasoline for Maine, Connecticut, 
Michigan or California. This canal also supplies drinking water to 
Houston and other cities in the Houston area. The nation was faced with 
a possibility of a severe strain on refined petroleum production and 
over 600,000 people were faced with the loss of their primary water 
supply because of a power outage at a single pumping station. The 
problem appears to be resolved and appropriate federal agencies 
including the Departments of Energy, Homeland Security and the Corp of 
Engineers are all engaged. But the incident reinforces the need to 
identify potential single points of failure and build redundancy into 
systems. It also shows why a Member from the east coast should care 
about Houston's requests for funds for security and resiliency in our 
critical infrastructure.

Evacuations and Transportation
    The gridlock in Texas during our evacuation in the face of Rita was 
unacceptable. My wife, Jet and our daughter, Kirby were caught in a 
traffic jam 20 miles long one hundred miles west of our home because a 
subcontractor did not get the memo to cancel a pavement overlay 
project. Precious hours were lost because of poor communications. The 
next day the construction was gone but the traffic jam was worse as 
conflicts as simple as a traffic light in a small town caused traffic 
to back up 100 miles or more.
    The state plan had recently been updated and models showed that we 
could evacuate 1.2 million people from the coastal surge areas of 
Galveston, Brazoria and Harris Counties within 33 hours of a 
hurricane's impact. What we did not anticipate was an additional 1.5 
million people leaving the non-surge areas well in advance of the 
mandatory evacuation order for the coast. By the time we ordered the 
mandatory evacuation, the road system had ceased to function.
    Our medical examiner released a list of 31 people who died during 
the evacuation. Most had underlying medical conditions and it is not 
clear that they died as a result of the evacuation. However, these were 
the very people who most needed to evacuate the area to avoid the same 
result we saw in Louisiana where similar tragedies struck entire 
nursing homes. Any loss of life due to the stress of traffic congestion 
is tragic and our thoughts and prayers are with these families.
    In Texas, the evacuation occurs over long distances. Dallas is 220 
miles from Houston, Austin 170 miles and San Antonio is 200 miles away. 
We will learn from Rita and build a better evacuation plan.
    And just as a robust health care system is necessary to 
successfully deal with a massive influx of patients from areas struck 
by disaster, so is a robust transportation system necessary to handle a 
mass evacuation.
    Louisiana's initial evacuation prior to Hurricane Katrina reaching 
land went relatively smoothly, but less than half of those who needed 
to evacuate actually did. After the levees breached and evacuation 
entered its second phase, the faced similar problems to ours when the 
road capacity was diminished and the car count soared. Some evacuees 
from New Orleans spent 17 hours or more on busses to Houston after 
spending days on their roofs or standing on the side of the road or in 
the Superdome or Convention Center. Many had to stand the whole way and 
were sick from dehydration or exposure.
    Texas and the nation need support for the I-69 corridor, I-35 and 
I-45 running north from our coastal areas. Governor Rick Perry's Trans 
Texas Corridor to finance new highway and rail capacity and our High 
Speed Rail coalition linking the East Coast through Atlanta and New 
Orleans with Beaumont, Houston, Dallas, Austin and San Antonio take on 
a whole new significance when we look at our experiences with Katrina.
    Interstate-10 which crosses our state and goes into New Orleans and 
on to Florida should be a priority corridor as well. These corridors 
are not only important for an evacuation every 10 years, but are 
critical to the economic vitality of the nation. They all serve 
America's 2nd largest port in terms of total tonnage in Houston and 
link America's major economic and population centers. Transportation 
infrastructure is vital to our nation's economic health and critical to 
the success of the National Response Plan as well
    Mr. Chairman and members of the committee, I want to thank you 
again for allowing me to discuss our experiences with the National 
Response Plan. I hope our experience can be helpful to other 
communities if they are called upon to respond to a disaster in this 
way. I hope those communities will benefit from the things that worked 
for us and that they can improve upon those things that did not. I also 
hope that Congress will not leave us out alone on the financial ledge 
and will be responsive when we come back to tell you that we need 
reimbursement for Katrina and Rita related expenses.

    Mr. Poe. The county judge serves in Texas as what we would 
call the ``county mayor'' for Harris County, which is the 
fourth largest county in the United States. It includes 
Houston, Texas.
    We have also with us Sugar Land Mayor Dave Wallace. He and 
Judge Eckels were able to organize and plan the evacuation of 
Harris County and surrounding counties before Hurricane Rita 
hit and helped to bring about the orderly return of residents 
to the city after the hurricane passed. Over 2.5 million people 
evacuated from southeast Texas because of Rita.
    We also have with us one of my constituents, Councilman 
Audwin Samuel. He has been working with the mayor of Beaumont, 
Mayor Goodson, and they, working together, helped to evacuate 
the city of Beaumont. They worked with my office and FEMA and 
DOD to make sure that folks were able to get out of the city 
before Hurricane Rita hit. The city of Beaumont was very 
organized, and the city of Beaumont now has started to let 
residents return to that city.
    So I am glad that both of them are here today. I am glad 
they are able to come here to talk to you about their 
experiences and explain the important role of local government 
in the disaster management's response.
    And thank you, Mr. Chairman.
    Chairman King. Thank you, Judge Poe.
    Let me again, at the outset, thank you for being here. All 
of us as Americans--no matter what part of the country we are 
from, we suffered with you. It is easy to suffer when you are 
thousands of miles away, but believe me, the hearts of America 
were with you.
    And also we are very thrilled, if you will, with the 
response of Texas, both of the government and the people, the 
way you really stood up and did everything that had to be done 
with Hurricane Rita. So I want to thank you for coming here 
today to share with us what you have learned, what you have 
done, and also what you have achieved and what lessons you can 
give us as far as the committee is concerned as we go forward 
and try to resolve this issue of federalism.
    So unless Congresswoman Christensen has any opening 
statement to make, I will ask Mayor Wallace if you would go 
first, and also welcome Mayor Samuel. Mayor Wallace, who again 
is the mayor of Sugar Land, Texas, but also testifying on 
behalf of the United States Conference of Mayors.
    Chairman King. Mayor Wallace.

  STATEMENT OF THE HONORABLE DAVID G. WALLACE, MAYOR, CITY OF 
                       SUGAR LAND, TEXAS

    Mr. Wallace. Thank you, Chairman King. As you indicated, I 
am Dave Wallace. The city of Sugar Land is in the southwest 
portion of the Houston region. The other gentleman testifying 
today is in the eastern portion of the city of Houston.
    And I am providing my comments here today, again, on behalf 
of the U.S. Conference of Mayors as a trustee and then also 
cochair of the Homeland Security Task Force, but also as a 
result of some comments, recent experiences on behalf of with 
Hurricane Katrina and also Hurricane Rita.
    I would like to focus on three particular areas today with 
my testimony. In all of these, I would like to start with the 
backdrop being the lessons learned as a result of Hurricane 
Allison in the Houston region. The entire region, the entire 
State, there were a number of lessons learned, a number of best 
practices that we were able to implement within our area, and 
so I do believe that we had a high level of preparedness.
    The first area I would like to talk about are issues on 
behalf of the U.S. Conference of Mayors, then move into the 
lessons learned with Hurricanes Katrina and Rita and then move 
into what a broad group of cities are working with the Houston-
Galveston Area Council on the creation of some regional 
logistic centers. On behalf of the U.S. Conference of Mayors, 
there are four issues I would like to start out discussing.
    The city of Sugar Land works very closely with the State of 
Texas in the chain of command. We work very closely in the flow 
of funds coming through the State, work quite effectively in 
the State of Texas. However, on behalf of the U.S. Conference 
of Mayors, we continue to talk about enhanced direct funding, 
directly to the cities, because there are a number of cities, a 
number of States where we feel that that flow of funds can be 
improved. So on behalf of the Conference of Mayors we would 
like to find ways to speed that up.
    A second area--and we talked about this earlier this 
morning--has to do with communication. We urge Congress to make 
expansion of the communications spectrum for public safety a 
congressional priority.
    The third area deals with enhanced transportation security. 
The U.S. Conference of Mayors supports advance notification of 
hazardous freight rail. We recognize that the manifest 
information for what is on these trains is very sensitive. We 
don't want to see that manifest get into the hands of 
terrorists.
    At the same time, there are some commercial reasons. But 
nevertheless, Sugar Land is diligently working with Union 
Pacific to develop a pilot program for immediate disaster 
manifest notification. This notification model can be 
duplicated nationwide with the help of Congress and then other 
governors.
    The fourth issue is military involvement in disaster 
response and recovery. And the Federal Government does not 
currently provide 911 related services, and I think the debate 
today is ``Should they?''
    Now, the Federal Government has a tradition of involvement 
in certain disaster relief and hazardous response activities. 
The U.S. EPA, National Forest Service, Army Corps of Engineers, 
Coast Guard are the Federal agencies that more often than not 
coordinate activities with State and local agencies. More 
recently, the Stafford Act has broadened the military's role in 
civil support, and the Insurrection Act allows the President to 
call forth troops during an insurrection or civil disturbance. 
Both of those issues were discussed earlier today.
    There are also events that require immediate military 
intervention and/or prestaging, such as weapons of mass 
destruction or other catastrophes, such as Katrina and Rita, 
where it was anticipated to overwhelm local and State response 
capabilities.
    The military can offer expertise in many areas that support 
disaster relief. Many of these are already included in my 
testimony. But the current legal paradigm is that the military 
is viewed as the resource of last resort deployed to restore 
order.
    Mayors favor a coordinated approach to deploying military 
and State assistance in response and recovery efforts. The role 
of first responders should always be filled by true first 
responders--the police, the fire fighters, the EMTs in our 
communities.
    Rather than confer lead agency status on the military, it 
would be helpful if the process that triggered Federal 
assistance were improved. Some of the lessons learned--I have 
got a number of lessons in my testimony; I am just going to 
cover three. One of them deals with the evacuation plan during 
Hurricane Rita.
    Again, there were a number of things that we have learned 
with Hurricane Allison. Many of those have been implemented. We 
can always continue to improve. And although the evacuation was 
successful and citizens of one of the Nation's largest urban 
areas were moved to safety, there were some clear challenges. 
Many of those are listed in the testimony.
    Emergency plans proved inadequate for a disaster of the 
magnitude of Hurricane Katrina; again, we heard that this 
morning. Despite the noble efforts of FEMA, Red Cross, faith 
communities, so many different organizations, I think many 
people were underprepared for the size and scope.
    And last, the general lessons learned: The mass evacuation 
and sheltering process that resulted from both hurricanes will 
provide a template for revision of plans for weapons of mass 
destruction and other events that may result in mass population 
relocation. Both events require seamless Federal, State and 
local coordination, and regional coordination proved invaluable 
in these incident experiences; and it is the regional approach 
that I would like to close with.
    This deals with the city of Sugar Land and the Houston-
Galveston Area Council that have worked for the last 2 years to 
create a mechanism to enhance local first responder 
capabilities for natural and terrorist disaster. A summary of 
this regional logistic center concept is included in my 
testimony. The idea behind the concept was to establish a 
mechanism that would pool the resources of cities to deal more 
effectively with first responder activities during a major 
catastrophe, in short, a prepositioning of a cache of 
equipment.
    Enhancing local first responder capabilities is necessary 
because the Federal Government cannot be expected to mount a 
substantial emergency response for a period of 72 to 120 hours 
after a natural disaster of the magnitude of Katrina, Rita or a 
weapon of mass destruction. This critical logistic capacity gap 
could be fulfilled by this regional logistic center, developed 
and managed under local authority.
    The House and Senate Homeland Security Appropriations 
Committees recently stated support for the idea in their 
conference committee report that, in part, I would like to 
read. It stated that ``The conferees encourage ODP to review 
the use of logistic centers to consolidate State and local 
assets, provide life cycle management and allow for rapid 
deployment during an incident and allow for the sharing of 
inventories across jurisdiction. We urge Congress to encourage 
the Office of Domestic Preparedness to proceed without delay 
the concept and use of logistic centers. We also urge Congress 
to provide the funding this year for a demonstration program to 
establish and make operable a regional logistics center in the 
United States.''
    Ladies and gentlemen, it is a pleasure to be here. I have 
provided a complete summary of the testimony that I have given 
and I have submitted that for the record. Thank you.
    Chairman King. Thank you Mayor Wallace. Without objection 
your full statement will be made part of the record.
    [The statement of Mr. Wallace follows:]

              Prepared Statement of Hon. David G. Wallace

    Chairman King, Ranking Member Thompson and Committee Members, I 
want to thank you for allowing me to submit written testimony. I am 
David G. Wallace, Mayor of Sugar Land, Texas. Sugar Land is a city of 
71,000 people within our city limits, and a further 45,000 people 
within Sugar Land's Extraterritorial Jurisdiction, situated in the 
southwest portion of the Houston-Galveston area.
    My written comments cover three areas of concern about emergency 
preparedness, response and disaster recovery. These comments originate 
from my recent experience with hurricanes Katrina and Rita and events 
in Sugar Land, as well as from my experience serving as Co-Chairman of 
The U.S. Conference of Mayors Homeland Security Task Force.
    The Conference of Mayors will be holding a special meeting of 
Mayors and local emergency management personnel the week of October 24, 
2005 to share recent disaster response experiences and further refine 
our thoughts on emergency response policy and the federal-state-local 
intergovernmental partnership.
    These written comments delivered this morning will be focused on 
three key areas of disaster event concerns:

        1. Emergency response and management issues and priorities 
        identified by The U.S. Conference of Mayors.
        2. Key ``lessons-learned'' at the local government level from 
        the Katrina and Rita natural disaster events.
        3. What a broad group of cities/counties are doing in 
        conjunction with the Houston-Galveston Area Council (H-GAC) to 
        establish and implement a Regional Logistics Center (RLC) to 
        build local capacity to deal effectively with the immediate 
        needs of a community following natural or terrorist disasters.

EMERGENCY RESPONSE AND MANAGEMENT ISSUES AND PRIORITIES BEING DEVELOPED 
                    BY THE U.S. CONFERENCE OF MAYORS

    The U.S. Conference of Mayors identified a number of first 
responder issues that are critical to local government. Four of the 
most important issues are discussed herein.

    1. First Responder Funding_A Better Distribution System is Needed: 
Since the early days after September 11, 2001, the nation's mayors have 
expressed serious concern with the system for coordinating preparedness 
and response to both acts of terrorism and natural disasters.
    Many mayors have positive working relationships with state and 
federal partners, as I do, but there was a real concern from the 
beginning that a complex, federal distribution system which involved 
various approval levels for first responder resources and training 
would be slow and result in serious delays in funding reaching high-
threat, high-risk population areas.
    Unfortunately, the many surveys our organization conducted proved 
this to be the case. Time and time again, our surveys showed that money 
was not reaching our cities quickly. Federal restrictions and rules 
made it very difficult to spend on what was needed most, such as 
limitations on the use of overtime.
    By raising concern on this issue through the release of our 
studies, we were able to get the support from President Bush and former 
Secretary Ridge to examine why money was ``stuck'' in many states. The 
special Department of Homeland Security task force created to work on 
this effort came up with a number of meaningful recommendations, some 
of which, like a waiver from the Cash Management Act, have been 
implemented for new funding, although not for previously appropriated 
funding.
    But major changes to the current system still have not been 
implemented. I know that this Committee has been very concerned with 
the issue of the first responder funding and has been championing a 
number of changes to the program, including more regionalization of 
efforts. The U.S. Conference of Mayors has continued to support the 
concept of direct funding, and we would like to make the following 
recommendations:
        <bullet> Congress should ensure the restrictions and rules that 
        govern the distribution and use of federal homeland security 
        funds, such as limiting the use of funds for overtime, do not 
        adversely affect the ability of cities and local areas to 
        protect citizens.
        <bullet> Authorizing legislation should ensure that the waiver 
        of the Cash Management Act, that has been approved by Congress 
        for fiscal years 2005 and 2006, is made permanent, and made 
        retroactive for fiscal years prior to 2005
        <bullet> Congress should work with the Conference of Mayors to 
        make other refinements needed to the first responder program

    2. Communications Spectrum for Public Safety: Local government 
continues to identify the limited access to communications spectrum as 
a major impediment to effective first responder interoperability and 
public safety efforts.
        <bullet> We urge Congress to make expansion of the 
        communications spectrum for public safety a Congressional 
        priority
        <bullet> Congress can support local first responders by passing 
        legislation to establish a firm date for the transition of 
        analog broadcast to digital--hopefully by no later than 
        December 31, 2006
        <bullet> This is needed to avoid the dangerous congestion on 
        existing voice channels that we experience today
        <bullet> It is essential to have this public safety access to 
        enable deployment of advanced mobile technologies such as 
        images and video to police and fire fighters in the field

    3. Enhanced Transportation Security: This is an area characterized 
more by neglect than the development of thoughtful policy.
        <bullet> The recently adopted Homeland Security Appropriations 
        bill includes only $150 million to protect a transportation 
        system that generated over 9.6 billion trips in 2004
        <bullet> Similarly, the potential for disaster with commercial 
        rail freight is substantial
                <bullet> Sugar Land joined many Mayors in discussions 
                concerning public safety and rail freight
                <bullet> The U.S. Conference of Mayors supports advance 
                notification for hazardous freight rail. Mayors 
                recognize that there are sensitive issues that need to 
                be addressed, such as concern that terrorists might 
                also mistakenly gain access to such information, and 
                the freight rail carriers are apprehensive about 
                sharing their client's proprietary commercial 
                information. We want to work with Congress and the 
                Administration to address these issues so a system of 
                advance notification can be implemented
        <bullet> Sugar Land is diligently working with the rail 
        companies to develop a Pilot Program for Immediate Disaster/
        Manifest Notification
        <bullet> The process is such that if a derailment occurs in 
        Sugar Land, a single phone call from our EOC/First Responders 
        to the Dispatch Department for Union Pacific in Omaha, Nebraska 
        would trigger an immediate and comprehensive manifest, by rail 
        car number, to all the first responders dealing with the 
        situation
        <bullet> This notification model can be duplicated nation-wide 
        with help from Congress and the Governors

    4. Military Involvement in Disaster Response and Recovery: The 
federal government, and more specifically the Department of Defense and 
the armed forces, does not currently provide 9-1-1 related services, 
but should it? And, should federal authorities be given broader 
authority to be designated the lead agency in disaster response 
activities?
    The federal government has a tradition of involvement in certain 
disaster relief and hazardous response activities. To name a few, for 
example, the US EPA is the lead federal agency for hazardous and toxic 
substance response and clean-up. The National Forest Service has 
traditionally been the agency that addresses catastrophic forest fires. 
The U.S. Army Corps of Engineers often participates in flood control 
activities at the local level. The U.S. Coast Guard has direct 
jurisdiction over disasters in ports and harbors. The federal agencies, 
in some of these circumstances, takes a lead role but more often than 
not, coordinates activities with state and local government agencies.
    The use of military armed forces to support civilian response, 
however, is conditioned by certain legal restrictions that define their 
possible activities. The military is precluded, except under certain 
circumstances, from conducting law enforcement operations in civilian 
setting under the Posse Comitatus Act. Posse Comitatus means ``power of 
the county,'' and is derived from the old west days of the sheriff 
having authority to raise a posse to pursue outlaws.
    More recently, the Stafford Act has broadened the military's role 
in civil support.
    Under the Stafford Act, the military may engage in:
        <bullet> Debris removal and road clearance
        <bullet> Search and rescue (EMS)
        <bullet> Sheltering and feeding
        <bullet> Public information
        <bullet> Providing advice to local government on disaster and 
        health/safety issues
    Under the Stafford Act the military may not engage in:
        <bullet> Traffic control
        <bullet> Security at non-federal facilities
        <bullet> Patrolling civilian neighborhoods except to provide 
        humanitarian relief
    The Stafford Act requires the local government to make an 
assessment and declaration that local resources have been overwhelmed. 
The state must then make an assessment that state resources have been 
overwhelmed. The federal government may then take action and send 
resources. This time consuming process is frequently circumvented and 
informal calls are placed to state and federal agencies to activate 
resources while the declarations are processed.
    The Insurrection Act allows the President to call forth troops 
during an insurrection or civil disturbance. The Department of Defense 
Directive 3025.12, Military Assistance for Civilian Disturbances, 
permits the military to intercede in local events without a 
Presidential Order. The Directive may be invoked if duly constituted 
authorities are unable to control the situation and circumstances 
preclude obtaining a Presidential Order, and the military action will 
prevent human suffering, save lives and/or mitigate great property 
damage.
    There are events of a certain nature that require immediate 
military intervention and/or pre-staging. For example:
        <bullet> The detonation of a nuclear device, such as a suitcase 
        nuclear device, would be expected to render the local and state 
        government incapable of mounting adequate disaster response
        <bullet> Widespread biological attack or disease outbreak would 
        require national command and control measures be implemented
        <bullet> Mega catastrophes such as Katrina and Rita that could 
        be reasonably anticipated to overwhelm local and state response 
        capabilities

    The military can offer expertise in many areas that support 
disaster relief:
        <bullet> Ability to mobilize large numbers of self-sufficient 
        personnel
        <bullet> Advanced logistical operations support
        <bullet> Experience with command and control methodologies just 
        now being implemented at the local level via NIMs
        <bullet> Capability to provide mass feeding, water, shelters 
        and other support to disaster victims
        <bullet> Easily move across political boundaries
        <bullet> Provide specialized equipment and trained personnel to 
        address incidents involving chemical, biological, radiological, 
        nuclear, and explosive (CBRNE) agents
        <bullet> Re-establish critical infrastructure including 
        communications and mass care

    The military does not routinely provide the following response and 
relief efforts:
        <bullet> Urban search and rescue
        <bullet> Firefighting
        <bullet> Civilian law enforcement duties (e.g., patrols, 
        arrest, seizure)
    The military's primary role is the provision of national defense 
and security. There is a natural question that arises--what impact 
would deployment of forces to overseas conflicts have on their 
availability to support disaster response. Furthermore, if local/state 
disaster response plans rely too heavily on the military does their 
mobilization for defense and national security leave local and state 
emergency plans vulnerable? It should be pointed out that terrorist DO 
NOT act at a time and place that is convenient to our national 
security. For example, if our military has resources deployed in 
foreign land fighting a war on terrorism, and a natural disaster occurs 
in the domestic USA that requires a significant deployment of military 
personnel and equipment, one should be prepared for a terrorist to plan 
an attack on assets in a more geographically vulnerable and less 
protected area.
    The current legal paradigm is that the military is viewed as the 
``resource of last resort'' deployed to restore order. Because of the 
sheer magnitude of the hurricane events recently experienced, and 
because acts of terrorism may spring up during or in the wake of such 
natural disasters, it is natural that there is a discussion about the 
military in disaster response.
    Mayors favor a coordinated approach to deploying military and state 
assistance in response and recovery efforts. The role of first 
responder should always be filled by true first responders--the police, 
fire fighters, and EMTs in our communities. Rather than confer lead 
agency status on the military it would be helpful if the processes that 
trigger federal assistance were improved.
    Virtually every municipality has entered into ``mutual aid'' or 
``inter-local'' agreements for first responder activities, debris 
removal, etc. However, as was seen with hurricanes Katrina and Rita, 
such agreements were rendered useless as ALL municipalities in the 
respective target region required full deployment of their personnel 
and assets. What should be explored is the ability of municipalities to 
enter into such ``mutual aid'' agreements with other cities/metro areas 
with geographic dispersion to enable regions to provide ``real time'' 
assistance and aid to the target region.
    Under the leadership of the co-chairman if the Homeland Security 
Task Force of the U.S. Conference of Mayors, Baltimore mayor Martin 
O'Malley is looking to formalize ``inter-metropolitan'' agreements with 
many of our member mayors and their cities. The U.S. Conference of 
Mayors is currently researching the benefits and logistical/legal 
issues surrounding such ``inter-metropolitan'' agreements. 
Nevertheless, a rough draft of the pertinent language of such agreement 
can be found attached hereto in Exhibit ``A.''
    Clearly, the military should always be focused on fighting wars and 
winning peace. And the primary focus of Congress should be to help 
local first responders develop military like logistics capabilities to 
address the immediate needs of both natural and man-made disasters.

KEY ``LESSONS-LEARNED'' AT THE LOCAL GOVERNMENT LEVEL FROM THE KATRINA 
                    AND RITA NATURAL DISASTER EVENTS

    The second area of testimony is derived from first-hand experience 
involving evacuation efforts related to hurricane Rita, and relief 
efforts for hurricane Katrina evacuees in the Houston-Sugar Land area.

    1. Reverse Nine-One-One: Communicating with the Public During 
Hurricane Rita: Reverse nine-one-one is, simply stated, instead of 
citizens calling in to report an emergency, local government sends 
calls out to the citizens. In the case of hurricane Rita, Sugar Land 
arranged to have its contract 9-1-1 auto-dialer service send a taped 
message to its residents to encourage evacuation for those having 
medical or physical disabilities/impairments. This turned out to be not 
only partially effective, but also counterproductive to some extent.
        <bullet> It was determined that the contract ``Reverse 9-1-1'' 
        service provider was also used by numerous cities, counties, 
        etc. in the H-GAC area
        <bullet> The auto-dialer services were inundated by a myriad of 
        city and county agencies sending similar messages
        <bullet> The queue of calls was so long that when Sugar Land 
        placed its 12:00 Noon order for the call, it fell behind over 
        750,000 other ``reverse 9-1-1'' calls, and the ``emergency 
        message'' was not received by our residents until 8:00 to 9:00 
        PM, a full eight to nine hours later
        <bullet> Inasmuch as the weather patterns adjusted materially 
        during such an eight to nine hours period, it is counter-
        productive to have the auto-dialer message sent out after the 
        decision is made to halt the evacuation encouragement, and to 
        suggest residents to shelter-in-place
        <bullet> Now the obvious response to this dilemma is to 
        contract with numerous auto-dialer services to increase the 
        rate of calls per minute.

    2. Limited Evacuation Transportation Service Provider Capacity- 
Hurricane Rita: Many hospitals, nursing homes, hospices and other 
health care institutions housing or treating disabled patients have 
established contracts with emergency evacuation transportation service 
providers. Yet, many of these institutions found themselves waiting for 
services that came late or did not come at all.
        <bullet> When the list of emergency transportation service 
        providers was examined it became clear that the overall list 
        was relatively limited in the immediate region
        <bullet> It also became clear that the service providers had 
        sufficient vehicles and personnel for limited evacuations, yet 
        were ``oversubscribed'' in the case of a major disaster event 
        where several institutions would be affected
        <bullet> The lesson-learned is to educate institutional 
        consumers about contracting arrangements that go beyond the 
        small-scale local evacuation need situations and ensure 
        redundant capabilities
        <bullet> Where institutions are responsible for evacuating 
        clients or patients, they should ask service providers to 
        disclose their other client demands in a large-scale disaster 
        event

    3. Evacuation Plan Lacking in Hurricane Rita: The decision to 
evacuate residents when hurricane Rita was about to hit land in the 
Texas gulf area was made by local governments, who have the 
responsibility for deciding what is best for their jurisdictions, and 
was led by Houston/Harris County. Although the evacuation was 
successful and the citizens of one of the nation's largest urban areas 
were moved to safety, there were some clear challenges.
        <bullet> The regional evacuation plan had not been fully 
        adopted by all affected local jurisdictions.
        <bullet> Police in small towns along the evacuation route were 
        not as coordinated as possible in order to move traffic through 
        their jurisdictions (i.e., a red light in Giddings, TX 
        literally backed-up traffic to Brenham, TX.)
        <bullet> Construction on major highway routes caused immediate 
        traffic problems
        <bullet> There were shortages of food, water and fuel supply on 
        major evacuation routes.
        <bullet> These were all very important lessons learned in Texas 
        from the Hurricane Rita evacuation, and I am confident these 
        lessons will lead to immediate improvements in our ability to 
        evacuate citizens during an emergency.

    4. Media Coverage and Public Perception Exacerbated the Situation: 
Local government often relies on the media to help in emergency 
situations, but in the case of hurricanes Katrina and Rita, the massive 
media coverage ended up confusing the public.
        <bullet> Recent video and print media images of devastation 
        along the Gulf Coast fueled the public's perception of danger, 
        resulting in an urge to flee the region ahead of the storm. 
        This resulted in evacuation of areas in the region that are not 
        normally required to evacuate during a hurricane
        <bullet> The media coverage presented dramatic predictions of 
        widespread destruction resulting from a Category 5 hurricane 
        thereby reinforcing the public's urge to flee
        <bullet> Future calls for evacuation are likely to be met with 
        skepticism and reluctance on the part of the public
        <bullet> The lesson-learned is that local government should re-
        evaluate the regional evacuation plan and continue to develop 
        and improve a coordinated public education plan to ease public 
        concern over the evacuation process

    5. Hurricane Response and Recovery Issues_Hurricane Katrina: The 
state of Texas, in its efforts to provide care and compassion to its 
Gulf Coast Neighbors, offered to accept hurricane Katrina evacuees. 
Because of the emergency, ``life saving'' requirements, state and local 
officials were forced to make many decisions based on out-dated or 
incomplete information from federal partners, including FEMA, as well 
as the Red Cross. With better information, we could have adequately 
assessed the impact a sudden influx of people would have on local 
governments.
        <bullet> Inaccurate or insufficient information lead to 
        adjustments in the normal procurement process, which may result 
        in an inability of municipalities to obtain reimbursement for 
        response, care and recovery expenditures
        <bullet> This may affect local government budgets and 
        liquidity, and could adversely affect the business economics of 
        vendors who came to the aid of the evacuees
        <bullet> If this is not dealt with fairly, and if new policies 
        and procedures are not adopted to reflect such situations, then 
        it may have a chilling affect on municipal mutual aid and 
        disaster response efforts in the future.

    6. Emergency Plans Proved Inadequate for a Disaster of the 
Magnitude of Hurricane Katrina: The events surrounding Katrina 
overwhelmed affected local governments, states and federal response 
agencies.
        <bullet> Notwithstanding the required time frames to mobilize 
        personnel and equipment, FEMA appeared to be under-prepared for 
        an incident of this magnitude
        <bullet> The Red Cross was overwhelmed with requests for 
        shelters and could not staff or operate the number of shelters 
        required in outlying areas
        <bullet> The efforts of good Samaritans (faith communities, 
        service organizations, and other groups) were key to supporting 
        evacuee needs. However, at times the effort was fragmented and 
        lacked coordination
        <bullet> The lesson-learned was that disasters of great 
        magnitude quickly overwhelm affected local governments, states 
        and federal response agencies. Emergency plans and various 
        assumptions contained in those plans must be examined for 
        accuracy, adequacy, and be modified to address disasters of 
        great magnitude.

    7. General Lessons-Learned from the Hurricane Katrina and Rita 
Incidents: The mass evacuation and sheltering process that resulted 
from both hurricanes will provide a template for revision of plans 
needed to address bioterrorism, radiological dispersal devices, 
nuclear, and other events that may result in mass population 
relocation. Both events required seamless federal, state and local 
coordination. Regional coordination proved invaluable in these incident 
experiences. Working with the state, the region should move forward 
with the development and adoption of regional based emergency response 
plans. In fact, the state of Texas has performed such research and has 
previously developed a regional proposed plan for deployment of 
personnel and equipment in twelve pre-selected regions of the state 
(See Exhibit ``B'').

  THE HOUSTON-GALVESTON AREA COUNCIL_REGIONAL LOGISTICS CENTER (RLC) 
  MODEL: BUILDING LOCAL CAPACITY TO DEAL EFFECTIVELY WITH NATURAL AND 
                          TERRORIST DISASTERS

    Sugar Land and the Houston-Galveston Area Council (H-GAC) 
communities have worked for the last two years on developing a 
mechanism to enhance local first responder capabilities for natural and 
terrorist disaster events. The mechanism is referred to as a Regional 
Logistics Center (RLC). The H-GAC communities adopted a resolution in 
2004 (See Exhibit ``C'' for the unanimously H-GAC Board approved 
concept) to support the establishment of an ``all-hazards'' logistics 
center that would service the region in a disaster event. Sugar Land 
and H-GAC convened a local/regional government Summit in October 2004 
to further develop the concept, and it garnered considerable political 
support.
    The idea behind the concept was to establish a mechanism that would 
pool the resources of cities to deal more effectively with first 
responder activities during a major catastrophe. While individual 
communities are adding to their disaster supplies and equipment 
inventories with homeland security federal financial assistance granted 
from Washington through the states, the scattered state of supplies and 
equipment, as well as the lack of military-like logistics support make 
their coordinated application less likely to be efficient and effective 
in the event of a major disaster. The RLC approach remedies that 
shortcoming by pooling some of those emergency response resources 
coupled with professional grade logistics management to a pre-
positioned cache of equipment that is maintained and managed for a 
response ready deployment.
    Enhancing local first responder capabilities is necessary because 
the federal government can not be expected to mount a substantial 
emergency response for a period of 72 to 120 hours after a natural 
disaster of the magnitude of hurricanes Katrina and Rita, or in a WMD 
event where there is no warning. This is called the Critical Logistics 
Capacity Gap'' period. This response Gap manifests itself in the time 
it takes to stage, transport and distribute life support commodities 
from sources outside the region. In the case of man-made terrorism 
events, this Gap extends to time required to assess the type of 
critical and sophisticated equipment needed for the identification, 
suppression and remediation.
    This Critical Logistics Capacity Gap could be fulfilled by Regional 
Logistics Centers developed and managed under local authority. An RLC 
or multiple RLCs would provide the metro region with the first 
responder supplies and equipment necessary to help the general 
population experiencing a major disaster during that critical 72 to 120 
hours until state and federal relief can arrive on the scene to augment 
and replenish the local resources. The RLCs would continue to provide 
support for first responders during the post incident recovery period 
after state and federal aid arrives at the incident scene.
    The House and Senate Homeland Security Appropriations Committees 
recently stated support for the idea in their conference committee 
report. ``The conferees note that there is no real-time exchange of 
information at the regional or interstate levels regarding equipment 
and supplies inventory, readiness, or the compatibility of equipment. 
The conferees encourage ODP to review the use of logistics centers to 
consolidate State and local assets, provide life-cycle management and 
maintenance of equipment, allow for easy identification and rapid 
deployment during an incident, and allow for the sharing of inventories 
across jurisdictions.''
    We urge Congress to encourage the Office for Domestic Preparedness 
in the Homeland Security Department to proceed without delay in 
reviewing the value and use of logistics centers. We also urge Congress 
to provide funding this year for a demonstration program to establish 
and make operable a number of Regional Logistics Centers in the Untied 
States.

                             EXHIBIT ``A''

                          MUTUAL AID AGREEMENT

    WHEREAS, the cities of -------------------- and ------------------
-- (collectively the ``parties'') recognize the value and the potential 
need of assisting each other in the event of some emergency, and each 
city has personnel, equipment, and resources that could assist the 
other in an emergency,
    NOW, THEREFORE, the parties agree as follows this -------- day of 
--------------------------, 2005:
    1. In the event of an emergency as declared by the Mayor of one of 
the cities that is a party to this agreement, and upon the request of 
the Mayor of that city, the Mayor of the other city commits to send 
forthwith and without delay such public safety (fire and police), 
public works, transportation, and other personnel, equipment, and 
resources as may be of assistance to the city confronting an emergency. 
This obligation to provide assistance shall be subject to the right of 
any city sending resources to withhold resources to the extent 
necessary to provide reasonable protection for the safety and 
protection of its citizens.
    2. The city sending personnel, equipment, and resources to respond 
to an emergency in the other city agrees to bear the cost of its action 
pending the execution of any necessary contracts or other documents to 
seek reimbursement from any agency of the federal or state governments, 
including, without limitation, the Federal Emergency Management 
Administration, or any similar or counterpart state emergency 
management agency. The parties shall work together closely and 
cooperatively to obtain any federal or state reimbursement that may be 
available. In the event that reimbursement for some or all provided 
services is unavailable, the city sending personnel, equipment, and 
resources shall be entitled to request reimbursement from the other 
city and that city shall make a good faith effort to provide in a 
timely fashion reimbursement for all unreimbursed expenses.
    3. All personnel, equipment, and resources made available to a city 
confronting an emergency shall, while in the city confronting an 
emergency, operate under the command, control, and supervision of the 
appropriate responsible officials in the city confronting the 
emergency.
    4. Within 45 (forty-five) days of the parties' execution of this 
mutual aid agreement, each city shall, to the extent necessary, modify 
or amend its respective emergency management plans to reflect the 
obligations set forth in this agreement.

                             EXHIBIT ``B''

    EXCERPT FROM STATE OF TEXAS REGIONAL INCIDENT MANAGEMENT TEAMS 
     PRESENTATION TO THE GOVERNOR DIVISION OF EMERGENCY MANAGEMENT

                         Office of the Governor

Synopsis: Establish Regional Incident Management Teams (IMT's) to 
assist with command and control of large-scale terrorist attacks and/or 
natural/man-made disasters. The IMT's will be comprised of fire, EMS, 
law enforcement, public works and public health professionals from 
multiple jurisdictions. Each team should have a minimum of 42 members 
for triple redundancy for each of the 14 positions.
Summary: Establishing Regional (Type III) Incident Management Teams 
(IMT's) will provide a cadre of highly trained, qualified, and 
experienced incident command officers and staff to support and 
complement the existing jurisdictional command staff during significant 
and long-term incidents. The IMT concept is applicable for managing any 
type of chemical, biological, radiological, nuclear, or explosive 
(CBRNE) terrorist attack. This initiative is based on an ``all-
hazards'' and unified command approach. As an added value, the regional 
IMT's can provide command and control at natural and/or man-made 
disasters such as severe weather events (hurricane, floods, tornados, 
etc.), hazardous materials releases, civil unrest, public health 
emergencies, etc. The IMT concept is a national model and is utilized 
extensively for command and control of large-scale incidents under NIMS 
and Presidential Directive HSPD-5.
    The Regional IMT's will be multi-disciplinary team comprised of 
approximately 42 members from fire, emergency medical services, law 
enforcement, public works and public health professionals from the 
participating regional jurisdictions. This 42 person team allows for 
three deep in each of the 14 critical team positions. Each team member 
will be trained and certified in command and general staff or support 
positions. Regional IMT's can be activated for local response through 
existing mutual aid agreements or by the DPS Disaster District 
Chairman. A full staffed team will entail approximately 14 positions 
(see slide). Individual Team staffing may vary as needed based on 
specific incident requirement.

                             EXHIBIT ``C''

  REGIONAL LOGISTICS CENTER CONCEPT (AS PRESENTED IN SEPTEMBER, 2004)

    The H-GAC region, through the leadership and cooperation of its 
local elected officials and first responder agencies, has made dramatic 
progress in enhancing homeland security preparedness, and the ability 
to respond to other hazards. Additional resources will continue to 
enhance local and regional capabilities. All Texas local jurisdictions 
continue to benefit from the Governor's initiative and focus on 
homeland security, and an all hazards approach.
    These outstanding efforts and capabilities equip the region to meet 
many emergency response challenges. Some challenges, however, are 
inherently beyond the scope of even the best coordinated local efforts. 
Among those could be: a 9/11 magnitude terrorism event, multiple 
category 4 storms such as those that occurred in Florida, a major event 
in a remote location. Events of this type might quickly exhaust local 
resources, not only for specialized response equipment, but even for 
such common items as shovels or gloves.
    Critical supply needs for an unusually large or extreme emergency 
response event can be addressed through an Emergency Preparedness and 
Response Logistics Center, a ready store of equipment available if and 
when local stocks are in danger of being exhausted. Because the timing 
of a major event is unknown, as is the location, a public/private 
partnership could be developed to take advantage of capabilities 
already in existence in the military supply sector, and possibly access 
innovative financing, if necessary.
    Among the types of equipment that could be stocked in quantity at a 
logistics center are:
        <bullet> Specialized detection and metering equipment for 
        radioactive and biological hazards. This equipment is expensive 
        to acquire in quantity and must be calibrated and maintained.
        <bullet> Decontamination equipment and supplies in quantities 
        for hundreds or thousands of persons.
        <bullet> Highly specialized and expensive equipment.
        <bullet> Basic tools and equipment to augment local resources 
        and quickly replace local stocks as exhausted.
    The inventory of the prototype logistics center would be determined 
collaboratively through the efforts of appropriate officials of the 
Department of Homeland Security, State of Texas, local first responders 
and emergency managers. A process would be developed to allow agencies 
to quickly access logistics center stocks as needed.
    Next Steps
        <bullet> Obtain broad local government support for concept.
        <bullet> Develop support from State of Texas and Department of 
        Homeland Security.
        <bullet> Request designated Federal authorization and 
        appropriations.
        <bullet> Detail local plans and processes.

    Chairman King. And now Mayor Samuel, who is testifying not 
just on behalf of the city of Beaumont, but also on behalf of 
The National League of Cities.
    Mayor Samuel?

  STATEMENT OF HON. AUDWIN M. SAMUEL, MAYOR PRO TEM, CITY OF 
                        BEAUMONT, TEXAS

    Mr. Samuel. Thank you, Chairman King, Ranking Member 
Thompson and members of the House Committee on Homeland 
Security for this opportunity to speak to you today.
    I am Audwin Samuel, Councilmember and Mayor Pro Tem of the 
city of Beaumont, Texas. I am pleased to testify on behalf of 
The National League of Cities.
    Our policy at The National League of Cities states that the 
local governments are the first levels of government to respond 
to most disasters and emergencies and must be regarded as the 
focal point of all disaster mitigation and recovery activities. 
Seamless integration with all levels of government is critical 
to prepare, respond and recover from natural or terrorist 
disaster.
    Beaumont, Texas, was exemplary in its planning and response 
to Hurricane Rita because there was a clear understanding of 
who was responsible, who had the authority to direct whom to do 
what. What Beaumont did correctly to evacuate over 300,000 
individuals from our area, without the loss of life, was, we 
had plans under way for at least 4 days before Hurricane Rita 
made landfall. There were regular telephone conferences with 
key decision makers as well as Governor Perry's office at least 
three times per day prior to the storm, during the storm and 
after the storm.
    Our command system went into effect with the county judge 
as the designated command chief. Affected industries were 
provided regular updates. A positive public-private sector 
relationship was critical.
    Entergy, the local utility company, provided necessary 
space for the repositioned command center when the storm veered 
on a more direct path toward Beaumont. They helped to provide 
generators when the Federal bureaucratic red tape frustrated 
our local officials.
    We had to consider the timing, the speed, the strength and 
the path of the storm, the evacuation of the special needs 
populations, the volume of traffic that we expected, and the 
unavailability of inland shelters already filled with evacuees 
from Katrina.
    Despite our careful planning, there were problems with our 
emergency communications systems. Local police, with their 
personal knowledge of our geographic layout of the city and the 
back roads had to be paired with other law enforcement agencies 
to serve as communication conduits to the State and other 
officials.
    Local and State first responders performed search and 
rescue of the community while the Federal officials established 
their staging site at Ford Park, which contained ice trucks, 
generators and other amenities. The city officials were upset 
to learn that the Federal officials at the staging site could 
not release the generators necessary to power up our city or 
the ice trucks to provide to our citizens until Washington 
approved the assessment process. In reply, our county judge 
made an executive decision to expend over $500,000 for 
generators.
    It became clear after the storm, that local authority was 
marginalized by the requirements out of Washington, not our 
regional command system or the Federal officials on the ground.
    Local governments must be prepared to be on their own for 
the first 48 to 72 hours before Federal assistance arrives to 
assist with a catastrophic event. Equally important, we need 
not a national, but a Federal homeland security response to 
catastrophic disasters.
    Here are seven National League of Cities recommendations to 
establish an effective, intergovernmental preparedness and 
response plan:
    One, Federal and State emergency management officials must 
work closely with and directly involve local officials in key 
decisions affecting Homeland Security, disaster preparedness, 
and response;
    Two, there must be adequate funding for local emergency 
preparedness, disaster planning, technical and regional 
training to allow the cities to tailor planning to the special 
circumstances and needs of their area;
    Third, Congress should adhere to the promise that was made 
in 1997 to set December1, 2006, as a date certain for the 
broadcasters to vacate the spectrum by passing the Homeland 
Emergency Response Operations Act, H.R. 1646, which legislation 
is sponsored by Representatives Weldon and Harman, both 
esteemed members of this committee;
    Fourth, the Federal Government must also share information 
with local governments without jeopardizing national security. 
We should collect the data on the effects of disaster and the 
lessons learned from Katrina and Rita, then disseminate that 
analysis to aid State and local disaster related efforts;
    Fifth, the Federal Government should also provide 
assistance to State and local governments to help them conduct 
annual hazard and risk assessments to determine the 
vulnerability of particular areas or structures to disasters or 
terrorist acts based on historical and intelligence 
information. A unified, uniform emergency warning system should 
be developed to ensure that as people travel throughout the 
Nation, they will be informed of existing emergencies and 
advised how to respond; and
    Number seven and lastly, local governments should be 
supported in their efforts to encourage the public-private 
sectors to retrofit existing structures to reduce future losses 
from natural disasters, to locate new constructions outside of 
high-risk areas such as flood plains, coastal areas or near 
earthquake faults.
    In conclusion, Homeland Security is about relationships. 
Whether we are talking about responding to hurricanes or fires 
or the work of terrorists, clear delineation of 
responsibilities and trust are critical to deploying the 
response and recovery plan. Intergovernmental coordination will 
improve the preparedness and response to disasters and thereby 
mitigate the losses incurred, thus helping to maintain viable 
communities and an economically sound Nation.
    When we have a truly organized system to respond to 
emergencies, the Nation will realize a natural disaster does 
not have to be a national disaster.
    Thank you for the opportunity to testify before this 
committee. May God bless each one of you, this committee and 
our great Nation.
    [The statement of Mr. Samuel follows:]

          Prepared Statement of Mayor Pro Tem Audwin M. Samuel

    Thank you, Chairman King, Ranking Member Thompson and members of 
the House Committee on Homeland Security for the opportunity to speak 
with you today. I am Audwin M. Samuel, Councilmember and Mayor pro tem 
of Beaumont, Texas. I am pleased to testify on behalf of the National 
League of Cities on ``Federalism and Natural Disaster Response: 
Examining the Roles of Local, State, and Federal Agencies.'' My remarks 
are based on my service as the Vice-chair of the Public Safety and 
Crime Prevention Policy and Advocacy Committee of the National League 
of Cities. Most importantly, I am also relying on my seventeen years as 
a council member in Beaumont, Texas--my beautiful city which recently 
experienced the fury of Hurricane Rita.
    The National League of Cities is the nation's oldest and largest 
association representing municipal interests before the federal 
government--representing more than 135,000 locally elected officials in 
more than 18,000 cities of all sizes. Our largest member is New York 
City, NY with a population of 8 million and our smallest member is 
Vernon, CA with a population of 91. As the representative of the 
nation's local leaders, the National League of Cities has a vital 
interest in clarifying the roles and responsibilities of local 
government and how the federal policies impact the stability of 
municipalities and their ability to deliver key services to America's 
citizens and residents.

    Beaumont, Hurricane Rita, and Intergovernmental Relationships:
    The National League of Cities (NLC) has adopted policy which states 
that ``local governments are the first level of government to respond 
to most disasters and emergencies and must be regarded as the focal 
point of all disaster mitigation and recovery activities.'' (2005 
National Municipal Policy,\1\ Sec. 6.01(A)) The highest priority of all 
levels of government in addressing disaster and terrorism issues should 
be prevention and mitigation. Mitigation saves lives and reduces 
injuries; reduces economic losses; maintains and protects critical 
infrastructure; and reduces the liability borne by local governments 
and elected officials.
---------------------------------------------------------------------------
    \1\ The National Municipal Policy (NMP) contains the formally 
adopted positions taken by the organization on national issues. As a 
national membership organization, NLC focuses its policy positions on 
federal actions, programs, and proposals which directly impact 
municipalities.
---------------------------------------------------------------------------
    All in all, seamless integration with all levels of government is 
critical to prepare, respond, and recover from natural and terrorist 
disasters. The two most important questions that must be understood 
are:
        (1) Who is responsible for homeland security--whether natural 
        or man-made?
        (2) Who has authority to tell whom to do what?
    Members of the Committee, Beaumont, TX was exemplary in its 
planning and response to Hurricane Rita because there was a clear 
understanding of who was responsible and who had authority. Plans were 
underway at least four days before Hurricane Rita made landfall in my 
city. As Mayor pro tem, I was among the city and county officials who 
joined Governor Perry's office on regularly scheduled telephone 
conferences to discuss our incident management system. As the storm 
neared and a hurricane watch turned into a hurricane warning, the 
command system went into effect within the region. Specifically, the 
county judge, the designated command chief, took the helm and all the 
regional officials began to communicate and share their plans.
    There were three telephone conferences per day at 10:00 a.m., 3:00 
p.m., and 10:00 p.m. as of Tuesday before the storm. The regularly 
scheduled phone calls offered an excellent opportunity for everyone to 
familiarize themselves with the key decision makers--which included the 
surrounding mayors, county judge, state officials, Coast Guard, and the 
principle first responders. The command team received updates regarding 
the storm's track and intensity, estimated time for landfall, and the 
location for the pre-positioning of the necessary emergency and 
response equipment. The affected industries and their representatives, 
although not part of the telephone conferences, were provided regular 
updates since the refineries in the area need advance notice to shut 
down.
    Direct communication among the regional command center continued as 
the storm intensified. When the storm veered more directly toward 
Beaumont, the regional command center was forced to relocate inland. 
Entergy, the local utility company, graciously provided the necessary 
space for the repositioned command center--a true public/private 
partnership.
    At 6:00 a.m. on Thursday, the county judge called for a mandatory 
evacuation of the southernmost part of the county, Sabine Pass, and 
then Port Arthur, the mid-county cities, then Beaumont at noon. The 
decision for mandatory evacuation came after many post-conference call 
breakout sessions. Let me state clearly, that the decision regarding 
evacuation rested with the county judge--the incident command chief who 
took into consideration the input of the area mayors. There were many 
discussions regarding the timing, speed, strength, and path of the 
storm before the mandatory evacuation was declared. Local officials 
also engaged in planning for the evacuation of vulnerable population by 
coordinating with the Coast Guard and other key players to airlift 
those with compromised health.
    Local officials were also in constant communication with the 
Department of Public Safety (state police) and county sheriff regarding 
how to deploy the evacuation. The volume of the traffic from the 
previous evacuations of Galveston, Chambers, and Harris Counties and 
the unavailability of inland shelters posed a great problem. Evacuees 
from Katrina were housed in the designated shelter areas which were 
about 70 to 80 miles from Beaumont. This forced many seeking shelter to 
have to drive 200 to 600 miles to find the next available shelters. 
Once the evacuation was in effect, the state played a more prominent 
role because of the use of state highways and traffic concerns.
    As the stormed intensified on Friday night and unleashed its fury 
on Saturday, the city was deserted. The regional command system 
remained in place, nevertheless. Devastation and darkness greeted me 
when I returned from Dallas late Saturday evening. A typical four-hour 
ride took seven hours because of the lack of gasoline along the 
interstate and the need to rely on secondary roads. The Coast Guard and 
some key FEMA officials (without their teams) were on hand.
    I was struck to learn, however, that despite our careful planning 
there were problems with our emergency communication systems. As the 
state police prevented people from reentering the city, their units had 
to be coupled with a Beaumont police or county sheriff because their 
communication system was not interoperable. The residents' return home 
was prevented by downed power lines, uprooted trees and other damage. 
Local police, with personal knowledge of the geographic layout of the 
city and back roads, had to be paired with other law enforcement 
agencies to serve as communication conduits to the state and other 
officials.
    Local and state first responders performed search and rescue of the 
community while the federal officials established their staging site at 
Ford Park coliseum center, earlier used as the Katrina command 
operation center and evacuee site. The staging site contained ice 
trucks, generators, and other amenities needed to alleviate the plight 
of residents. The city hall, police stations and hospitals were without 
power and there was significant flooding near the underpasses of the 
highway. City officials were upset to learn that federal officials at 
the staging site could not release the generators necessary to power-up 
the city or ice trucks until Washington, D.C. approved the ``assessment 
process.'' Local officials who helped to pre-position the equipment 
before the storm had to, in some reported instances, put in new 
requests for generators. After the storm, however, local authority was 
marginalized by the requirement that Washington, D.C.--not the regional 
command system or federal officials on the ground--act as the final 
decision makers.
    The public's frustration grew considerably on Sunday and Monday as 
they weathered the Texas heat without power, while generators and ice 
stayed in the trucks awaiting approval by Washington, D.C. In reply, 
the Jefferson County Judge, where Beaumont is located, made the 
executive decision to expend over $500,000 for generators. The local 
utility company, Entergy, also helped to provide generators.
    As our recent experience with Rita indicate, a clear understanding 
of who is responsible and who has authority to do what is key to an 
effective intergovernmental response. In our case, federal bureaucratic 
red tape prevented the county judge, who was the designated command 
chief, from making the decisions on the ground necessary to mobilize 
needed supplies.

Recommendations to Improve Intergovernmental Coordination
    Based on my Hurricane Rita pre-planning and recovery experience, I 
am now convinced more than ever that the local governments should be 
prepared to be ``on their own'' for the first 48 to 72 hours before 
federal assistance arrives to assist with a catastrophic event. Equally 
important, we need a national, not federal homeland security response 
to catastrophic disasters. Only a national effort will ensure that all 
levels of government participate in the disaster planning and recovery 
as full and equal partners. Listed below are the National League of 
Cities' recommendations to establish an effective national preparedness 
and response plan:
        (1) An effective system must be developed to ensure that 
        federal and state emergency management officials conduct 
        substantive consultations with local officials to make key 
        decisions affecting homeland security, disaster preparedness 
        and response at the local level. NLC embraces efforts to 
        develop a comprehensive national homeland security and disaster 
        preparedness strategy because the likelihood of natural 
        disasters and the potential for hazardous or radioactive 
        material spills, pipeline accidents, large scale social 
        disorders, and domestic and international terrorism require 
        that all levels of government coordinate efforts to protect 
        communities. This is why NLC has strongly urged that the 
        Department of Homeland Security continue to have a central 
        office for coordinating local and state domestic preparedness 
        activities. Regional plans and cooperation must be fostered 
        through this central office. It is also critical that local 
        officials are afforded the maximum flexibility to use the 
        federal and state technical and financial funds to meet the 
        needs of their constituents.
        (2) There must be adequate funding for local emergency 
        preparedness and disaster planning to allow a city to tailor 
        planning to the special circumstances and needs of the area, 
        particularly to areas with facilities and dense populations 
        that have the potential to be terrorist targets or are prone to 
        natural disasters. The federal government must also increase 
        funding to local governments for preparedness and response, 
        including processes to resolve equity issues in disaster relief 
        efforts. Specifically, when multiple cities have been damaged 
        by a disaster, a formula or waiver process should be available 
        to allocate resources for disaster-related damage in a fair 
        manner.
        Clearly, the transfer of funding from the from the 
        Preparedness, Mitigation, Response, and Recovery Program at the 
        Federal Emergency Management Agency (FEMA) has hampered 
        recovery and response to Gulf State areas affected by 
        Hurricanes Katrina and Rita. One such example is the transfer 
        of $79 million from FEMA's preparedness office to the 
        operational programs of the Transportation Security 
        Administration. Also, FEMA regional offices, which are central 
        to effective intergovernmental communication, have experienced 
        shortages in staffing levels which has left them with seventy-
        percent of authorized positions filled. These are the types of 
        resource allocation and policy decisions that hinder 
        cooperation among levels of government, as demonstrated by the 
        shortcomings of the responses to areas impacted by Hurricanes 
        Katrina and Rita.
        (3) Local governments must haveappropriate emergency 
        communication systems. NLC policy calls for the federal 
        government to take ``immediate action to provide local 
        governments with the broadcast channels needed to enhance their 
        communications capabilities. . . . The federal government 
        should encourage regional planning for public safety 
        communication needs and address the current shortage of 
        spectrum channels with a long-term plan that ensures available 
        broadcast channels to meet future public safety needs across 
        the nation.'' (2005 National Municipal Policy Sec. 6.02(E)(2))
        In the wake of the emergency communications problems 
        experienced during and after Hurricane Katrina, NLC called on 
        Congress to take immediate action on legislation that would set 
        a firm date for television broadcasters to return the radio 
        frequencies that have been set aside for public safety 
        purposes. NLC has been a vocal advocate for legislation that 
        would permanently clear broadcast spectrum for emergency 
        communication since the 1995 bombing in Oklahoma City. In 1997, 
        Congress promised first responders that the radio frequencies 
        would be available to them by December 31, 2006. The 9/11 
        Commission's Final Report concluded that the inability of these 
        first responders to talk with each other and the congestion of 
        the frequencies on the spectrum resulted in the significant 
        loss of life on September 11, 2001.
        Members of the Committee, when first responders cannot talk to 
        each other, lives are lost. This is why NLC has called on 
        Congress to pass the Homeland Emergency Response Operations Act 
        (HERO), H.R. 1646, sponsored by Representatives Weldon and 
        Harman, both esteemed members of this committee. NLC is again 
        appealing to you to do the right thing and pass legislation 
        sets a date certain of December 31, 2006, or as close to that 
        date as possible.
        (4) Local governments must be provided with the technical 
        assistance and regional training devoted to disaster 
        preparedness and response. This technical assistance should 
        include the gathering and regular dissemination of information 
        to local governments on general disaster issues and terrorist 
        threats as well as specific disasters where they occur.
        (5) The federal government must also share the information with 
        local governments without jeopardizing national security. 
        Regions, as part of federal technical assistance efforts, 
        should be encouraged to share resources and equipment needed 
        for preparedness and response through mutual aid agreements and 
        regional coordination.
        There also needs to be an extensive effort to expand and 
        improve the relationships that exist among federal, state, 
        local, and private sector personnel responsible for networking, 
        prevention, preparedness, response, and recovery. Expertise can 
        be pooled from national state and local government associations 
        along with the professional associations for public health, 
        public works, police and fire fighters, and the National 
        Emergency Management Associations and its Homeland Security 
        Consortium. Policy makers can also get valuable information 
        from advisory groups and task forces from the Department of 
        Homeland Security.
        (6) Knowing that improved safety from disasters in the future 
        relies on what we can learn from the disasters of today, the 
        federal government should collect data on the effects of 
        disasters and lessons learned from Katrina and Rita and 
        disseminate that analysis to aid state and local disaster-
        related efforts. Similarly, the federal government should 
        provide assistance to state and local governments to help them 
        conduct annual hazard and risk assessments to determine the 
        vulnerability of particular areas or structures to disasters or 
        terrorist acts based on historical and/or intelligence 
        information.
        (7) A uniform emergency warning system should be developed to 
        ensure that as people travel throughout the nation they will be 
        informed of existing emergencies and advised how to respond.
        (8) Local governments should be supported in their efforts to 
        encourage the public and private sectors to retrofit existing 
        structures to reduce future losses from natural disasters and 
        to locate new construction outside of high-risk areas such as 
        flood plains, coastal areas or on or near earthquake faults.

Conclusion
    The familiar mantra after every natural disaster or act of 
terrorism is that the nation needs to improve federal, state, and local 
coordination regarding preparedness, recovery and response. A 1993 
report by the U.S. General Accountability Office (GAO) found that there 
was a need to ``provide state and local governments with training 
specifically geared towards developing such necessary skills for 
responding to catastrophic disasters.'' \2\ However, despite the fact 
that GAO has published over 120 reports on preparedness and response, 
it has found that ``the extent to which many of our earlier 
recommendations have been fully implemented remains unclear.''.\3\ What 
is clear is that Hurricane Katrina, and to some extent Rita, revealed 
the need for improved intergovernmental response to catastrophic 
disasters.
---------------------------------------------------------------------------
    \2\Disaster Management: Improving the Nation's Response to 
Catastrophic Disasters, Government Accountability Office, July 1993, 
page 9.
    \3\ Norman J. Rabkin, Managing Director, Homeland Security and 
Justice Issues, Government Accountability Office, Testimony before the 
Subcommittee on Oversight and Investigations, House Committee on Energy 
and Commerce, September 28, 2005.
---------------------------------------------------------------------------
    Homeland security is about relationships--whether we are talking 
about responding to hurricanes and fires or the work of terrorists. 
Public servants at all levels of government cannot accomplish the goals 
of preparedness and response if they are not familiar with the people 
with whom they have to work and the area and the people they need to 
serve. The clear delineation of responsibilities and trust are critical 
to deploying the response and recovery plan. Intergovernmental 
coordination will improve the preparedness and response to disasters 
and thereby mitigate the losses incurred; thus helping to maintain 
viable communities and an economically sound nation. When we have a 
truly organized system to respond to emergencies, the nation will 
realize that a natural disaster does not have to be a national 
disaster.
    On behalf of the National League of Cities, I thank you for the 
opportunity to submit this testimony on this most critical issue.

    Chairman King. Thank you, Mayor Samuel.
    Mayor Wallace, Mayor Samuel pretty much laid out a time 
line of what was done in preparation for Rita. Would that be 
similar also in Sugar Land?
    Mr. Wallace. Identical. Actually, there were certain 
activities that we had to do from a flood control perspective 
where we started to bring the levels down in different lakes 
that we had, starting about a week prior to Rita hitting, and 
those were certain advances that we did.
    And again, there were a number of things from a 
preparedness perspective that all of the cities, I think, in 
the greater Houston, HGAC area, had learned as a result of 
Katrina. And so I think a lot of people started much earlier 
than some other cities might have done if it weren't for 
Katrina.
    Chairman King. Mayor Samuel, you mentioned that in addition 
to what is on paper and what is practiced as far as the plans, 
what is really important--or almost as important--are the 
personal relationships or the working relationships between the 
various levels of government and the various officials 
involved.
    In the off years or the off seasons, when you are not 
having hurricanes, what is the extent of those relationships? 
Like, do mayors in one city discuss this problem with one 
another? Are you in contact with people in the Federal 
Government?
    I mean, again, with whom in the Federal Government would 
you have regular contact when there are no hurricanes.
    Mr. Samuel. Well, in preparedness, we had disaster 
exercises which was coordination between officials from FEMA, 
the State and local governments, so I believe that because of 
the exercises prior to the hurricane, as well as the exercise 
with Katrina, it allowed us to be better prepared when Rita 
came.
    Chairman King. Do you feel the Federal Government has been 
cooperative, not just before and during, but actually in the 
off seasons, when there are no hurricanes, do you find the 
Federal Government willing to work with you? Are they a willing 
partner or a reluctant partner?
    Mr. Samuel. I believe they have been a willing partner. We 
have enjoyed the relationship with those officials that were in 
our area working with us. However, because of the staffing 
level, we believe that created some problems in FEMA. And in 
preparedness, it was a good job, response, there were some 
concerns; and it was because of the lack of local authority 
within the Federal agency that could have been better suited.
    I believe that is a lesson that was learned, not only from 
the local and State perspective, but also from the agency 
perspective.
    Chairman King. Mayor Wallace.
    Mr. Wallace. I would comment also particularly on the last 
portion from a FEMA preparedness standpoint.
    I think, prior to an event, the training exercises, all of 
those things, the relationships that we have between the 
cities, the counties, the State and the Federal Government, I 
think are very, very strong, and I think they work well. 
However, I think the recovery aspect could have been done 
better, and I think all of us are learning new things that we 
can do the next time--God forbid this were to happen again.
    But when FEMA arrived, when other--Red Cross, other folks 
came in, it appeared that the rules continued to change. People 
started operating--whether it was for public assistance issues, 
things of that nature, people were operating on one set of 
circumstances; and then a few days later that would change. And 
so there was a great deal of miscommunication that I think took 
place in that regard.
    And so I think, as we move forward, we need to look at 
that, refine it and make sure that that becomes policy.
    Chairman King. Some of these red tape problems that you are 
talking about, have you seen any improvement from one hurricane 
to the next, or the same problems remain there?
    Mr. Wallace. Well, I think, from a red tape perspective, 
you are talking about funding reimbursements, things of that 
nature. I believe that some of these issues were around with 
Hurricane Allison, because I know that there are still some 
dollars that are in the pipeline.
    Chairman King. Things like the decision about the 
generators, I believe you said, that--
    Mr. Samuel. I can address that.
    One of the concerns we had, there were requisitions for 
generators. We knew that that would be a problem and a concern. 
We went out to Ford Park, and there were generators on trucks 
available and the specifications were absolutely what we 
needed. However, they could not be released until a full 
assessment was done, and the authority was given from 
Washington to release those generators.
    There were ice trucks. There were 12 on site. Ice ready, 
water ready, but they would not release it to our citizens 
until a full assessment was done. I personally made trips to 
one of the neighboring cities to load up my truck with water 
and ice to deliver to our constituents. And there is no reason 
that that should happen when it is right there.
    Chairman King. Now, did you have similar problems in 
previous hurricanes? What I am getting at--is FEMA getting 
better or worse is, I guess, the question I am trying to get 
at.
    Mr. Wallace. I think--again, I think in this particular 
case, I think that the magnitude of the storm in Katrina, 
followed up by the magnitude of the evacuation of those 
evacuees, which we talked about this morning, I think 
outstripped the capabilities of FEMA; and so whether or not 
they had policies and procedures in place for many of the 
agencies that were there, I think many of those got dwarfed 
just because of the magnitude.
    Mr. Samuel. And, Mr. Chairman, I believe that what Governor 
Perry stated has to be considered. This was not an ordinary 
situation. We had just come off the heels of Katrina. We had 
thousands of evacuees in our city and then we had to evacuate 
the evacuees as well as our own citizens. So this is a 
different situation.
    But I believe, in the preparedness, I think FEMA did a very 
good job in coming in to assist in preparation.
    The response, I think there are some areas that we all 
learned from and there have to be some adjustments.
    Chairman King. Thank you. My time has expired.
    Ranking Member Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. I 
appreciate the testimony of our two panelists here today.
    Mr. Samuel, can you tell me whether or not Beaumont has an 
evacuation plan?
    Mr. Samuel. Yes, Beaumont has an evacuation plan that has 
been in place with our entire region. Our mayor, our county 
judge, as well as the other mayors in the surrounding cities 
all work together in the planning; and they go through the 
exercises for--in the event of a natural disaster or a planned 
disaster.
    Mr. Wallace. Yes, we do; and again it is part of an overall 
evacuation plan for the region.
    Mr. Thompson. So, to your knowledge, most of the adjoining 
communities have this evacuation plan?
    Mr. Wallace. Yes.
    Mr. Thompson. Now, do you know whether it is required, or 
is it just something that you have done on your own?
    Mr. Wallace. I know from our perspective, as a member of 
the Houston-Galveston Area Council, we are required to 
participate in that overall evacuation plan. So it is required.
    Mr. Thompson. Mr. Samuel.
    Mr. Samuel. I am not sure if it is required, but I know 
that it has been a practice in our region to develop that 
evacuation plan.
    Mr. Thompson. And you think--and I would assume from your 
comments, both of you--that you deem this as something that is 
reasonable and practical and should be basically in place by 
all communities?
    Mr. Wallace. Well, I think an evacuation plan should be. 
Again, I think there are a lot of lessons learned as it relates 
to the evacuation of the greater Houston area. And there are 
things that we are going to learn from this that we can 
implement the next time we have some type of an evacuation.
    In the city of Sugar Land, many of the folks leaving 
Galveston came right through the city of Sugar Land because the 
evacuation route is through our city. So we, as a pass-through 
community, not just evacuating our own citizens but as a pass-
through community, had to deal with hundreds of thousands of 
cars that were going through streets that were just six-lane 
divided roads. So we were able to get that done in a 24-hour 
period.
    Mr. Thompson. Mr. Samuel, this FEMA person that you said 
that showed up in your town, what did they have authority to 
do?
    Mr. Samuel. Well, I am not sure how much authority they 
had. But one of the dire needs immediately after the storm was 
ice and water to those citizens that were still in the city, 
and they did not have the authority to release ice and water.
    Mr. Thompson. Mayor Wallace, can you just--I guess what I 
am saying is, if the person that appeared in your community 
representing FEMA, did they have sole authority to make 
decisions? Or did they have to bump it up the ladder, and if 
they did, how long did it take to make decisions?
    Mr. Wallace. The way I would like to respond to that is, 
within the first couple of days of FEMA being on the scene--I 
am going back to the Katrina situation, because on a daily 
basis we met with Judge Eckels, Mayor White and several others, 
including the FEMA representatives.
    The first few days, again, it was just trying to mobilize 
the people and trying to get them there, and there was a great 
deal of confusion. I think a lot of questions that were being 
asked, trying to get real-time decisions, needed to be--to go 
up the ladder. As time went by, that process got smoother and 
smoother, and it seemed that more apparent authority was 
granted to the people-on-the ground.
    Mr. Thompson. So would you say to us that for FEMA to be 
this robust agency responding to any natural disaster, that 
those individuals that become embedded in communities need to 
have the authority, real-time authority to make decisions?
    Mr. Wallace. Clearly. And I also think that when we go back 
and do an analysis of the things that went well and things that 
went wrong, I think we need to go back and look at the policies 
as to what authority will be granted to those on-the-ground 
individuals.
    Mr. Thompson. I guess the only other situation is, is it 
too early for you all to start talking about reimbursement at 
this point? Or are you involved in it at this point?
    Mr. Wallace. We have already submitted reimbursables to 
FEMA.
    Mr. Samuel. It is still too early. We still are attempting 
to recover. There is an enormous--there are tons of trash and 
debris. We are still attempting to clean up. We still don't 
have full power, so there are--it is too early to make an 
assessment.
    Mr. Thompson. So I would assume from lessons learned in 
this situation, that as the emergency grew, people started 
responding better in terms of making decisions and other 
things.
    Mr. Wallace. I think that that is definitely the case.
    Mr. Thompson. Well, Mr. Chairman, I hope that if this 
continues to be the practice, we are in good shape. But at the 
next emergency, if it takes us 3 or 4 days to kind of get the 
system in place, we still have a problem.
    Now, I think our concern is, if the cavalry shows up, we 
want the cavalry to be ready to respond. And I mean, I would 
say that that is all our intent.
    Mr. Wallace. If I might, sir, just from a local response, 
this is a group effort. It is not just FEMA, it is not local. 
It is the private sector. It is the faith-based communities, 
things of that nature.
    In less than a week within the city of Sugar Land, the 
Houston area, we had a couple of hundred thousand people in our 
community, thousands of people, just new kids going to school, 
things of that nature. And what we wanted to do as a private 
sector was put together a single-shop location where the 
evacuees could go to for many of the issues, whether it was 
housing, whether it was educational issues, reimbursement for 
medical needs, things of that nature.
    So I would encourage, as we continue to move forward, that 
that be one of the first things that the local community try to 
create and replicate a model that we have, because we literally 
in the first week were helping thousands of people a day that 
were coming through for medical needs, and in the first week we 
placed over 500 jobs to people that were coming into our 
community.
    Again, it is not just a FEMA issue. I think it is an issue 
that we all learned a lot of new lessons.
    Mr. Thompson. Thank you.
    Chairman King. The gentlelady from the Virgin Islands, 
Donna Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I just wanted to 
follow up on the cavalry being ready when they show up. And it 
amazes me to hear some of the testimony, and I am particularly 
taken aback by the fact that the local authority was 
marginalized by the requirement of Washington, D.C. not the 
regional command system or Federal officials on the ground were 
the final decision makers.
    The issue of ice and generators, those things have--the 
procedure for dealing with ice and generators was something 
that has been used in disasters before. It was used, we learned 
about, in Hugo in 1989. We used it in Maryland in 1995 and in 
subsequent hurricanes.
    So it is just amazing to me how much of the experience and 
the institutional knowledge of FEMA has been lost over the 
years, so that when we have a disaster today, we have to 
reinvent the wheel and it has already been done and invented. 
We really shouldn't have had to go there.
    Mr. Samuel, Mayor Samuel, you talked about--well, both of 
you did, really, about the coordinating meetings between the 
cities and the State, and they were happening two, three times 
a day. That is my experience with FEMA as well.
    Were there those kinds of coordinating meetings two or 
three times a day that involved the FEMA command center near 
Washington with your local officials, happening from time to 
time before, during and after the storm?
    Mr. Samuel. Our experience, most communications with FEMA 
came about 2Zys after the storm. There was constant presence.
    Mrs. Christensen. But the coordinating meetings where you 
sit down and you look at what the problems are and you develop 
a plan to meet them--
    Mr. Samuel. They were a part of the operation plans, yes. 
There were representatives from FEMA in our planning.
    Mrs. Christensen. And so you all were meeting on a daily 
basis or more than once a day?
    Mr. Samuel. Yes.
    Mr. Wallace. And we were, as well, through our emergency 
operation center, on a daily basis about every 2 hours, 
particularly as we were getting closer to the onset of the 
storm from Rita's perspective, where we plugged into the 
State's direct--the Department of Homeland Security, FEMA was 
on those calls as well.
    Mrs. Christensen. Then I don't understand why the judge had 
to go and buy generators and ice.
    But, okay, one of the problems that we saw in Katrina was a 
communication problem. Everybody, different people were 
talking. Sometimes the messages were confusing. It was 
confusing the public and probably scaring the public, and the 
media kind of took control.
    It seemed as though both of you had that communications 
issue under control. How did you do it? How did you centralize? 
What did you do to have the city speaking with one voice, or 
were you able to do that?
    Mr. Samuel. Well, one thing we had to deal with, we had to 
deal with the guards that were preventing individuals from 
coming back into the city early on. We had to deal with State 
troopers throughout our city doing patrols. And one of the 
things--the interoperability was not there; therefore, we had 
to couple our local law enforcement officers, one officer with 
one of the State officers, in order for there to be clear 
communications because of the lack of a spectrum that they 
could all communicate on.
    That was somewhat creative in a means of maintaining clear 
communications for all entities.
    Mrs. Christensen. All right. Now, what about communicating 
to the public?
    Mr. Wallace. I think from our perspective--let me also talk 
about it from a regional view.
    One of the things that benefits the greater Houston area is 
what I referred to earlier about the HGAC, the Houston-
Galveston Area Council, because what that agency does is 
several counties that come together, where you have county 
judges, you have mayors, you have emergency responders, all 
coordinate; and at that point from a communication standpoint 
it is not trying to find who you are supposed to talk to, it is 
picking up the phone and communicating with the people that you 
know.
    So I think there was a level of preparedness as it relates 
to communicating with individuals on a daily basis. The city of 
Sugar Land is a suburb of Houston. Yes, that is a major TV 
market in the Houston area, but going into every single one of 
our homes is a local access channel, so on a daily basis we 
updated that.
    One of the areas that I indicated in my testimony that is 
of great concern and something that needs to be fixed is the 
reverse 911 capability. I think the reverse 911 capability is a 
wonderful tool if you want to alert a couple hundred homes 
about a hostage situation, tanker derailment and evacuation 
type of a situation. But when we made the decision at noon on 
Thursday to let our community know what the status was--and, 
remember, this is hours after we received a weather report 
saying 140-mile-an-hour winds in Sugar Land--we started to 
communicate with our public on a reverse 911.
    Everybody in the Houston region uses the same Reverse 911 
service provider. We were behind a queue of over 750 Reverse 
911s. The people in our community got the emergency call at 
9:00 that evening when we wanted to start it at 12:00. That is 
something that clearly needs to be fixed. And whether that is a 
bandwidth issue, whether that is having multiple service 
providers, those are things we need to definitely go back and 
look at.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Chairman King. Thank the gentlelady.
    At this time he will get his full 5 minutes. The gentleman 
from Florida, the long-patient gentleman from Florida, Mr. 
Meek.
    Mr. Meek. Thank you, Mr. Chairman. I want to thank the 
Councilman and Mayor for joining us here under the 
circumstances.
    I think you had an opportunity to hear some of the 
discussion that took place in the last panel with the 
governors. And I only had 1 minute and because of the clock, 
not because of the chairman, for the vote that came up on the 
floor. But I think it is important for us to--and I was taking 
a look at your testimony. I think it is important for us to 
realize that after the aftermath of Katrina and Rita that there 
are a lot of lessons that we all learned from it.
    I can tell you one thing, that this is the first, you 
know--and I know the chairman is new being the chairman, but 
this is the first hearing that we have had that had anything to 
deal with the response, the good or the bad, to Hurricane 
Katrina and Rita. And I think, several months and several weeks 
afterwards, of course, we should have been on top of it 
earlier, but it goes to show you that this is beyond 
partisanship. This is about preparing the country for future 
events, need it be natural or need it be a terrorist event for 
us to be able to respond.
    Now I am creature of the State legislature in Florida. I 
was there for about 8 years prior to my arrival here. And I can 
tell you from watching the time of devolution of taxation on 
the Federal commitment--and I know that you represent your 
respective national organizations also. But as we look at 
devolution of taxation, we look at the lack of resources, we 
look at the priorities not being what they used to be.
    And so your presence here is important and I am glad that I 
was reading--Mayor Wallace, I was reading your statements here 
as it relates to first responders funding. I think that is 
important.
    Mr. Meek. But I also think it is important to have the 
validation of what I call third-party validators. What I mean 
by third-party validators, when I asked the governors do you 
believe that it is important to be able to have an independent 
body outside of this political body to look at what went right, 
what went wrong, what can we correct, you have heard, I don't 
need to repeat the responses, but definitely from the Texas 
Governor it was important, if I had more than a minute, I would 
have said I can help you save a lot of money. I will tell you 
what we learned.
    Well, that is the kind of attitude that got us into a levee 
situation. I am pretty sure fixing the levee in New Orleans was 
something like, oh, well, we are doing something, but we are 
not necessarily addressing it.
    We want to be make sure that local government has what it 
needs to be able to respond, since now you are being painted 
into the corner of being the responder to natural disasters. 
Catastrophic.
    So I think it is important to take this seriously, we take 
our partisan hats off, we take our regional hats off, and take 
our big city versus small city hats off, big States versus 
little States, because even looking at the budgets as it 
compares to Texas and Florida, compared to Louisiana, Alabama 
and Mississippi, it doesn't compare. So that means that the 
local governments, relating to the tax base, are running into 
the same issues.
    So I am saying all of this to say yes, there are going to 
be some delays in response, and, yes, it is kind of hard for 
folks that are elected to lead and be there for people in their 
time of need and at the same time say I would endorse an 
opportunity for all of us to be reviewed, not only on our job 
performance, but also on our responsibilities.
    Now, these are hurricanes that we saw coming. What happens 
when someone decides to show up in a town with a Greyhound bus 
with a dirty bomb and we are down at the diner drinking coffee, 
and the next thing you know, our constituents hear about it and 
there are all kinds of rumors out here? Oh, if you stay here 10 
more minutes, you are going to die. And you have to evacuate an 
entire city, or an entire county, or an entire State. What are 
we going to do? How do you respond?
    We have done top-off programs, in New York City and 
counties and the national organizations throughout this 
country. We had Hurricane Pat in New Orleans. We knew what the 
deal was. But the bottom line was it was when what we call here 
in the Congress under regular order. It wasn't an independent 
commission to deal with this issue and raise these issues to 
the forefront so that we can be able to do something about it.
    That is what we need. It may sound small, but I am hoping 
that your perspective national organizations will call for an 
independent commission, a Katrina Commission, which is 
verbatim, which is a House bill that is now introduced here in 
the Congress, many members have signed on to it, 81 percent of 
Americans support it. But the bottom line is, this isn't about 
who did and who didn't or what have you, it is about saving 
lives, American lives.
    So I wanted to hear if there is any discussion within your 
national organizations that you represent, the League and the 
Council of Mayors, is there any discussion on how can we 
support or promote an independent commission outside of 
political bodies to be appointed to be able to ask the real 
questions of governors and mayors and emergency responders and 
hurricane preparedness people and individuals who carried out 
the top-off programs. Because I can tell you right now, with 
all due respect to the institution that I serve in and the 
voting card I carry in my wallet, we don't have the ability to 
do it and then follow through on the task, because it was 
education for all Americans, and I hate to see local elected 
officials put in the posture it was.
    Why didn't you do everything you were supposed to do when 
you were supposed to do it? It was your responsibility. Didn't 
we say that?
    Or you didn't send a letter to the Governor and the 
Governor didn't send you a letter back, and the President said 
they didn't receive a letter, but we were talking the whole 
time. What are you talking about?
    So we don't have to get into that. If we can streamline it, 
take it out of that process, I think that is important. I think 
the League and the Council of Mayors and the Association of 
Counties and the State governors and all of these folks are 
missing a great opportunity, and the Federal Government, to be 
able to respond to all of the people that we represent here in 
the United States.
    Mr. Wallace. I personally think it would be a grave 
injustice if we did not create some type of a document, whether 
it is an independent entity that creates it or whatever, to 
come up with what is the best practice. That is one of the 
things that the Conference of Mayors I know does quite well. 
Whenever I go to talk with a mayor, whether it is a 2 million 
population mayor or a 100,000 population mayor, everyone 
shares. This is the best way we are responding to this issue.
    We start that process that you just defined Sunday evening, 
in a few days, here in Washington with the U.S. Conference of 
Mayors. So we are starting that to sit down and what are some 
of the things we can do better. We don't want to create a 
situation of pointing fingers, that somebody did this or that 
wrong. We just want to improve. There are lives at stake. That 
is what is important, and how we can best improve our 
communities. We are going to start that process this coming 
Sunday.
    Mr. Samuel. The National League of Cities at this point has 
not taken a position as to whether or not there should be a 
bipartisan committee to evaluate it. But personally, I believe 
in order for us to not repeat some of the things we have done 
in the past, we have to make an assessment of what has been 
done and what we are doing now and move forward, whether it be 
a bipartisan committee, outside committee. But it has to be 
honest, straightforward communications to make sure the real 
issues are brought to the table so they can be identified and 
addressed.
    Mr. Meek. Mr. Chairman, I thank you very much. Mr. 
Chairman, I just want to say in closing, sir, I think it is 
important that we continue to have oversight hearings on this 
very subject. The 9/11 Commission, which, sir, you represent 
the area and you were dealt with a lot of the victims of that 
disaster, human disaster that was brought about, is that we 
have learned so much from it, intelligence is so much better 
because even though it took the Congress a year to create it, 
it helped this country protect itself and it is still helping 
us protect ourselves, because it put in front of the American 
people where we did not--where we were failing and what we were 
doing good in.
    I think it was important, an area of failing, I think it is 
important for us to be able to take this, the largest natural 
disaster, and especially if you put Rita into it, it is really 
the worst natural disaster that has ever hit this country in 
the history of our existence, and not learn from it. And I 
think the only thing that is stopping us, Mr. Chairman, from 
doing that, is the fact that someone may feel that somebody may 
say someone about someone or an administration or this person 
didn't do it or an e-mail, all the silly stuff we are reading 
about in the paper.
    But meanwhile, back at the ranch, there were Americans 
waiting for 4 or 5 days, and we watched this happen, and we 
watched the loss of life and we watched the loss of property 
and we watched the disorganization, the world watched it, and 
we need to be able to learn from it.
    So it was a year before it was created, there were a lot of 
other people that came up with their own scenarios on what we 
should do and how we should do it. As you know, both 
intelligence committees came together and put forth a report. 
The 9/11 Commission was able to take the reports, the work that 
different organizations did, and put it together in a way that 
it can be useful to bring about a piece of legislation to the 
floor that we all voted on and the appropriations bill that 
many of us went to the White House, I didn't get an opportunity 
to go, I mean, I was invited but I didn't get an opportunity to 
go, to sign this Homeland Security appropriations bill, and 
some of the ingredients in that bill came out of that 9/11 
Commission.
    So, Mr. Chairman, I want to thank you for today's hearing, 
okay, that we had the governors here and that we have these 
fine local elected officials here representing their national 
organizations. But for one member, I will be here to support 
future hearings under your leadership and under the ranking 
member's leadership so we can protect America even more.
    Chairman King. I look forward to continuing to work with 
you on that. I would also note that Chairman Reichert had a 
hearing in the subcommittee last week that dealt with this 
issue, and we will continue to hold hearings on this, at both 
at the committee and subcommittee level.
    With that, I recognize my good friend from Texas, Ms. 
Jackson-Lee.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. I would 
like to just pursue a line of questioning to both of my 
distinguished friends and colleagues from Texas, and might I 
say that having started in local government as a member of 
local government, elected official, City Council, I am well 
aware of the extensive burden that local officials do face. In 
fact, you are probably the first responders in terms of the 
community looking toward you.
    With that in mind, Mr. Chairman, I would like to make a 
specific inquiry, Chairman King, to you, and to try to decipher 
where I believe that we can be most effective in this 
committee, and then I am going to pose some questions.
    We have already had the jurisdictional mayhem, if I may 
define it as such, but the will of the leadership to establish 
a Katrina separate committee, and I realize that we are both 
respectful and sensitive to that delineation. However, I think 
that what we have heard these two panels say is a cry for the 
continued work of homeland security.
    Let me tell you how it can be done, to establish our base 
of investigation under the heading of Hurricane Rita, because 
there are distinctive issues that we can continue to look at 
that would help us in our preparatory work and our going 
forward work. Let me cite for you the way that I would suggest.
    First of all, I think some of the key elements that I saw 
being at the TranStar Emergency Center through the entire time 
of Hurricane Rita was the question of evacuation and the 
orderliness of evacuation. Therefore, I think it is important 
that we can look under Hurricane Rita to those issues.
    Let me also say an ongoing problem is how do you respond to 
overlapping natural disasters and/or man<dagger>made disasters, 
which is what we face in the State of Texas? We were already 
hosting, Beaumont, Port Arthur, Sugar Land, Houston, we are 
already hosting Hurricane Katrina survivors. Our hearts have 
already been poured out. Our volunteers. Your churches, mayor, 
I know, were filled. You are a faith community.
    Then came Hurricane Rita with our own constituency that 
compounded the impact. Right now we have some 40,000 to 50,000 
in hotels that will eventually have to move out. We have cities 
that turned the lights out, I hate to say, in my own State, on 
evacuees that were coming. Why? Because there was not a 
state<dagger>wide Web, if you will, or connectedness, to say 
this is a system that is in place.
    So short of hoping that the insight that you have been 
given by staff will not counter what I think is a way to 
delineate the distinction of what our committee is doing, and 
we have two very able committees, including the full committee, 
the management committee my colleague chairs, or is ranking 
member with another colleague, and, of course, I think there 
has been established a new investigatory committee.
    I can tell you for one those of us from Texas we would like 
to be a guest on that kind of review, and that is not the kind 
of review that can really tie with Hurricane Katrina, because 
there are distinct issues that come to the receiving States who 
are then impacted by an incident or event.
    So, Mr. Chairman, I would welcome your studied response on 
that. I will turn to the witnesses because they might give you 
some greater insight to say that it is very important that are 
we have these kinds of hearings.
    Let me just go on this line of reasoning--
    Chairman King. If the gentlewoman yield, I can give a 
preliminary response. I have said all along that I intend this 
committee to go, I think the way idea find it, was right to the 
edge of Katrina. I think this morning's hearings were an 
indication of that. Hopefully, we will not have to have 
hearings on Wilma, but the purpose is to learn whatever we can 
to deal with future Katrinas and do it in such a way that does 
not interfere with others jurisdiction, but does go to the 
edge.
    I think today's hearing was very wide ranging. It did not 
use Katrina as a base, but it used that also as the opportunity 
to go off into the issues addressed by Katrina. What staff 
counsel was mentioning to me is to let you know that next week 
there is going to be a subcommittee hearing on 
interoperability.
    So all these issues are being discussed. They all have 
relation to Katrina, not all, but many of them will, certainly 
the issues raised by Katrina, and that is my intention as the 
Chairman of the full committee.
    Ms. Jackson-Lee. Well, I am grateful for that, and to keep 
us truly pure in our jurisdiction, I am sure Rita would not 
mind me using her name. I say that not that we would have 
hearings on Wilma or someone else, but it represents a very 
good case study of what happens through the leadership of the 
ranking member and yourself. I appreciate it, and I would like 
to be able to offer some suggestions, particularly on this 
question of evacuation, which is a very, very difficult lesson 
to learn.
    If the gentleman would yield me additional time that I may 
just conclude?
    Chairman King. I will yield the lady an additional 5 
minutes. If we could finish in that 5 minutes, I would greatly 
appreciate it, for my own reasons.
    Ms. Jackson-Lee. You are very kind, and I will do that, 
with great appreciation.
    Let me just, to both of you, say that I appreciate the U.S. 
Conference of Mayors and certainly the National League of 
Cities, but let me get to the point.
    Mario Wallace, would you please share how we could have 
been more helpful as we evacuated and gave the signal? 
Obviously, your governor was here. You were very keenly in 
collaboration with Judge Eckels, and might I just express my 
disappointment of his previous engagement and thank him 
publicly, Judge Robert Eckels of Harris County, and Mayor Bill 
White of Houston, for their coordinating actions together.
    But you were involved key to the evacuation issues. Tell us 
how the Federal Government and State Government might have been 
more effective in answering after the fact that long traffic 
jam, lack of gas, as you perceive it?
    Mr. Wallace. Right. I think there are a number of things, 
again, that we can learn from this. The issues as it relates to 
fuel, the issues as it relates to water. There were a number of 
people that, of course, were stuck in traffic. My family 
included, once they evacuated that morning. So I think with the 
equipment that the Federal Government might be able to assist, 
and I think that was mentioned this morning, fuel tankers, 
water, ice, things of that nature, to assist, I think it would 
be helpful. I think some of the other issues as it relates to 
the evacuation process, I know that everybody had the 
perception of Hurricane Katrina on their mind. They saw the 
footage and it was a very frightening experience that I think 
everyone lived through. And when the discussion came out as far 
as sending the first two tiers out of Galveston and out of the 
Gulf, I think everybody within the Houston area got on the 
roads, as opposed to it being in a staggered manner.
    Ms. Jackson-Lee. If, for example, we had engaged the 
Federal presence, again in collaboration, meaning because they 
have the numbers, not, if you will, overcoming our first 
responders, but because they may have the logistical 
experience, would that have been helpful in evacuating 
individuals?
    Mr. Wallace. I don't know if it would have been helpful in 
the evacuation, because I know there were many people from the 
law enforcement, on the State level as well as local, and 
sheriffs, to assist in that process. Obviously the stretch of 
land was pretty significant, going all the way up through I 
think Buffalo or Columbus going north and then heading west on 
Interstate 10. So it was a very large area of land.
    I think it did take time just to get the cones out and just 
to go through the process of getting both of the roads going in 
one direction. So I am not sure whether the Federal Government 
could have assisted in that process.
    Ms. Jackson-Lee. When you say the Federal Government, 
obviously you are talking about federalizing the National Guard 
or utilizing them, but also providing Reservists and other 
military personnel, which both Louisiana and Mississippi and 
Texas are blessed with a bounty of. So what I am suggesting to 
you, logistically with the ability of military to move people, 
would that have been helpful as you were eking to have those 
logistical procedures in place?
    Mr. Wallace. I think as it relates to Rita, I don't think 
it would have been helpful.
    Ms. Jackson-Lee. Let me say to the council member, I for 
one am aware of some of the strains that you had on your local 
community. Let me thank you, one, for what you did for 
Hurricane Katrina, and knowing that you had a number of 
residents, but also let me thank you for some of the leadership 
that I saw as a member of the Homeland Security committee 
visiting Beaumont and Port Arthur, in particular, your county 
judge and your mayor and certainly you and your leadership 
role.
    So the issue becomes, if you will, I did not see any 
predeployment. What I heard from, as we had a letter submitted 
in the record by Mayor Ortiz, no predeployment of water, no 
predeployment of ice, no ability to get food. One thing I 
noticed was that the FEMA meeting was at the Ford Arena. The 
Beaumont meeting was downtown. That doesn't seem to be a 
coordinated scenario that would appropriately get the right 
response.
    So as the chairman gavels, would you answer for me whether 
predeployment would have been helpful and also whether or not 
military in the right way would have been helpful as well, 
getting things quickly to your area?
    Mr. Samuel. First let me preface any statements I might 
have: Anytime military assistance is called, I believe it 
should be on an as<dagger>needed basis.
    Ms. Jackson-Lee. Absolutely.
    Mr. Samuel. From discussions in retrospect to what has 
happened, there has been some conversations stating that a 
military presence could have been helpful in the evacuation 
process as we move from dual directional traffic to single 
directional traffic, there was a lot of dangers that had to be 
considered and manpower became an issue.
    That could have been better handled or possibly handled 
with military presence. But, again, on an as<dagger>needed 
basis.
    So I believe there is definitely a need for a working 
relationship with the national, State and local governments, 
and there was a statewide web in place. However, it wasn't 
taken under consideration when we prepared the statewide web, 
it wasn't considered that we would be dealing with two sets of 
evacuees. So that complicated the issue.
    Also when we talk about evacuation, this particular storm, 
Rita, changed directions, or there were projections of 
different locations. Immediately Galveston County began to 
evacuate, Harris County began to evacuate. Then it came down to 
a lot of the traffic coming from South Texas was coming up the 
evacuation sites through Houston, even through but month. That 
complicated the issue when the storm took a turn toward 
Beaumont.
    So, yes, we are looking at what we did. A lot of things 
were done right. The military presence was critical to get our 
special needs people out once the storm changed and came toward 
Beaumont. We probably couldn't have evacuate as well as we did 
had it not be been for the assistance in flying out those 
special needs patients.
    So there is a need. Where that comes into play, I think 
that is best left with the local decisionmakers working with 
the national government to make those decisions.
    Ms. Jackson-Lee. They must be present and available for you 
to call on them?
    Mr. Samuel. Yes, and have the local authority in the 
Federal prisons to make decisions on the local level.
    Chairman King. The gentlelady's time has expired. I want to 
thank the witnesses for their testimony. I understand Judge 
Eckels has arrived. The hearing has gone on.
    Just so you know, Congressman Poe gave you a very fulsome 
introduction.
    Mr. Eckels. My testimony has been submitted in writing, Mr. 
Chairman. I apologize for the conflict and being late.
    Ms. Jackson-Lee. Congresswoman Jackson-Lee thanked him very 
much as well for his great work.
    Chairman King. And we take all of your compliments with 
great interest. So Judge Eckels, you are in great company if 
you can be complimented by Ms. Jackson-Lee.
    I want to thank all the witnesses for their testimony. The 
hearing record will be open for 10 days for any members who 
have additional questions. I would ask if the witness could 
respond to those questions in writing. I want to thank the 
witnesses again, thank Ms. Jackson-Lee for being here, and 
without objection, the committee stands adjourned.
    [Whereupon, at 2:22 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
